Mntfefr jitetes Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted September 24, 2020
Decided September 30, 2020
Before
ILANA DIAMOND ROVNER, Circuit Judge
AMY J. ST. EVE, Circuit Judge

No. 19-3175
VINCENT E. BOYD,
Petitioner-Appellant,

v.
DYLON RADTKE,
Respondent-Appellee.

Appeal from the United States District,,
Court for the Eastern District of
Wisconsin.
No. 2:18-cv-00275-JPS
J.P. Stadtmueller,

Judge.
ORDER

Vincent Boyd has filed a notice of appeal from the denial of his petition under
28 U.S.C. § 2254 and an application for a certificate of appealability. We have reviewed
the final order of the district court and the record on appeal and find no substantial
showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, Boyd's request for a certificate of appealability is DENIED.

Boyd v. Eckstein, Slip Copy (2019)

2019 WL 5298526
Only the Westlaw citation is currently available.
United States District Court, E.D. Wisconsin.
Vincent E. BOYD, Petitioner,
v.
Warden Scott ECKSTEIN, Respondent.
— Case No. 18-CV-275-JPS —

is
Attorneys and Law Firms

is.

Signed 10/18/2019

Vincent E. Boyd, Green Bay, WI, pro se.
Jacob J. Wittwer, Wisconsin Department of Justice Office of the Attorney General, Madison, WI, Wisconsin Dept of Justice,
for Respondent.

ORDER
J.P. Stadtmueller, U.S. District Judge
*1 Petitioner Vincent Boyd (“Boyd”) has filed a petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254, alleging
that his Sixth Amendment rights to self-representation and to confront his witnesses were violated, and that his nolo contendere
pleas were, consequentially, invalid. The parties have fully briefed their respective positions on Boyd's asserted grounds for
relief. For the reasons explained below, the Court finds that Boyd's petition is without merit and therefore must be denied.
1. STANDARD OF REVIEW
State criminal convictions are generally considered final. Review may be had in federal court only on limited grounds. To obtain
habeas relief from a state conviction, 28 U.S.C. § 2254(d)(1) (as amended by the Antiterrorism and Effective Death Penalty Act
(“AEDPA”)) requires the petitioner to show that the state court's decision on the merits of his constitutional claim was contrary
to, or involved an unreasonable application of, clearly established federal law as determined by the United States Supreme
Court. 28 U.S.C. § 2254(d)(1); Brown v. Payton, 544 U.S. 133,141 (2005). The burden ofproof rests with the petitioner. Cullen
v. Pinholster, 563 U.S. 170, 181 (2011). The relevant decision for this Court to review is that of the last state court to rule on
the merits of the petitioner's claim. Charlton v. Davis, 439 F.3d 369, 374 (7th Cir. 2006).
A state-court decision runs contrary to clearly established Supreme Court precedent “if it applies a rule that contradicts the
governing law set forth in [those] cases, or if it confronts a set of facts that is materially indistinguishable from a decision of
[the Supreme] Court but reaches a different result.” Brown, 544 U.S. at 141. Similarly, a state court unreasonably applies clearly
established Supreme Court precedent when it applies that precedent to the facts in an objectively unreasonable manner. Id.;
Bailey v. Lemke, 735 F.3d 945, 949 (7th Cir. 2013).
The AEDPA undoubtedly mandates a deferential standard of review. The Supreme Court has “emphasized with rather
unexpected vigor” the strict limits imposed by Congress on the authority of federal habeas courts to overturn state criminal
convictions. Price v. Thurmer, 637 F.3d 831, 839 (7th Cir. 2011). It is not enough for the petitioner to prove the state courts
were wrong; he must also prove they acted unreasonably. Harrington v. Richter, 562 U.S. 86, 101 (2005); Campbell v. Smith,

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

Boyd v. Eckstein, Slip Copy (2019)

770 F.3d 540, 546 (7th Cir. 2014) (“An ‘unreasonable application of’ federal law means ‘objectively unreasonable, not merely
wrong; even ‘clear error’ will not suffice.’ ”) (quoting White v. Woodall, 134 S. Ct. 1697, 1702 (2014)).
Indeed, the petitioner must demonstrate that the state court decision is “so erroneous that ‘there is no possibility fairminded
jurists could disagree that the state court's decision conflicts with [the Supreme] Court's precedents.’ ” Nevada v. Jackson, 133
S. Ct. 1990, 1992 (2013) (quoting Harrington, 562 U.S. at 102). The state court decisions must “be given the benefit of the
doubt.” Woodford v. Visciotti, 537 U.S. 19, 24 (2002); Hartjes v. Endicott, 456 F.3d 786, 792 (7th Cir. 2006). Further, when a
state court applies general constitutional standards, it is afforded even more latitude under the AEDPA in reaching decisions
based on those standards. Knowles v. Mirzayance, 556 U.S. Ill, 123 (2009); Yarborough v. Alvarado, 541 U.S. 652,664 (2004)
(“[Evaluating whether a rule application was unreasonable requires considering the rule's specificity. The more general the
rule, the more leeway courts have in reaching outcomes in case-by-case determinations.”).
*2 As the Supreme Court has explained,-“[i]f this standard is difficult to meet, that is because it was meant to be.” Harrington,
562 U.Sraf l02. Indeed, Section 2254(d)_stops just short of “imposing~a complete bar on federal-court'Telitigation of claims
already rejected in state proceedings.” See id. This is so because “habeas corpus is a ‘guard against extreme malfunctions in the
state criminal justice systems,’ not a substitute for ordinary error correction through appeal.” Id. at 102-103 (quoting Jackson
v. Virginia, 443 U.S. 307, 332 n.5 (1979) (Stevens, J., concurring)).
A federal court may also grant habeas relief on the alternative ground that the state court's adjudication of a constitutional claim
was based upon an unreasonable determination of the facts in light of the evidence presented. 28 U.S.C. § 2254(d)(2). The
underlying state court findings of fact and credibility determinations are, however, presumed correct. Newman v. Harrington,
726 F.3d 921,928 (7th Cir. 2013). The petitioner overcomes that presumption only if he proves by clear and convincing evidence
that those findings are wrong. 28 U.S.C. § 2254(e)(1); Campbell, 770 F.3d at 546. “A decision ‘involves an unreasonable
determination of the facts if it rests upon factfinding that ignores the clear and convincing weight of the evidence.’ ” Bailey, 735
F.3d at 949-50 (quoting Goudy v. Basinger, 604 F.3d 394, 399-400 (7th Cir. 2010)). “ ‘[A] state-court factual determination
is not unreasonable merely because the federal habeas court would have reached a different conclusion in the first instance.
Burt v. Titlow, 134 S. Ct. 10, 15 (2013) (quoting Wood v. Allen, 558 U.S. 290, 301 (2010)). If shown, an unreasonable factual
determination by the state court means that this Court must review the claim in question de novo. Carlson v. Jess, 526 F.3d
1018, 1024 (7th Cir. 2008).
j

«

2. BACKGROUND
In 2010, Boyd was charged with two counts of first-degree sexual assault of a child. He cycled through three attorneys before
he was finally assigned to John Wallace (“Wallace”) in 2012. At the final pretrial conference, Boyd sought a continuance and,
when that was denied, tried to fire Wallace because he felt that Wallace was not adequately prepared for trial. Additionally, he
felt that Wallace wanted him to enter a guilty plea.
Initially, the trial court would not allow Boyd to fire his attorney.1 Petitioner then sought to represent himself. The Court
allowed this, with the caveat that Wallace would remain as standby counsel. The contours of Wallace's role as standby counsel
were defined in the following exchange:
DEFENDANT: Can I just represent myself on this case then?
COURT: Mr. Wallace is still going to be sitting there.
MR. WALLACE: That would be fine with me.
COURT: And you want to do your own openings and closings and all that?
DEFENDANT: I would like to completely represent myself on this case.
COURT: Okay, and Mr. Wallace will be at your side for standby counsel.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Boyd v. Eckstein, Slip Copy (2019)

DEFENDANT: All right, and if I'm allowed to represent myself, can I have an opportunity to file the motions that I've asked
be filed—
MR. WALLACE: We can take 'em—he can take 'em up chronologically a couple of 'em, we can do 'em, yes. I know exactly
what he wants to do but—I can—I can assist him, so for the record, he has terminated me, he is proceeding pro se, and I have
been appointed standby counsel. I will assist him in his defense, and I will advise him on what and what not to do.
COURT: Well, he hasn't fired you. You're standby counsel, but he has a right to represent himself.

__

*3 (Docket #12-22 at 11-13).
-'r-~

.

;r--

_

t

The parties addressed further logistics, and the district attorney,-“Ms. Paider,” raised the issue-ofBoyd questioning the victims^--*orTthe stand in light of his prior sexual assault convictions. The transcript reads, in relevant part:
MS. PAIDER: Well, Your Honor, then in terms of the - at least one of the other acts’ victims, the one from the Langlade
County case, the one he was convicted of, I know in some of his motions he is questioning that conviction and wants to
have a trial within a trial. He's already pled and been sentenced. There's a Judgment of Conviction there. He can't dispute
the fact that that's there, and technically, because the charge is first-degree sexual assault of a child, the fact he has been
convicted of it by law is allowed to come in, so I just want him to be aware of that as well. He's not going to be able to
collaterally attack that conviction at this trial (Defendant speaks but is inaudible.)
COURT: That's true.
COURT REPORTER: I didn't hear him.
DEFENDANT: I have the right to defend myself against it. I would—I would like some latitude in questioning the
victim and I would talk to—
COURT: You will get no latitude.
MR. WALLACE: He's wishes—he's requesting some latitude in questioning—
COURT: You will get no latitude. You don't—just because you're representing yourself doesn't mean you get to violate the
rules of evidence. I mean you get to - you're right, you have a right to defend yourself within the law. That doesn't mean
just because you're representing yourself you—means you get to ask questions that aren't relevant, that are prejudicial, that
are hearsay. You don't get to violate the rules of evidence just because you're representing yourself.
DEFENDANT: No, I understand that. I just think I should be able to tell the jury —
COURT: If you don't—if you don't know what the rules are, maybe you should reconsider whether or not you want to
represent yourself.
DEFENDANT: I’m not allowed to explain to the jury why I pled guilty to the case?
COURT: You are not. You don't get to explain anything unless you testify.
Id. at 14-16 (emphasis added).
The next day, Petitioner entered a no-contest plea. Wallace and Boyd appeared at the hearing, and the trial court began to review
with Boyd his request to represent himself. At that point, Wallace interrupted the trial court and requested a moment to confer

WEST!.## © 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Boyd v. Eckstein, Slip Copy (2019)

with Boyd. They spoke briefly, and then Wallace requested five minutes “to speak with the district attorney and discuss maybe
a resolution.” (Docket #12-23 at 3:12-14). The trial court granted the request and, after conferring with the district attorney,
Wallace provided the trial court with a summary of the plea agreement, which would be a nolo contedere plea with the removal
of the “persistent repeater” status. The district attorney and Wallace discussed the potential implications of the plea on another
case in another county, but the district attorney clarified that she had no power over the disposition of the case in the other
county. Id. at 5:3-6. Following this exchange, the Court proceeded to conduct a plea colloquy to ensure that Boyd understood
the plea and its consequences, and that the plea was made knowingly, intelligently, and voluntarily. Boyd responded in favor
of all questions regarding the plea except for the following:
*4 COURT: Do you understand that...your plea[s] to the two counts of first-degree sexual assault of a child without the
persistent repeater...are no contest?
DEFENDANT: Yeah.l feel a lot of pressure, but yeah, I feel I don't really have any other option but to do that.

kz- ■

COURT: Well, obviously, I understand how you feeFpressure, and I just want you toTmderstand that—or agree that l'm not
pressuring you, you don't feel pressure from me, do^2"
"
DEFENDANT: Pressure that I—since coming in yesterday, I feel pressured today.
COURT: [Y]ou feel pressure based upon the rulings I made?
DEFENDANT: Yes. I don't feel I'm going to be able to get a fair trial here.
COURT: You don't—pardon me?
DEFENDANT: I don't feel like I would be able to get a fair trial. I don't —and I didn't have—I don't know how to represent
myself at trial.
COURT: Well, you do.
DEFENDANT: No, sir, so I'm going to plead no contest.
COURT: You could have Mr. Wallace represent you. You understand that?
(Defendant nods head up and down.)
COURT: I mean you've had numerous attorneys, and as you said yesterday, you feel that you know this case better than
anybody, but you've had an opportunity to—and obviously, this case has been going on a long time—you've had an
opportunity to become familiar with this case and you've had attorneys working on this case; you understand?
DEFENDANT: Nothing's been done. I mean there's not a single motion that's been filed on my behalf.2
. COURT: Sure there has been. We've had many motion hearings on this case. Do you understand also that by entering this plea
you'd be giving up these rights: the right to a trial? You're giving up the right to have a trial here today; you understand that?
DEFENDANT: Yes, sir.
COURT: Do you understand you're giving up your right to remain silent? You’re not remaining silent because you say —
you're pleading no contest. Do you understand that?
DEFENDANT: Yes, sir.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Boyd v. Eckstein, Slip Copy (2019)

COURT: Also, the fact you're giving up the right to confront your accusers, people who say you did this, ask them questions
up here on the witness stand, and you're also giving up the right to have the State prove that you were guilty beyond a
reasonable doubt. Do you understand you're waiving or giving up all those rights?
DEFENDANT: Yes, sir.

COURT: Okay. Has anyone made any promises or threats—other than the promise of the plea agreement—did anyone make
any promises or threats to get you to enter a plea today?
DEFENDANT: No, just a lot of pressure.
i....

Id. at 6-9.
v#—'

*5 Prior to sentencing, Boyd moved to withdraw his pleas, claiming that he felt pressure by the trial court's refusal to adjourn
the trial and his admonishment that he would receive “no latitude” in cross-examining witnesses. The trial court appointed
yet another attorney to assist Boyd with the post-conviction relief process. This attorney also filed a motion to withdraw the
pleas, claiming that the trial court had failed to conduct a hearing to determine whether Boyd had knowingly, intelligently, and
voluntarily waived his right to counsel.
The trial court denied both post-conviction motions to withdraw the pleas, but on November 6, 2013 the Wisconsin Court of
Appeals determined that the trial court had not conducted a hearing pursuant to State v. Klessig, 564 N.W.2d 716, 720 (Wis.
Ct. App. 1997), which requires courts to determine whether a waiver of counsel is knowing and voluntary. Boyd's case was
remanded for an evidentiary hearing to determine the validity of his waiver of counsel. (Docket #1-1 at 4). The trial court
conducted the hearing and concluded that Boyd's waiver of counsel was valid. Id. at 9. At this hearing, the trial court commented
that he would have provided Boyd with some latitude during the cross-examination. (Docket #15-1 at 12:18-23).
Boyd then appealed the trial court's conclusion, arguing that his right to self-representation was violated; that his waiver of
counsel was not voluntary and deliberate; that he was not competent to proceed without counsel; and that, under the totality
of circumstance, he should be allowed to withdraw his pleas. (Docket #5 at 3). He explained that the trial court did not define
standby counsel's role, or give Petitioner any input as to how standby counsel could be used. (Docket #1-1 at 10). He also argued
that he was unrepresented in the plea negotiations, because he was not present for the conversation between his standby counsel
and the district attorney. Id. at 12. He took issue with standby counsel's role in advising him, and opining to the court, that
Boyd entered into the nolo contendere pleas knowingly, intelligently, and voluntarily. Finally, he contended that his decision to
proceed by self-representation was involuntary because he was pressured into it by his attorney's lack of preparation and the
trial court's refusal to continue the trial date. Id. at 14. The Wisconsin Court of Appeals evaluated each of these arguments, and
concluded, based on the transcripts of the prior proceedings, that they were without merit. On June 12, 2015, the Wisconsin
Supreme Court denied the petition for review. Id. at 18.
Petitioner then filed a post-conviction motion for relief with the trial court, seeking to withdraw his pleas on the basis that
his trial counsel and post-conviction counsel were ineffective. Specifically, he claimed that trial counsel should have fought
harder to allow him to withdraw his pleas in light of the Court's “no latitude” order, and his post-conviction counsel should have
raised the deficiencies of his trial counsel in failing to argue for withdrawal of appeal. (Docket #5 at 3^4). On August 23,2017,
the Wisconsin Court of Appeals denied his appeal of the trial court's denial of post-conviction relief. (Docket #1-1 at 19). On
December 12, 2017, the Wisconsin Supreme Court denied the petition for review. Id. at 22.
On March 21, 2018, this Court allowed Petitioner to proceed on two grounds for habeas corpus relief: “First, that his plea
was not knowing, intelligent, and voluntary ‘because of the events relating to standby counsel—including negotiating [the]
plea agreement, signing [the] plea questionnaire, and opining that [the] plea was voluntary—violated Boyd's right to self­
representation. ’ ” (Docket #5 at 5) (citing (Docket #1 at 6-7)). Second, “that his plea was not knowing, intelligent, and voluntary

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Boyd v. Eckstein, Slip Copy (2019)

‘because it was induced, in part, by the court's pre-trial ruling that Boyd would get no latitude during his cross-examination
of the state's witnesses at the trial the next day.” Id. (citing Docket #1 at 7-8). The parties’ arguments regarding each ground
will be analyzed below.
3. ANALYSIS
3.1 Validity of Boyd's Plea - Participation of Standby Counsel
*6 A plea must be knowing, voluntary, and intelligent. Parke v. Raley, 506 U.S. 20, 29 (1992). Whether a plea was entered
knowingly, intelligently, and voluntarily is determined from “all of the relevant circumstances surrounding it.” Brady v. United
States, 397 U.S. 742, 749 (1970). Respondent does not dispute that a violation of the right to self-representation in the plea­
bargaining process would entitle Boyd to a plea withdrawal. (Docket #19 at 13) (citing Lafler v. Cooper, 566 U.S. 156, 162
(2012); Faretta, 422 U.S. at 819-20; Boykin v. Alabama, 395 U.S. 238, 242 (1969)). The issue before the Wisconsin Court
of Appeala-was whether the participationlof Wallace as standby counseLin the plea negotiation process infringed Boyd's right
to self-representation. The Wisconsin Court of Appeals concluded that'it did not. The issue before this Court is whether the
Wisconsin'Court of Appeals reasonably applied established Supreme Court precedent in reaching this conclusion.
The Supreme Court has held that it is unconstitutional for a state to “hale a person into its criminal courts and there force a
lawyer upon him, even when he insists that he wants to conduct his own defense.” Faretta, 422 U.S. at 807. Accordingly,
“[t]he Sixth Amendment, when naturally read... implies a right of self-representation.” Id. at 821. “[Although he may conduct
his own defense ultimately to his own detriment, his choice must be honored.” Id. at 834. Nevertheless, the Supreme Court
acknowledged that “a State may—even over objection by the accused—appoint a ‘standby counsel’ to aid the accused if and
when the accused requests help.” Id. at 834 n.46.
Nearly a decade later, the Supreme Court revisited the “stand-by counsel” concept in McKaskle v. Wiggins, 465 U.S. 168 (1984).
There, the Supreme Court confirmed that standby counsel's unsolicited participation in a case could be appropriate in some
circumstances. Id. at 176. The central inquiry was “whether the defendant had a fair chance to present his case in his own
way.” Id. at 177. In a pre-trial context, the right to self-representation could be “adequately vindicated...if the pro se defendant
is allowed to address the court freely on his own behalf and if disagreements between counsel and the pro se defendant are
resolved in the defendant's favor whenever the matter is one that would normally be left to the discretion of counsel.” Id. at 179.
In light of the aforementioned Supreme Court precedent, the Wisconsin Court of Appeals engaged in the following analysis
to ultimately conclude that Wallace's appointment in the case, scope of involvement, and participation in the plea negotiation
was appropriate:
Boyd did not object to the appointment of Wallace as standby counsel. When the court told Boyd that Wallace was “still going
to be sitting there” even if Boyd represented himself, Boyd3 replied, “That would be fine with me.” Boyd asked questions
about what he would and would not be permitted to do, and his questions were answered. He asked whether he would be
permitted to file the motions that he had asked Wallace to prepare, and Wallace confirmed that he could assist Boyd with the
motions. Boyd asked whether he, personally, would be permitted to question witnesses. The court confirmed that Boyd could
question witnesses, but told him that he would be bound by the rules of evidence in terms of what testimony would be allowed.
We agree with the State that Boyd has not pointed to any applicable legal authority that would require the court to define the
scope of representation of standby counsel. However, even if such a requirement existed, the record demonstrates that Boyd
did ask for and receive guidance about the scope of what he would do and what Wallace would do. We are satisfied, based
on the record before us, that the court did not deprive Boyd of his right to self-representation under Faretta, 422 U.S. at 807,
by the manner in which it appointed Wallace as standby counsel.
*7 State v. Boyd, 2014AP837, 2015 WL 789666, at *3 (Wis. Ct. App. Feb. 26, 2015).
Having concluded that Wallace's presence as standby counsel was constitutional and appropriately defined, the Wisconsin Court
of Appeals assessed whether Wallace's conduct during the plea hearing violated Boyd's right to self-representation.

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

4.—-

Boyd v. Eckstein, Slip Copy (2019)

The transcript of the plea hearing shows that, at the beginning of the hearing, Wallace requested a moment to confer with
Boyd, and that Boyd and Wallace conferred off the record. Immediately after his off-record discussion with Boyd, Wallace
asked the court for five minutes to speak with the district attorney about a resolution. Upon conclusion of that discussion,
Wallace and the district attorney informed the court of the terms of the plea agreement. The court then engaged Boyd in a plea
colloquy, after which it found that Boyd's no contest plea was made freely, voluntarily, and intelligently, and accepted the plea.
The circuit court reaffirmed its finding that Boyd's plea was made freely, voluntarily, and intelligently at the hearing on his
plea withdrawal motion. In making that finding, the court rejected Boyd's argument that he felt pressured by Wallace into
entering the plea agreement. The court stated that Boyd “would not allow any attorney to push him around or make a decision
"for him. He's clearly exhibited throughout these proceedings'that he is the one in charge...!” Implicit in the court's finding"'
that the plea was valid is the reasonable inference that Boyd authorized Wallace to engage in plea negotiations on his behalf.
,! Given the facts in the record .and the reasonable inferences to be drawn from them, we cohclude that the circuit court did.
-mot erroneously exercise its discretion in finding that Boyd's-plea was knowingly, voluntarily,“and intelligently entered. See—
State v. Lopez, 173 Wis.2d 724, 729, 496 N.W.2d 617 (Ct.App.1992) (we will uphold the decision of the circuit court if
it is supported by credible evidence or reasonable inferences that can be drawn from this evidence)...[Finally,] Boyd has
not demonstrated that Wallace's involvement as standby counsel prevented Boyd from having “actual control” over his own
defense. See McKaskle, 465 U.S. at 178. Thus, we conclude that Boyd's right to self-representation was not violated by the
appointment or use of standby counsel.
Id. at *4.
The Court is satisfied that the Wisconsin Court of Appeals reasonably applied Supreme Court precedent in its analysis of
whether Boyd's right to self-representation was abridged or violated. Although standby counsel was appointed at the trial court's
insistence, the record indicates that Wallace acted at Boyd's direction. Respondent further points out with regard to Boyd having
control over his defense, that although Boyd expressed feeling “pressure” to accept the nolo contendere pleas, he indicated that
this pressure was from the trial court itself—not his standby counsel. (Docket #19 at 15) (citing (Docket #13-23:6-10)). On
balance, the Court does not find that the Wisconsin Court of Appeals erred in its analysis of Wallace's conduct.
*8 Boyd points to Frantz v. Hazey, 533 F.3d 724 (9th Cir. 2005) to support his argument that his right to self-representation
was violated when he was not included in the plea-bargaining conference. In Frantz, the Ninth Circuit held that a defendant
who represented himself entirely throughout a case needed to affirmatively consent to stand-by counsel's solo participation in
a chambers conference. Id. at 743. Additionally, the defendant was in lock-up during the conference, therefore implied consent
could not be inferred by the failure to object. Id. at 744.
The Wisconsin Court of Appeals was not required to evaluate these circumstances under Frantz, a case from the Ninth Circuit,
but even so, the Court finds that Frantz is distinguishable from the case at bar. Unlike the defendant in Frantz, Boyd did not
have an established practice of representing himself. But the more salient difference between Frantz and this case is the fact
that the plea negotiation between Wallace and Paider occurred immediately after an off the record discussion between Wallace
and Boyd. (Docket #12-23 at 3:10-11). After this tete-a-tete with Boyd, Wallace sought recess to “discuss maybe a resolution.”
Id. at 3:13-14. Boyd was apparently aware that a plea negotiation would occur, and there is no evidence in the record that he
was denied the opportunity to participate in the discussion. A brief recess occurred, after which Wallace apprised the Court
of the plea deal. The Court launched into the plea colloquy, with which Boyd was cooperative. The concern motivating the
requirement of affirmative consent in Frantz—namely, that the defendant was in lock-up and unavailable to object—is simply
not present here. To the contrary, the transcript supports the inference that Wallace spoke to Paider at Boyd's behest. The record
does not suggest that Boyd was deprived of control over his defense, or even that Boyd wanted to be involved in the discussion.
In sum, there is no basis for the Court to find that the Wisconsin Court of Appeals made an unreasonable finding of fact or
erroneously applied precedential Supreme Court cases.
3.2 Validity of Boyd's Plea - Right to Confront Witness

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

Boyd v. Eckstein, Slip Copy (2019)

At the outset, the Court must dispose of Respondent's contention that the claim is procedurally defaulted. (Docket # 19 at 22-23).
This Court cannot consider Boyd's habeas claim unless it has first been “fully and fairly presented...to the state appellate courts,”
thereby giving the courts a “meaningful opportunity to consider the substance of the claim[ ] that he later presents in his federal
challenge.” Bintz v. Bertrand, 403 F.3d 859, 863 (7th Cir. 2005); 28 U.S.C. § 2254(b)(1)(A). Fair presentment requires that the
petitioner apprise the state courts of the constitutional nature of the claim, but it “does not require hypertechnical congruence
between the claims made in the federal and state courts; it merely requires that the factual and legal substance remain the same.”
Anderson v. Benik, 471 F.3d 811, 815 (7th Cir. 2006) (citation omitted). The Seventh Circuit considers the following factors to
determine whether the issue was adequately presented to the state judiciary:

1) whether the petitioner relied on federal cases that engage in a constitutional analysis; 2) whether
the petitionerrelied on state cases which apply a constitutional analysis to similar facts; 3) whether the
petitioner framed the claim in terms so particular as to call to mind a specific constitutional right; and
4) whether the petitioner alleged a pattern of facts that is well within the mainstream of constitutional
litigation.

■

*9 Ellsworth v. Levenhagen, 248 F.3d 634, 639 (7th Cir. 2001).
In his post-conviction relief motion, Boyd argued that his counsel was ineffective for failing to pursue withdrawal on the basis of
the trial court's admonishment that Boyd would be afforded “no latitude” in his witness cross-examinations. Although brought
in the context of a malpractice claim, the Sixth Amendment right to confrontation is inherent to the alleged misconduct. Indeed,
the Wisconsin Court of Appeals directly addressed the issue of witness confrontation and latitude in its 2017 decision, albeit
in the context of a malpractice claim. State v. Boyd, 2016AP1173, 2017 WL 3617014, at *3 (Wis. Ct. App. Aug. 23, 2017).
(“Contrary to Boyd's assertion, the court was not infringing upon his constitutional right to cross-examine witnesses at trial.”).
The Court finds that Boyd fairly presented this claim to the state court in terms “so particular as to call to mind a specific
constitutional right.” Anderson, 471 F.3d at 815. Respondent's argument that Boyd defaulted on this argument is without merit.
Nevertheless, the Court finds that the Wisconsin Court of Appeals did not err in its determination that there was no violation of
Boyd's Sixth Amendment right to confront his accusers. The Sixth Amendment provides defendants in a criminal case the right
“to be confronted with the witnesses against him.” U.S. Const, art. VI. This encompasses a right to probe “the believability of
a witness and the truth of his testimony.” Davis v. Alaska, 415 U.S. 308, 316 (1974). However, this right is not absolute, and
“trial judges retain wide latitude insofar as the Confrontation clause is concerned to impose reasonable limits on such crossexamination based on concerns about, among other things, harassment, prejudice, confusion of the issues, the witness’ safety,
or interrogation that is repetitive or only marginally relevant.” Delaware v. Van Arsdall, 475 U.S. 673, 679 (1986); State v.
Rhodes, 799 N.W.2d 850, 862-63 (Wis. 2011) (holding that a murder defendant's rights under the confrontation clause were
not violated when the trial court imposed limitations on his cross-examination of his sister about prior incidents between her
and the victim); see also Alford v. United States, 282 U.S. 687, 692 (1931) (requiring “reasonable latitude” be given to defense
counsel on cross-examination and holding that failure to do so is a prejudicial error); United States v. Manske, 186 F.3d 770,
777 (7th Cir. 1999) (same).
In analyzing whether Boyd's Sixth Amendment rights were violated, the Wisconsin Court of Appeals explained that they were

not persuaded that trial counsel was ineffective for failing to pursue plea withdrawal on the basis of
the circuit court's “no latitude” ruling. Contrary to Boyd's assertion, the court was not infringing
upon his constitutional right to cross-examine witnesses at trial. Rather, the record demonstrates
that the court was simply impressing upon Boyd the need to follow the rules of evidence while
representing himself. This meant that Boyd would get “no latitude” in asking questions that were

WEST1AW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Boyd v. Eckstein, Slip Copy (2019)

irrelevant, prejudicial, or otherwise in violation of the rules. Thus, Boyd would not be allowed to conduct
a “trial within a trial” and collaterally attack his prior conviction for sexual assault of a child. The court's
ruling was proper and does not provide a basis for plea withdrawal.

*10 State v. Boyd, 2017 WL 3617014, at *3 (emphasis added). The Court has reviewed the transcripts in light of the parties’
arguments, and concludes that the state court did not make an unreasonable determination of the facts or erroneously apply
Supreme Court precedent to the question of whether Boyd's Sixth Amendment rights were not violated.
The relevant Supreme Court caselaw discussed above explains that trial courts retain considerable latitude in tailoring crossexaminations to be appropriate to the circumstances of the case. The transcript is by no means exemplary of an ideal exchange,
but it does reflect that Boyd would be allowed to cross-examine the victim witness and to defend himself within the bounds
of the law. However, the trial court made clear^using the term, “no latitude’—that Boyd would not be able to put his prior
sexual assault conviction at issue unless he also* elected to testify. The trial court further admonished Boyd that he would not
be able to engage in dilatory conduct with a child witness whom he was alleged to have sexually assaulted. Finally, the trial
court reminded Boyd that he would be bound to the rules of evidence in his line of questioning, and any testimony that Boyd
elicited needed to be relevant, non-prejudicial, and admissible. It is clear, as the Wisconsin Court of Appeals concluded, that in
this exchange, the term “latitude” describes a departure from the rules of evidence. The Wisconsin Court of Appeals correctly
determined that there is nothing in this exchange that suggests that Boyd's right to confront and cross-examine his witness, or
defend himself in the case, was compromised. The Court is not convinced that the trial court's extraneous on-record correction,
two years later, of its understanding of the term “latitude” in the context of a cross-examination compels the conclusion that
Boyd's plea was invalid.
The argument Boyd makes in his brief, regarding the line of questioning that he intended to pursue to impeach the state's witness,
was never raised in the trial court. The record does not reflect that the trial court denied any motion that Boyd made on this
issue. In that exchange, the trial court simply told him that he would not be afforded latitude to stray from the rules of evidence.
The fact that he was not permitted to flout those rules while he represented himselfpro se does not render his nolo contendere
pleas involuntary, and nor can it serve as the basis for a habeas petition.
4. CONCLUSION
For the reasons stated above, the Court finds that Boyd's asserted grounds for relief are without merit. The Wisconsin state
courts did not err in reaching their conclusions of law and fact regarding whether Boyd's Sixth Amendment rights were violated.
The petition must, therefore, be denied.
Under Rule 11(a) of the Rules Governing Section 2254 Cases, “the district court must issue or deny a certificate of appealability
when it enters a final order adverse to the applicant.” To obtain a certificate of appealability under 28 U.S.C. § 2253(c)(2),
Boyd must make a “substantial showing of the denial of a constitutional right” by establishing that “reasonable jurists could
debate whether (or, for that matter, agree that) the petition should have been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322,336 (2003) (internal
citations omitted).
*11 As the Court's discussion above makes clear, Boyd's petition, while rigorously argued, does not compel a grant of the
Great Writ. When the record is considered as a whole, and when the nolo contendere pleas are evaluated under the totality
of the circumstances and in light of established law, no reasonable jurists could debate whether they were involuntary. As a
consequence, the Court is compelled to deny him a certificate of appealability.
Accordingly,
IT IS ORDERED that Petitioner's petition for a writ of habeas corpus (Docket #1) be and the same is hereby DENIED;

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Boyd v. Eckstein, Slip Copy (2019)

IT IS FURTHER ORDERED that a certificate of appealability as to Petitioner's petition be and the same is hereby DENIED;
and
IT IS FURTHER ORDERED that this action be and the same is hereby DISMISSED with prejudice.
All Citations
Slip Copy, 2019 WL 5298526

■

Footnotes
The trial court erroneously stated that the defendant could not fire his attorney. (Docket #12-22 at 7:12-13). This is incorrect; a
1
defendant is not obligated to retain appointed counsel. See Faretta v. California, 422 U.S. 806, 807 (1975)(holding that a state may
noticonstitutionally “hale a person irito.its criminal courts and there forcc a lawyer upon him.”). The trial court rectified any prejudice
this error might have caused, however; by subsequently allowing Boyd to proceed pro se.
This assertion is belied by Ms. Paider's reference to “some of his motions” regarding another sexual assault conviction. (Docket
2
#12-22 at 14:21-23).
The parties clarify that Wallace was the one who said this, but the fact remains that Boyd did not object. See (Docket #12-22 at 11:25).
3
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

End of Document

r”

WESTLAW © 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

State v. Boyd, 2017 Wise. App. LEXIS 620
■■■
■■■
■■■

Lexis Advance

Page 1 of 4

©

More

Research
Document: State v. Boyd, 2017 Wise. App. LEXIS 620 ActionsGoto

Search Document • • •

❖ State v. Boyd, 2017 Wise. App. LEXIS 620
Copy Citation
Court of Appeals of Wisconsin, District Two

August 23, 2017, Decided; August 23, 2017, Filed

Appeal No. 2016AP1173
Reporter
2017 Wise. App. LEXIS 620 * | 2017 WI App 66 | 378 Wis. 2d 219 | 904 N.W.2d 144 j 2017 WL 3617014

STATE OF WISCONSIN, PLAINTIFF-RESPONDENT, v. VINCENT E. BOYD, DEFENDANT-APPELLANT.

Notice: SEE RULES OF APPELLATE PROCEDURE, RULE 809.23(31. REGARDING CITATION OF UNPUBLISHED OPINIONS. NOTE: THIS OPINION
WILL NOT APPEAR IN A PRINTED VOLUME. THE DISPOSITION WILL APPEAR IN A REPORTER TABLE.

Subsequent History: Review denied by State v. Bovd, 2018 WI 5, 2017 Wise. LEXIS 809 (Dec. 12, 2017)
Prior History: [*1] APPEAL from an order of the circuit court for Winnebago County: SCOTT C. WOLDT -r. Judge. Cir. Ct. No. 2010CF344.
State v. Bovd. 2015 WI Add 28, 361 Wis. 2d 285. 862 N.W.2d 619, 2015 Wise. Add. LEXIS 150 (Feb. 26, 2015)

Disposition: Affirmed.

Core Terms
withdraw, pleas, circuit court, no contest, ineffective, latitude, postconviction motion, sexual assault, questioning, appointed, entitled to
withdraw, pro se, postconviction, pressured, pled
Judges: Before Neubauer

CJ., Gundrum ^ and Haaedorn ■*, JJ.

Opinion
Per curiam opinions may not be cited in any court of this state as precedent or authority, except for the limited purposes
specified in WIS. STAT. RULE809.23f3L
PI PER CURIAM. Vincent E. Boyd appeals pro se from an order denying his postconviction motion to withdraw his no contest pleas. For the
reasons that follow, we affirm.
P2 In June 2010, the State charged Boyd with two counts of first-degree sexual assault of a child as a persistent repeater. The charges

eo
co

stemmed from allegations that he twice had sexual contact with a seven-year-old girl. Boyd was previously convicted of second-degree sexual
assault of a child in 2001.
P3 The case was delayed multiple times due to Boyd's issues with appointed counsel. Boyd's first attorney was permitted to withdraw for an
unspecified conflict. Boyd's second attorney was also permitted to withdraw for a conflict. Boyd's third attorney moved to withdraw after Boyd
submitted several pro se filings and asked to be allowed to "act as co-counsel."

CO

P4 At a hearing on the motion of the third attorney to withdraw, [*2] the prosecutor indicated that the State had obtained recordings of
telephone calls made by Boyd from jail in which he talked about keeping his appointed attorneys on the case for as long as possible and then
firing them at the last minute. The prosecutor argued that Boyd was trying to delay the proceedings and manipulate the system. The circuit

t

https://advance.lexis.com/search/7pdmficNl 000516&crid=6be59f...

1/8/2018

State v. Boyd, 2017 Wise. App. LEXIS 620

Page 2 of 4

court agreed that Boyd was "playing the game." Nevertheless, it granted the motion to withdraw, and a fourth attorney was appointed for Boyd.
The court warned Boyd that it would be his last appointment.
P5 Boyd’s fourth attorney was John Wallace. At a conference on the day before trial, Wallace requested a continuance on the ground that he
and Boyd had been arguing over defense strategy. The circuit court denied the request, determining it to be a delay tactic by Boyd. Wallace
then informed the court that 8oyd did not want Wallace to represent him further. The court found Boyd competent to represent himself and
agreed to allow Boyd to proceed pro se with Wallace as "standby counsel."
P6 During subsequent discussions, the prosecutor expressed concern that Boyd, while acting pro se, might seek to counter the State's other
acts evidence by conducting [*3] a "trial within a trial.” She observed:
[A]t least one of the other acts' victims, the one from the Langlade County case, the one [Boyd] was convicted of, I know in some
of his motions he is questioning that conviction and wants to have a trial within a trial. He’s already pled and been sentenced.
There’s a Judgement of Conviction there. He can’t dispute the fact that that’s there, and technically, because the charge is firstdegree sexual assault of a child, the fact he has been convicted of it by law is allowed to come in, so I just want him to be aware
of that as well. He's not going to be able to collaterally attack that conviction at this trial.
P7 The circuit court agreed with the prosecutor's statement. However, Boyd interjected, and the following exchange took place regarding his
ability to explain why he had pled to the prior sexual assault of a child charge:
[BOYD]: J have the right to defend myself against it. I would—I would like some latitude in questioning the victim and I would talk
to—
THE COURT: You will get no latitude.
MR. WALLACE: He’s wishes [sic]—he's requesting some latitude in questioning—
THE COURT: You will get no latitude. You don’t—just because you're representing [*4] yourself doesn’t mean you get to violate
the rules of evidence. I mean you get to—you're right, you have a right to defend yourself within the law. That doesn't mean just
because you're representing yourself you—means you get to ask questions that aren't relevant, that are prejudicial, that are
hearsay. You don’t get to violate the rules of evidence just because you're representing yourself.
[BOYD]: No, I understand that. I just think I should be able to tell the jury—
THE COURT: If you don't—if you don't know what the rules are, maybe you should reconsider whether or not you want to
represent yourself.
[BOYD]: I'm not allowed to explain to the jury why I pled guilty to the case?
THE COURT: You are not. You don't get to explain anything unless you testify.
[BOYD]: If I testify, am I allowed to tell the jury why I pled guilty to that charge?
THE COURT: No. It's not relevant.
P8 The next day, Boyd pled no contest to both counts of first-degree sexual assault of a child without the persistent repeater enhancer. The
circuit court accepted the pleas as knowingly, voluntarily, and intelligently entered.
P9 Prior to sentencing, Boyd filed a pro se motion to withdraw his no contest pleas. He alleged [*5] that Wallace had pressured him to enter
the pleas. He further alleged that the circuit court had improperly pressured him by ruling that he would get "no latitude" when cross-examining
witnesses at trial. The circuit court subsequently removed Wallace as counsel and appointed another attorney.
PIO Boyd's fifth attorney was Gary Schmidts. Schmidt filed a supplement to Boyd's motion to withdraw his no contest pleas. He argued that
Boyd "was unduly pressured by the sudden change in circumstances the morning before his scheduled jury trial and made a hasty entry of his
plea of no contest." He also argued that Wallace had pressured Boyd to enter the pleas. Following a hearing on the matter, the circuit court
denied the motion.
Pll Schmidt then filed a second motion to withdraw Boyd’s no contest pleas. He asserted that Boyd was entitled to withdraw his pleas because

SO
CO

he had entered them without the benefit of the mandated colloquy under State v. Klessig, 211 Wis. 2d 194, 206. 564 N.W.2d 716 (1997).
which helps ensure the validity of the waiver of the right to counsel. Schmidt also moved for a continuance "[t]o request a transcript of the plea
hearing to obtain an accurate record of the questions and statements made at that hearing." The circuit court denied [*6] the motion and
proceeded to sentencing. Afterwards, Boyd appealed.

-

P12 Tricia Bushnell was appointed to represent Boyd in postconviction proceedings. Like Schmidt, Bushnell asserted that Boyd was entitled to
withdraw his no contest pleas because he had entered them without the benefit of the Klessig colloquy. This court determined that the remedy
for the failure to conduct the Klessig colloquy was to remand for a hearing to determine whether Boyd had validly waived his right to counsel.
See State v. Boyd, No. 2013AP684-CR, unpublished op. and order (WI App Nov. 6, 2013).
P13 On remand, the circuit court held a hearing and found that Boyd had validly waived his right to counsel. Accordingly, it concluded that Boyd
was not entitled to withdraw his no contest pleas. Boyd appealed, and this court affirmed. See State v. Bovd. 2015 WI Add 28. 361 Wis. 2d
285. 862 N.W.2d 619. unpublished slip oo. (2015).

https://advance.lexis.com/search/7pdmfkN1000516&crid:=6be59f... 2/8/2018

State v. Boyd, 2017 Wise. App. LEXIS 620

Page 3 of 4

P14 In March 2016, Boyd filed a WIS. STAT. S 974.06 (20l5-16)['l"&j postconviction motion to withdraw his no contest pleas based upon
ineffective assistance of both trial and postconviction counsel. The circuit court denied the motion without a hearing. This appeal follows.
P15 On appeal, Boyd contends that the circuit court erred [*7] in denying his postconviction motion without a hearing. He renews the claims
made in the motion and asks this court to either grant a hearing or vacate his convictions and permit him to withdraw his no contest pleas.
P16 To be entitled to a hearing on a postconviction motion, a defendant must allege "sufficient material facts that, if true, would entitle the
defendant to relief." State v. Alien, 2004 WI 106. 119, 274 Wis. 2d 568. 682 N.W.2d 433. This is a legal question, which we review de novo.
Id. If the motion alleges sufficient facts, a hearing is required. Id. If the motion is insufficient, if it presents only conclusory allegations, or if
the record conclusively demonstrates that the defendant is not entitled to relief, the circuit court may exercise its discretion in deciding whether
to grant a hearing. Id. We review discretionary decisions under the erroneous exercise of discretion standard. Id.
P17 In his postconviction motion, Boyd accused his trial counsel (Schmidt) of ineffective assistance for (1) failing to pursue an allegedly
• meritorious ground for plea withdrawal (i.e., that Boyd was improperly pressured by the circuit court’s ruling that he would get "no latitude"
when cross-examining witnesses at trial); and (2) failing to obtain [*8] transcripts relevant to whether he was entitled to withdraw his no
contest pleas. Boyd also accused his postconviction counsel (Bushnell) of ineffective assistance for failing to challenge his trial counsel's
effectiveness on these issues. A claim of ineffective assistance requires a showing of both deficient performance and prejudice. Id.. 1126.
P18 Here, we are not persuaded that trial counsel was ineffective for failing to pursue plea withdrawal on the basis of the circuit court's "no
latitude" ruling. Contrary to Boyd's assertion, the court was not infringing upon his constitutional right to cross-examine witnesses at trial.
Rather, the record demonstrates that the court was simply impressing upon Boyd the need to follow the rules of evidence while representing
himself. This meant that Boyd would get "no latitude" in asking questions that were irrelevant, prejudicial, or otherwise in violation of the rules.
Thus, Boyd would not be allowed to conduct a "trial within a trial" and collaterally attack his prior conviction for sexual assault of a child. The
court's ruling was proper and does not provide a basis for plea withdrawal.
P19 Likewise, we are not persuaded that trial counsel [*9] was ineffective for failing to obtain transcripts relevant to whether Boyd was
entitled to withdraw his no contest pleas. As noted, counsel did move for a continuance to request the transcript of the plea hearing before
Boyd's sentencing. The circuit court denied the motion. Even if counsel should have requested this or other transcripts earlier, Boyd has hot
shown that he was prejudiced by the failure to do so. That is, Boyd has not alleged sufficient facts to support a claim that, but for the absence
of transcripts, there is a reasonable probability that he would have been permitted to withdraw his pleas. His allegations in this regard are
conclusory and therefore insufficient to warrant a hearing.
P20 Given our determination that Boyd's challenges to trial counsel’s performance lack merit, we conclude that postconviction counsel was not
ineffective for failing to raise them. See State v. Wheat. 2002 WI Add 153. 1114. 256 Wis. 2d 270. 647 N.W,2d 441 (counsel's failure to raise a
legal issue is not deficient performance if the issue would have been rejected). In any event, Boyd's claims are not "clearly stronger" than the
one that counsel actually brought. See State v. Romero-Georaana, 2014 WI 83. 111145-46. 360 Wis. 2d 522, 849 N.W.2d 668 (to prevail in a
claim that postconviction counsel was ineffective for failing to pursue an [*10] issue, the ignored issue must be clearly stronger than the one
counsel actually pursued).
P21 For these reasons, we conclude that the circuit court properly denied Boyd's postconviction motion to withdraw his no contest pleas without
a hearing.[2*]
By the Court.—Order affirmed.
This opinion will not be published. See Wis. Stat. Rule 809.23(llfbl5.

Footnotes

EH All references to the Wisconsin Statutes are to the 2015-16 version.
HH To the extent we have not addressed an argument raised by Boyd on appeal, the argument is deemed rejected. See State v.
Waste Mamt. of Wis., Inc., 81 Wis. 2d 555. 564, 261 N.W.2d 147 (19781 ("An appellate court is not a performing bear, required to
dance to each and every tune played on an appeal.").

■ii @ j ~

https://advance.lexis.com/search/?pdmfid=1000516&crid=6be59f... 2/8/2018

COURT OF APPEALS
DECISION
DATED AND FILED
February 26, 2015
Diane M. Fremgen
Clerk of Court of Appeals

Appeal No.

NOTICE
This opinion is subject to further editing. If
published, the official version will appear in
the bound volume of the Official Reports.
A party may file with the Supreme Court a
petition to review an adverse decision by the
Court of Appeals. See WlS. Stat. § 808.10
and Rule 809.62.

Cir. Ct No. 2010CF344

2014AP837-CR

STATE OF WISCONSIN

IN COURT OF APPEALS
DISTRICT H

State of Wisconsin,
Plaintiff-Respondent,

v.
Vincent E. Boyd,
Defendant-Appellant.

C/5

°a
Q

APPEAL from a judgment and order of the circuit court for
c

ID

o Vv

Winnebago County: SCOTT C. WOLDT, Judge: Affirmed.

3

3

15$

^[1

C
CO

CO

Before Blanchard, P J., Sherman and Kloppenburg, JJ.

-32
.55

T3

PER CURIAM. Vincent Boyd appeals his judgment of conviction

and a circuit court order denying his motion to withdraw his no contest plea before
-

O

; sentencing. Boyd argues on appeal that he established fair and just reasons to

< -V.

Q )
to
T3

V)

withdraw his plea before sentencing and that, therefore, he is entitled to plea

No. 2014AP837-CR

withdrawal. For the reasons set forth below, we affirm the judgment and order of
the circuit court.
Background
Boyd was charged in June 2010 with two counts of sexual assault of

12

a child under thirteen years of age as a persistent repeater.
§§ 948.02(1), 939.62(2m)(b)2. (2013-14).

See WlS. STAT.

In November 2010, Boyd’s first

appointed attorney was permitted to withdraw for an unspecified conflict. In
February 2011, Boyd’s second appointed attorney withdrew, alleging that she, too,
had a conflict, that Boyd had been verbally abusive with her and her staff, and that
Boyd no longer wanted her to represent him.

In August 2011, Boyd’s third

appointed attorney moved to withdraw after Boyd submitted several pro se filings,
including a letter in which Boyd asked the court to be allowed to “act as co­
counsel.” The motion to withdraw asserted that Boyd was receiving legal advice
from an unnamed third party and that Boyd was insisting that his attorney follow
the advice.

13

At a hearing on the motion of the third attorney to withdraw, the

prosecution indicated that the State had obtained recordings of calls made by Boyd
from jail in which he talked about keeping his appointed attorneys on his case for
as long as possible and then firing them at the last minute. The State argued at the
hearing that Boyd was trying to delay the proceedings and manipulate the system.
The circuit court agreed that Boyd was “playing the game,” but nonetheless

All references to the Wisconsin Statutes are to the 2013-14 version unless otherwise
noted.

• 2

No. 2014AP837-CR

granted the motion to withdraw and agreed to appoint a fourth attorney for Boyd,
warning him that this would be his last appointment.

14

After the appointment of a fourth attorney, John Wallace, Boyd

requested a continuance of the trial date, but the court denied the request. Wallace
renewed the request for a continuance at a final pretrial conference on March 26,
2012, the day before trial. . Wallace explained that he and Boyd had been arguing
over defense strategy. The State objected. The court again denied the request for
a continuance, determining it to be another “delay tactic” by Boyd.
f5

Wallace immediately informed the court that Boyd “has now fired

• me as his attorney” and “does not want me to be representing him any further.”
Addressing Boyd directly, the court told Boyd that he could not fire Wallace but,
rather, the court had to permit him to withdraw. The court then stated that it
would not let Wallace “get off the case.” The court engaged in an exchange with
Boyd, after which the court agreed to allow Boyd to proceed pro se with Wallace
as “standby counsel.” Boyd did not object. The court then addressed the issue of
Boyd’s competence to proceed pro se, and found that Boyd was competent to
represent himself. However, the court did not engage Boyd in a colloquy to
ascertain the validity of Boyd’s waiver of the right to counsel. See generally State
v. Klessig, 211 Wis. 2d 194, 204-07, 564 N.W.2d 716 (1997).
Tf6

The next day, Wallace informed the court that Boyd wished to enter

a no contest plea. The court engaged Boyd in a plea colloquy on the record, after
which the court found that Boyd had entered his plea freely, voluntarily, and
intelligently. After the plea hearing, Boyd filed a pro se motion to withdraw his
plea, alleging that Wallace had “pressured him to enter a plea” and “refused to
allow Boyd to handle the proceeding himself’ even though Wallace was supposed

3

No. 2014AP837-CR

to be acting only as standby counsel.

Wallace also filed a motion for plea

withdrawal on behalf of Boyd, alleging that after the court denied the request for a
continuance of the trial date, Boyd felt he had “no option but to accept the plea”
because the defense'was unprepared for trial.

V

The court removed Wallace as counsel and appointed a fifth

attorney, who filed a new motion for plea withdrawal on Boyd’s behalf. The court
denied the motion after a hearing, on the basis that Boyd had failed to demonstrate
a fair and just reason for plea withdrawal. Then, on the day before the scheduled
sentencing hearing, Boyd’s counsel filed another motion for plea withdrawal,
stating as grounds the court’s failure to conduct a Klessig colloquy at the pretrial
conference where Wallace was allowed to withdraw and act as standby counsel.
The motion also argued that the court’s determination that Boyd was competent to
proceed pro se was inadequate. The court denied the motions and proceeded to
sentence .Boyd to thirty years of incarceration and twenty years of extended
supervision on each count, to be served consecutively.

118

Boyd appealed.

In a summary opinion and order, this court

remanded the matter to the circuit court for an evidentiary hearing on the issue of
whether Boyd’s waiver of the right to counsel was knowing, intelligent, and
voluntary. The circuit court proceeded to hold the hearing and, at its conclusion,
made factual findings and concluded that Boyd’s waiver of the right to counsel
was valid. Boyd now appeals following the court’s decision on remand.

Standard of Review.

H9

We review a circuit court’s decision to grant or deny a motion to

withdraw a plea before sentencing under the erroneous exercise of discretion
standard. State v. Jenkins, 2007 WI 96, ^[30, 303 Wis. 2d 157, 736 N.W.2d 24.
4

No. 2014AP837-CR

^flO

Whether a defendant was denied the constitutional right to self­

representation presents a question of constitutional fact, which this court
determines independently. State v. Imani, 2010 WI 66, 19, 326 Wis. 2d 179, 786
N.W.2d 40. We apply constitutional principles to the facts of the case in order to
determine whether a defendant knowingly, intelligently, and voluntarily waived
the right to counsel. Id.
Discussion
^fll

A circuit court should grant a motion for plea withdrawal prior to

sentencing if it finds a fair and just reason for the request, unless withdrawal
would substantially prejudice the prosecution. Jenkins, 303 Wis. 2d 157, Tf28.
Boyd argues on appeal that he established fair and just reasons. Specifically, he
argues that, when the circuit court permitted Wallace to serve as standby counsel,
it violated.Boyd’s right to self-representation, that Boyd’s decision to waive his
right to counsel was not voluntary and deliberate, that the record fails to
demonstrate that he was competent to proceed pro se, and that the totality of the
circumstances warrants plea withdrawal.
Appointment of standby counsel
f 12

Boyd argues on appeal that Boyd’s right to self-representation was

violated by the manner in which standby counsel was appointed and utilized.
. Boyd asserts that the court appointed Wallace in an “acrimonious environment”
■

and that the court did not define Wallace’s role or give Boyd any input into that
role. The State counters that, to the extent the court may have been frustrated with
Boyd, that frustration was brought about by Boyd’s numerous delays in the
proceedings over the course of nearly two years, during which he went through
multiple appointed attorneys. For the reasons discussed below, we conclude that
5

No. 2014AP837-CR

Boyd’s right to self-representation was not violated by the appointment and use of
standby counsel.
Tfl3

A defendant has a “constitutional right to proceed without counsel

when he voluntarily and intelligently elects to do so.” Faretta v. California, 422
U.S. 806, 807 (1975). The United States Supreme Court has concluded that the
appointment of standby counsel, even over a pro se defendant’s objection, does
not violate the right to self-representation, and that “[participation by counsel
with a pro se defendant’s express approval is ... constitutionally unobjectionable.”
McKaskle v. Wiggins, 465 U.S. 168, 176-77, 182 (1984).

The Wisconsin

Supreme Court has recognized that the “role of standby counsel can vary over a
wide spectrum, ranging from a warm body sitting beside the defendant throughout
trial to participation that is tantamount to that of defense counsel.” State v.
Campbell, 2006 WI99, ^66, 294 Wis. 2d 100, 718 N.W.2d 649.
^[14

Here, it is significant to. note that Boyd did not object to the

appointment of Wallace as standby counsel.

When the court told Boyd that

Wallace was “still going to be sitting there” even if Boyd represented himself,
Boyd replied, “That would be fine with me.” Boyd asked questions about what he
would and would not be permitted to do, and his questions were answered. He
asked whether he would be permitted to file the motions that he had asked Wallace
to prepare, and Wallace confirmed that he could assist Boyd with the motions.
.Boyd asked whether he, personally, would be permitted to question witnesses.
The court confirmed that Boyd could question witnesses, but told him that he
would be bound by the rules of evidence in terms of what testimony would be
allowed.

6

No. 2014AP837-CR

Tfl5

We agree with the State that Boyd has not pointed to any applicable

legal authority that would require the court to define the scope of representation of
standby counsel, j However, even if such a requirement existed, the record
f- demonstrates that Boyd did ask for and receive guidance about the scope of what
i he would do and what Wallace would do. We are satisfied, based on the record

i

before us, that the court did not deprive Boyd of his right to self-representation
under Faretta, 422 U.S. at 807, by the manner in which it appointed Wallace as
standby counsel.
^[16

We turn next to Boyd’s argument that the conduct of Wallace and

the court at the plea hearing violated Boyd’s right to represent himself.
Specifically, Boyd argues that he was unrepresented during the plea negotiations
that took place oh the day of the hearing because he was not personally present in
negotiations with the district attorney.

Although Wallace was present in the

negotiations, Boyd argues that Wallace was no longer his legal representative at
the time.
|17

The State points out that the record is silent as to whether Boyd was,

in fact, present during negotiations between Wallace and the district attorney. The
transcript of the plea hearing shows that, at the beginning of the hearing, Wallace
requested a moment to confer with Boyd, and that Boyd and Wallace conferred off
the record. . Immediately after his off-record discussion with Boyd, Wallace asked
the court for five minutes to speak with the district attorney about a resolution.
Upon conclusion of that discussion, Wallace and the district attorney informed the
court of the terms of the plea agreement. The court then engaged Boyd in a plea
colloquy, after which it found that Boyd’s no contest plea was made freely,
voluntarily, and intelligently, and accepted the plea.

7

No. 2014AP837-CR

fl8

The circuit court reaffirmed its finding that Boyd’s plea was made

freely, voluntarily, and intelligently at the hearing on his plea withdrawal motion.
In making that finding, the court rejected Boyd’s argument that he felt pressured
by Wallace into entering the plea agreement. The court stated that Boyd “would
not allow any attorney to push him around or make a decision for him. He’s
clearly exhibited throughout these proceedings that he is the one in charge....”
Implicit in the court’s finding that the plea was valid is the reasonable inference
that Boyd authorized Wallace to engage in plea negotiations on his behalf. Given
the facts in the record and the reasonable inferences to be drawn from them, we
conclude that the circuit court did not erroneously exercise its discretion in finding
that Boyd’s plea was knowingly, voluntarily, and intelligently entered. See State
v. Lopez, 173 Wis. 2d 724, 729, 496 N.W.2d 617 (Ct. App. 1992) (we will uphold
the decision of the circuit court if it is supported by credible evidence or
reasonable inferences that can be drawn from this evidence).
^[19

We also reject Boyd’s argument that his right to represent himself

was violated by the way that Wallace interacted with the court during the plea
hearing. Boyd objects to the fact that Wallace explained the plea agreement to the
court and gave his opinion that Boyd was entering the plea knowingly,
intelligently, and voluntarily. However, we are satisfied that these actions were
consistent with Wallace’s role as standby counsel.

“[T]he ‘chief purpose’ of

standby counsel in most cases is to ‘serve the interests of the [circuit] court.’”
Campbell, 294 Wis. 2d 100, f76 (quoted source omitted). In these interactions,
Wallace was providing information that was helpful to the court, based on his
. experience with Boyd. Boyd has not demonstrated that Wallace’s involvement as
standby counsel prevented Boyd from having “actual control” over his own

8

No. 2014AP837-CR

defense. See McKaskle, 465 U.S. at 178. Thus, we conclude that Boyd’s right to
self-representation was not violated by the appointment or use of standby counsel.
Waiver ofright to counsel
Tf20

Next, Boyd argues that the State has not established that Boyd made

a valid waiver of the right to counsel. Ordinarily, a circuit court establishes a valid
waiver of the right to counsel by conducting an in-court colloquy to establish that
the defendant: (1) made a deliberate choice to proceed without counsel, (2) was
aware of the difficulties and disadvantages of self-representation, (3) was aware of
the seriousness of the charge or charges against him, and (4) was aware of the
general range of penalties that Could have been imposed. Klessig, 211 Wis. 2d at
206.
*|21

On appeal, Boyd does not contest that he was aware of the

difficulties and disadvantages of self-representation, the seriousness of the charges
against him, or the general range of penalties. Rather, Boyd asserts that the pre­
plea transcripts do not establish that his choice to proceed without counsel was
voluntary and deliberate.

He argues that the decision resulted from pressure

placed upon him by Wallace’s lack of preparation and the court’s refusal to grant a
continuance of the trial date.
*|22

The State asserts that the facts adduced at the hearing on remand and

the circuit court’s findings demonstrate that Boyd’s decision to proceed pro se was
a voluntary and deliberate one.

We agree with the State’s position. At the

evidentiary hearing on remand, the prosecution elicited testimony from Boyd that,
prior to entry of his plea, he had submitted multiple filings to the court under his
Own name while he was still represented by appointed counsel. In one of those
motions, Boyd requested that the court allow him to act as “co-counsel.” Boyd
9

No. 2014AP837-CR

testified that if he disagreed with his attorney’s strategy or argument, Boyd took it
upon himself to present it to the court.
%13

At the hearing on remand, the prosecutor also, reviewed the

transcripts of phone calls made by Boyd from jail, in which Boyd discussed his
plans to fire his attorneys only after they’d gotten him the information he wanted.
Boyd said that he planned to fire his first attorney, but not “‘until her investigator
completes their investigation.’” Regarding his second attorney, Boyd talked about
getting her to withdraw so that she would not count against his three-attorney
limit. Boyd also stated that he planned to wait until the last minute before firing
his second attorney. Boyd made similar statements about his third attorney, saying
that he would let him get all the information and then would fire him the day
before trial.
1(24

The prosecution also had Boyd read the transcript of a phone

conversation Boyd had with his mother in June 2011 in which he discussed
preparing his own filings and speaking for himself in court because his attorneys
were making him believe that he would be better off by himself. Boyd and his
mother discussed Boyd representing himself and keeping his attorney on as an
advisor. When asked on direct examination by his own attorney whether Boyd
had ever seriously considered representing himself prior to the final pre-trial
hearing on March 26, 2012, Boyd replied, “Never. No, I did not.” He stated that
his decision to represent himself “was a panicky thing” and “a reflex.”
Tf25

At the conclusion of the hearing, the circuit court found that the

State had established by clear and convincing evidence that Boyd’s waiver of the
right to counsel was knowingly, intelligently, and voluntarily made. The court
stated that “clearly this defendant chose to represent himself, wanted to represent

10

No. 2014AP837-CR

himself, was going to represent himself.” The court based its ruling on a finding
that Boyd’ s testimony that he did not want to represent himself was not credible.
Implied in the court’s ruling is that Boyd’s contention that he was not aware of the
difficulties and disadvantages of self-representation, the seriousness of the charges
against him, and the range of penalties was also not credible. We will not overturn
credibility determinations on appeal unless the testimony upon which they are
based is inherently or patently incredible or in conflict with the uniform course of
nature or with fully established or conceded facts. Global Steel Prods. Corp. v.
Ecklund Carriers, Inc., 2002 W1 App 91, f10, 253 Wis. 2d 588, 644 N.W.2d 269.
Boyd has failed to establish that that is the case here. Therefore, we affirm the
circuit court’s ruling that Boyd’s choice to represent himself and waive his right to
counsel was knowing, intelligent, and voluntary.
Competency
Tf26

Boyd further argues that the court did not adequately address the

issue of whether Boyd was competent to proceed pro se. Our supreme court has
explained that the question of a defendant’s competence to proceed pro se “is
‘uniquely a question for the [circuit] court to determine.’” Imani, 326 Wis. 2d
179, Tf37 (quoted source omitted). A circuit court’s competency determination
must be upheld on review unless it is “‘totally unsupported by the facts apparent in
the record.’” Id. (quoted source omitted).
Tf27

Here, the circuit court made its competency finding about Boyd

“based upon [its] experiences with him.” At that point, the court had received at
least eight pro se filings from Boyd, including one in which he asked to be
recognized as co-counsel. These filings addressed a number of complex issues
pertinent to Boyd’s case, including the admissibility of other acts evidence and

11

No. 2014AP837-CR

expert witness testimony. Boyd also demonstrated, in the phone calls he made
from jail, that he had a deep understanding of the public defender appointment
process. We are satisfied that the record supports the circuit court’s finding that
Boyd was competent to represent himself, and Boyd does not now make any
allegation to the contrary. See State v. Gracia, 2013 WI15, ^[38, 345 Wis. 2d 488,
826 N.W.2d 87 (a challenge to a circuit court’s decision to allow a defendant to
proceed pro se based on the court’s failure to adequately assess competency must
include the allegation that the defendant was actually incompetent at the time).
Totality of the circumstances
Tf28

Boyd argues that, even if none of his arguments individually

establishes a fair and just reason for plea withdrawal, the totality of the
circumstances requires that he be allowed to withdraw his plea. As stated’above,
whether to grant or deny a presentence motion for plea withdrawal is a
discretionary decision. See Jenkins, 303 Wis. 2d 157, ^30. The circuit court has
wide “latitude” in assessing what is fair and just under the circumstances. Id., ^29.
Boyd has failed to persuade us, given the totality of the circumstances, that the
circuit court erroneously exercised its discretion in determining that Boyd did not
demonstrate a fair and just reason for plea withdrawal.
By the Court.—Judgment and order affirmed.
This opinion will not be published.
809.23(l)(b)5.

12

See Wis. Stat. Rule

Office of the Clerk

WISCONSIN COURT OF APPEALS
110 East Main Street, Suite 215
P.O. Box 1688
Madison, Wisconsin 53701-1688
Telephone (60S) 266-1880
TTY: (800) 947-3529
Facsimile (608) 267-0640
Web Site: www.wicourts.gov

DISTRICT II
November 6, 2013
7b:
Hon. Scott C. Woldt
Circuit Court Judge
Winnebago County Courthouse
P.O. Box280S
Oshkosh, Wi 54903-2808
Melissa M. Konrad
Clerk of Circuit Court
Winnebago County Courthouse
P.O. Box 2808
Oshkosh, WI 54903

Christian A. Gossett
District Attorney
P.O. Box 2808
Oshkosh, WI 54903-2808
Marguerite M. Moeller
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857

Tricia J. Bushnell
Frank J. Remington Center
Wisconsin Innocence Project
975 Bascom Mall
Madison, WI 53706

;

You are hereby notified that the Court has entered the following opinion and order:
2013AP684-CR

State of Wisconsin v. Vincent E. Boyd (L.C. #20I0CF344)

Before Brown, C.J., Reilly and Gundrum, JJ.
Vincent E. Boyd appeals from a judgment convicting him of two counts of first-degree
sexual assault of a child. Boyd entered no-contest pleas while proceeding pro se but without the
benefit of a Klessig' colloquy.

The dispositive issue is whether we should reverse the

judgment and remand with instructions that he be permitted to withdraw his no-contest pleas, as
Boyd requests, or, as the State urges, reverse and remand for an evidentiary hearing to determine

State v. Klessig, 211 Wis. 2d 194, 564 N.W.2d 716 (1997).

No. 2013AIW-CR

if Boyd knowingly, intelligently, and voluntarily waived his right to the assistance of counsel.
We are persuaded that the State is correct. We therefore reverse and remand for an evidentiary
hearing. Based upon our review of the briefs and the record, we conclude that this case is
appropriate for summary disposition. See WlS. STAT. RULE 809.21 (201 1-12).'
The day before his trial was to begin, Boyd filed a pro se motion to have a new lawyer
appointed on grounds that his current one, Attorney John Wallace, was.unprepared for trial and
that communication had broken down between them. When the circuit court denied the motion,
Boyd asked to represent himself. The court agreed and, based only on its “experiences” with
Boyd, found Boyd competent to proceed pro se. It did not engage Boyd in a colloquy to assess
whether he knowingly, intelligently, and voluntarily waived the right to counsel. The court also
directed Wallace to act as standby counsel without defining the role to Wallace or Boyd. The
next day, Wallace worked out a plea deal with the State, presented it to the court, assisted Boyd
with the plea questionnaire, signed it as Boyd’s attorney, and answered questions during the plea
colloquy. Despite saying he felt ^pressured,” Boyd entered no-contest pleas.
A few weeks later, Boyd—not yet sentenced—filed a pro se motion to withdraw his
pleas, alleging that they were coerced and not knowingly, intelligently, and voluntarily made,
and that counsel was ineffective. New counsel, appointed shortly thereafter, filed a similar
motion.

He also argued at the motion hearing that Wallace overstepped the boundaries of

- standby counsel. The court refused to allow Boyd to withdraw his pleas and proceeded to
sentencing. This appeal followed.

All references to the Wisconsin Statutes are to the 2011-12 version unless otherwise noted.

2

No. 2013A1’684-CR

While Boyd raises issues regarding the contours of the role of standby counsel and a
court’s duty to inform a pro se defendant of those limits, our disposition of this case turns on the
circuit court’s failure to ascertain whether Boyd’s waiver of counsel was knowing, intelligent,
and voluntary. A defendant has a constitutional right to conduct his or her own defense. State v.
Klessig, 211 Wis. 2d 194, 203, 564 N.W.2d 716 (1997). First, however, the circuit court must
ensure that the defendant is competent to do so and has knowingly, intelligently, and voluntarily
waived the right to counsel. Id. To demonstrate a valid waiver, the court must verify that the
defendant deliberately chose to proceed without counsel and was aware of the difficulties and
disadvantages of self-representation, the seriousness of the charges, and the general range of
potential penalties. Id. at 206. This colloquy is mandatory. Id.
The State concedes that the circuit court did not conduct a Klessig colloquy. The parties’
views of the proper remedy differ, however. Boyd argues that the court’s failures to conduct a
Klessig colloquy, to establish Boyd’s competence to represent himself, and to delineate the
contours of the role of standby counsel, and Wallace’s exceeding the bounds of the role plainly
constitute “fair and just reasons” to withdraw his pleas. See Slate v. Jenkins, 2007 W1 96, ^28,
303 Wis. 2d 157, 736 N.W.2d 24. He contends we should address all issues on the record before
us, reverse the judgment, and remand with instructions that he be permitted to withdraw his no­
contest pleas. The State asserts that we must remand for an evidentiary hearing to determine the
validity of Boyd’s waiver of counsel. We agree with the State.
When a circuit court fails to conduct a Klessig colloquy, a reviewing court cannot assess
the validity of the waiver from the record. See Klessig, 211 Wis. 2d at 206.

Rather, the

appropriate remedy is a remand for an evidentiary hearing on whether "the waiver of the right to
counsel was knowing, intelligent, and voluntary. See id. at 206-07; see also State v. Imani, 2010
3

;

No. 2<)13A1»684-CR

WI 66. 1141, 43, 326 Wis. 2d 179, 786 N.W.2d 40 (Crooks. J„ concurring). Nonwaiver is
presumed unless the State establishes by clear and convincing evidence that the waiver was
knowing, intelligent, and voluntary. Klessig. 21 1 Wis. 2d at 204, 207. if the State can satisfy its
burden, Boyd’s conviction will stand. See id. at 207. If not, he will be entitled to withdraw his
plea. See id.
Upon the foregoing reasons,
IT IS ORDERED that the judgment of the circuit court is summarily reversed and cause
remanded, pursuant to Wis. STAT. Rule 809.21.

Diane M. Fremgen
Clerk of Court ofAppeals

4

S TATE OF WISCONSIN

For Official Use Only

WINNEBAGO COUNTY

CIRCUIT COURT BRANCH 2

State of Wisconsin vs. Vincent E. Boyd

Judgment of Conviction

Date of Birth: 11-25-1981

Sentence to Wisconsin State
\
Prisons and Extended
Supervision
Case No. 2010CF000344

FILED
06-15-2012
Clerk of Circuit Court
Winnebago County, Wl

The defendant was found guilty of the following crime(s):
Plea
No Contest
No Contest

Violation

Ct. Description
1
1 st Degree Sexual Assault of Child 948.02(1)
2 1 st Degree Sexual Assault of Child 948.02(1)

Severity
Felony B
Felony B

Date(s)
Committed
04-01-2003
04-01-2003

Trial
To

Date(s)

Convicted
03-27-2012
03-27-2012

IT IS ADJUDGED that the defendant is guilty as convicted and sentenced as follows:
Comments
Agency
Department of 751 days credit.
Corrections
Department of 751 days credit.
Corrections

Length
Ct. Sent. Date Sentence
1 06-15-2012 State Prison w/ Ext. Supervision 50 YR
2

06-15-2012 State Prison w/ Ext. Supervision 50 YR

Total Bifurcated Sentence Time

Confinement Period
Ct.
1
2

Years
30
30

•

Months Days
0 '
0
0
0

Comments
Conditions listed on count 1 apply
also to count 2. .

Extended Supervision
Years Months Days
0
0
20
0
0
20

Total Length of Sentence
Years
Months Days
0
0
50
0
0
50

Sentence Concurrent With/Consecutive Information:
Ct. Sentence
1
State prison

Type
Concurrent

1 ■ Extended Supervision

Concurrent

2

State prison

Concurrent

2

Extended Supervision

Concurrent

Concurrent with/Consecutive To Comments
Counts 1 and 2 are concurrent to each other, but consectutve to any
other sentence.
Counts 1 & 2 are concurrent to each other, but consecutive to any other
sentence. :
Counts 1 & 2 are concurrent to each other, but consecutive to any other
sentence.
Counts 1 & 2 are concurrent to each other, but consecutive to any other
sentence
_____________________

RECEIVED
JUN 18 20 )v
Gary J. Schmidt

APP.F

§§ 939.50, 939.51, 972.13, Chapter 973, Wisconsin Statutes
CR-212(CCAP), 08/2011 Judgment of Conviction, DOC 20, (08/2007)
Page 1 of 2
This form shall not be modified. It mav be supplemented with additional material.

For Official Use Only

WINNEBAGO COUNTY

CIRCUIT COURT BRANCH 2

STATE OF WISCONSIN

State of Wisconsin vs. Vincent E. Boyd

Judgment of Conviction

Date of Birth: 11-25-1981

Sentence to Wisconsin State
Prisons and Extended
Supervision
Case No. 2010CF000344

FILED
N 06-15-2012
Clerk of Circuit Court
Winnebago County, Wl

Conditions of Extended Supervision:
Obligations:

(Total amounts only)

DNA Anal.
5% Rest.
Surcharge
Other
Surcharge
Restitution
Fees
10.00
TBD
Agency/Program Comments
State has 30 days to submit request for restitution
Extradition fees due to Winnebago County Sheriff's
Department, 4311 Jackson St., Oshkosh Wl 54903 of
$547:50
Follow assessment recommendations.
Follow rules and pay fees of supervision.
DNA sample and fee waived.
Comply with Sexual Offender Registration Program
}
(SORP). • :
Maintain full time employment.
No contact with anyone under 18 years of age.
No contact with victims or their families.
Contact 'allowed with biological child as long as there is
supervised contact by someone,approved by defendant's
. social worker.

Attorney

Ct.
1
1

Court Costs
742.90
Condition
Restitution
Costs

1

Other

2

Costs

Fine

< ■

J

Mandatory
Victim/Wit.
Surcharge
140.00

□ Joint and Several

Conditions of Sentence or Probation
Obligations:

~
■Rifle'

.•

(Total-amourits only)

•Court-Costs.

Attorney
Foae

- :i

Mandatory
Victim/Wit.
Surcharge

□ Joint and Several .
Rpstitiitirin..

5% Rest.
Surcharge

DNA Anal.
Surcharge

TBD
• - . t,

Pursuant to §973.01 (3g) and (3m) Wisconsin Statutes, the court determines the following:
The Defendant is Q is not S3 eligible for the Challenge Incarceration Program.
The Defendant is □ is not ® eligible for the Substance Abuse Program.
IT IS ADJUDGED that 751 days sentence credit are due pursuant to §973.155, Wisconsin Statutes
IT IS ORDERED that the Sheriff shall deliver the defendant into the custody of the Department.
t

Distribution:
Scott C Woldt, Judge
Tracy A Paider, District Attorney
Gary J Schmidt, Defense Attorney
Wis State Prison
P/P-EF
Jail ■
Defendant

BY THE COURT:
Electronically signed by
Hon. Scott C. Woldt, Circuit Court Branch 2
Circuit Court Judge/Clerk/Deputy Clerk

June 15, 20.12
Date

!
§§ 939.50, 939.51.972.13, Chapter 973, Wisconsin Statutes
CR-212(CCAPj, 08/2011 Judgment of Conviction, DOC 20, (08/2007)
Rage-2 of 2
- This form shall not be modified. It may be supplemented with additional material.

For Official Use

STATE OF WISCONSIN, CIRCUfT COURT, WINNEBAGO

COUNTY

Plea Questionnaire/
Waiver of Rights

State of Wisconsin, Plaintiff,
-vs-

MAR 2 7 20f?

j

\

l Defendant Case No.

V
Name

vocy-T^HM

Q

'!
I

2!EliMRTj3R;i
—-

.■-^r-tLiU L/OUivrf

I am the defendant and intend to plea as follows:
Charge/Statute

V:

...Q7-

-V

Plea

Charge/Statute

Plea

□ Guilty
No Contest

□ No Contest

Guilty
I No Contest

□ Guilty
□ No Contest

□Guilty

3
I

O See attached sheet for additional charges.
I am_^0_years old. I have completed

!

IK ?a,o
kMJo

I
1
I

aJ/am not
have not

i

i

m

do

□
□
□
Q
Q

do not
do not
do not
am
have

O,

yearsjotschooUfigrv.

have a high school diplom^GED) oiyjSEj/.
understand the English language.
understand the charge(sj to which I am pleading.
currently receiving-treatment for a mental illness or disorder.
had any alcohol/medicationd, or drugs within the last 24 hours.

Constitutional Rights

^ v

I understand that by entering this plea, I give up the following constitutional rights:
13^ I give up my right to a trial.

7

I give up my right to remain silent and I understand that my silence could not be used against me at trial.
I give up my right to testify and present evidence at trial,
fisf I give up my right to use subpoenas to require witnesses to come to court and testify for me at trial,
jvf I give up my right to a jury trial, where all 12 jurors would have to agree that I am either guilty or not guilty,
m I give up my right to confront in court the people who testify against trie and cross-examine them.
m I give lip my right to make the State prove me guilty beyond a reasonable doubt.
I understand the rights that have been checked and give them up of my own free will.
Understandings
•
I understand that the crime(s) to which T am pleading has/have elements that the State would have to prove
beyond a reasonable doubt if I had a trial. These elements have been explained to me by my attorney or are as
O See Attached sheet.

^S-A-2—--

•

l .understand that the judge is not bound by any plea agreement or recommendations and may impose the
maximum pe|ialfy^Th^maximum penalty fare upon conviction is:
■

•

I understand that the jucjge must impose the mandatory minimum penalty, if any. The mandatory minimum penalty
I face upon conviction is:
. A

i
i

I
i
<

•

I understand that the presumptive minimum penalty, if any, I face upon conviction is:

I
■■

The judge can impose a lesser sentence if the judge states appropriate reasons.
>
t-227, 05/04 Plea Questionnaire/Waiver of Rights
This form shall not be modified. It may be supplemented with additional material.
Page 1 of 2

i itats. s^71.08

•

Plea Questionnaire/ Waiver of Rights

Page 2 of 2

Case No.

Understandings
• I understand that if I am placed on probation and my probation is revoked:
• if sentence is withheld, the judge could sentence me to the maximum penalty, or
• if sentence is imposed and stayed, I will be required to serve that sentence.
•

I understand that if I am not a citizen of the United States, my plea could result in deportation, the exclusion of
admission to this country, or the denial of naturalization under federal law.

•

I understand that if I am convicted of any felony, I may not vote in any election until my civil rights are restored.

•

I understand that if I am convicted of any felony, it is unlawful for me to possess a firearm.

•

I understand that if ( am convicted of any violent felony, it is unlawful for me to possess body armor.

•

i understand that if i am convicted of a serious child sex offense, I cannot engage in an occupation or participate
in a volunteer position that requires me to work or interact primarily and directly with children under the age of
16.

•

I understand that if any charges are read-in as part of a plea agreement they have the following effects:
• Sentencing - although the judge may consider read-in charges when imposing sentence, the maximum
penalty will not be increased.
• Restitution -1 may be required to pay restitution on any read-in charges.
• Future prosecution-the State may not prosecute me for any readrin charges.

•

I understand that if the judge accepts my plea, the judge will find me guilty of the crime(s) to which I am pleading
based upon the facts in the criminal complaint and/or the preliminary examination and/or as stated in court.

Voluntary Piea
I have decided to enter this plea of my own'free will. I have* not been threatened or forced to enter this plea. No promises
have been made to me other than those contained in the plea agreement. The plea agreement will be stated in court or
is as follows:
1
□ See Attached.
0 Cy —

/} X oKAaA k f~} X

C SVJ

CKlr\ sviaAa

"Vi / AA AJjjA.
mm
frW ■

. Vl VlM

Defendant's Statemen.
enVJ
I have reviewed and understand this entire document and any attachments. I have reviewed it with my attorney (if
represented). I have answered^!! questions truthfully and either ! or my attorney have checked the boxes. I am asking .
c
the coutHo accdpt ray plea^nd findpe guilty^
//

r

'b\‘& if

/
-^Signature of Defendant

Y

/

Attorney's Statement
I am the attorney for the defendant. I have discussed this document and any attachments with the defendant I believe
the defendant understands it and the plea agreement. The defendant is making this plea freely, voluntarily, and
[iS'document
intelligently, j saw the-deftendant sign and da
Signal

CR-227, 05/04 Plea Questionnaire/Waiver of Rights
This form shall not be modified. It may be supplemented with additional matenal.
Page 2 of 2

Wis. Stats. §971.08

V

1

STATE OF WISCONSIN CIRCUIT COURT WINNEBAGO COUNTY

i

BRANCH 2

2
3

\>
4

STATE OF WISCONSIN
5

Plaintiff,

6

CASE NO. 10-CF-344

-vs-

7
8

VINCENT E. BOYD,
9

Defendant.

.10
,»

li

12

FINAL PRETRIAL CONFERENCE

13
14
•15
-16
17

BEFORE:

HONORABLE SCOTT C. WOLDT

DATE:

March 26, 2012

PLACE:

Winnebago County Courthouse
Circuit Court Branch 2
415 Jackson Street
Oshkosh, Wisconsin

APPEARANCES:

Assistant District Attorney Tracy Paider
Appearing on Behalf of the Plaintiff, the
State of Wisconsin

18
19
20
21
;

Attorney John Wallace III Appearing on
Behalf of and With the Defendant, Vincent
Boyd

22
i

23
• 24
25

t

FVv lo/l2_/|2C

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
P.O. Box 2808, Oshkosh, Wisconsin 54903....
f,

.... 920-236-4824 -

3

;

PROCEEDINGS

1

THE COURT: State of Wisconsin versus Vincent

2
3

Boyd, Case No. 2010-CF-344. Mr. Wallace on behalf of

4

defendant who appears in person. Ms. Paider on behalf of the

5

State. We're here today for final pretrial. The jury trial's

6

tomorrow, two days scheduled for. Where are we at?
MS. PAIDER: I think it's actually scheduled for

7
8
9
10
li

four -THE COURT: Four days.
MS. PAIDER: -- but I don't think we're going to
need all four days.

12

THE COURT: Scheduled for four days then.

,13

MR. WALLACE: Your Honor -

14

THE COURT: Yes.

15

MR. WALLACE: - I had, at the pretrial, indicated

16

to you that I might need more time for the case. Last week I

17

filed a motion for continuance. The defendant and I have

18’

met, discussed the case, and some of the things that he has

19

presented me has merit, some of them -- some of the items

20

he has presented to me I would argue with him about using,

21

and we have argued over that matter.

i

22
23

THE COURT: Welcome to the club. He argues
with everybody.

24

MR. WALLACE: Well --

25

THE COURT: He's smarter than the rest of us.

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

4

MR. WALLACE: — I'm looking at fairness to the

1
2

defendant, Your Honor.

3

THE COURT: So am !. So am I. He's had every

4

opportunity in the world to get this case resolved, and he's

5

gone through numerous attorneys and -- and I see the stuff

6

that he files. He just thinks he's smarter than you and thinks

7

he's smarter than every attorney and thinks he's smarter than

8

me, and nothing's going to change.
MR. WALLACE: Well -

9

THE COURT: More time is not going to change

10
ii

that.

12

MR. WALLACE: - if ~

13

THE COURT: It's going to be exactly the same.

14

MR. WALLACE: Well, if I may, Your Honor?

15

THE COURT: Go ahead.

16

MR. WALLACE: Thank you. I received the bulk of

17

the file from a previous attorney in December, and I've met

18

with the defendant three or four times, two times extensively,

19

two times not so extensively. I was in the midst of a different

20

trial. Out of fairness to him, I would ask for one continuous. I

21

do not believe that he has asked but for one continuance

22

previous to this. All the previous attorneys have either -- well,

23

I think they resigned. I don't know necessarily if he fired any

24

of them.

25

(Discussion held off the record between Mr. Wallace

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

5

i

and the defendant)

2

MR. WALLACE: Two of them -

3

(Discussion held off the record between Mr. Wallace

4

5

and the defendant.)
MR. WALLACE: Two of them were conflicts. He's

6

facing life without parole if convicted of the charge, and I

7

prefer to have every single witness tracked down that he

8

would propose, and the specific time period when this took

9

place he's been limited to, I believe, 68 days. He has

10

provided supplemental information to me which he obtained

11

on his own and from the -- inheriting the file that had been

12

pending for almost two years when I got it, there had been

13

little done on the file up to that point. So out of fairness to

14

him, I filed a motion for adjournment, and we're requesting at

-.,15

least on my -- my taking of the case, a first adjournment.

16

THE COURT: The State's position?

17

MS. PAIDER: Your Honor, the State objects to a

18

new adjournment. This case has been adjourned for years.

19'

This case was set for trial in October for this March date. And

20

the defense motion indicates that there's no prejudice to the

21

State. I would disagree with that. As time goes on, witnesses

22

memories fade, they get more and more apprehensive, which

23

is completely understandable, and the victims want this to go

24

forward, and we're ready to go forward. We have lined up

25

two other acts' victims, an expert.

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

6

In terms of the witnesses that Attorney Wallace had

i
2

indicated providing, one was the probation agent, one was a

3

marshal arts' instructor, and one was the defendant's mother,

4

who are all on the witness list, presumably ready to go. I

5

don't understand why we would need an adjournment at this

6

point. I would strongly object to an adjournment. This case

7

has been pending for quite some time and is set for trial

8

tomorrow for the next four days. It just needs to be done,

9

Your Honor. I don't think that there's anything time is going

10
ii

to do.
As 1 indicated at the last hearing when Mr. Boyd

12

fired - fired Attorney Zilles, I had resuscitated some jail

13

phone calls that we had listened to between Mr. - or excuse

14

me, between Mr. Boyd and family members where he

15

indicated he would take the case to the end and then fire his

16

attorney to keep prolonging the case, and I think this is

17

simply a delay tactic, andiwould ask that the court deny the

18

motion for an adjournment

19

THE COURT: I --1 agree. I think it's nothing but a

20

delay tactic, and this case has been pending for an inordinate

21

length of time. I think it needs to be trialed -- tried, the

22

matter needs to be resolved one way or another, and we'll

23

start at 8:30 tomorrow morning.

24

MR. WALLACE: If I may, Your Honor -

25

(Mr. Wallace files paperwork with the court.)

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

7

MR. WALLACE: The defendant wished that to be

i
2

filed. He has now fired me as his attorney of record on the

3

matter. He does not want me to be representing him any

4

further. And there's, I guess, a case up on appeal right now

5

where -- State versus Rory Kuenzi. Waupaca County, where

6

that issue is the primary, whether or not the court can force

7

an attorney. I -- there's an OWI case where the case law says

8

you cannot force an attorney on a defendant, and once they

9

are fired, I think they are terminated from representation, and

10

his mother is attempting to hire an attorney privately today to

11

represent him.
THE COURT: See, the thing is is that he can't fire

12
13

you.

f {

14

MR. WALLACE: Well, he has fired me.

15

THE COURT: I can do that.. I'm the only one that

16

can with -- allow you to not represent him. You can't. Only

. 17-

me. And guess what? I'm not letting him get off the case.

18

‘ He's still on the case, he's still your attorney, so you have an

19

obligation to work with him, and I will not allow him off this

20

case. As Miss Paider said, from the phone calls which she

21

has, I think it's a ploy for you to try to prolong this matter,

22

and that's not going.to happen. •

23
24
25

THE DEFENDANT: Can you consider my reasons
for not wanting to have him as my attorney anymore?
THE COURT: Well, you've been sitting here talking

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

8

to him all day long.

1
2

MR. WALLACE: Insufficient time for preparation.

3

MS. PAIDER: The first time he came to talk to me

4

about this case was just 11 days ago. That's why my alibi

5

evidence isn't even allowed to be presented to the court.
THE COURT: Well, the thing is just because he's

6
7-

just seeing you doesn't mean that --

8

THE DEFENDANT: I asked him -

9

THE COURT: '-- he's not working on the case.
THE DEFENDANT: -- but he hasn't. I've asked

10
11

him to contact 20 witnesses, and he hasn't contacted-a single

12

one of them yet. He threatened to hit me. He told me to

13

shut up over a dozen times.
THE COURT: Well, maybe you need to be told.

,14

. THE DEFENDANT: He thinks - he's not even

15
16
17

- familiar with this case; Your Honor. He thinks that the -- that
woman-back there is, mvex-airlfriend;, She's mv.aunt.

18

THE COURT: You're smarter than him, right?

19

THE DEFENDANT: No, I never said)that/,but I

20

know this case better than him and 11 days isn't enough

21

•timet--

^

THE COURT: You knowrthis case better than

22
23

,

i

anybody?

24

THE DEFENDANT: Yeah. Yeah.

25

THE COURT: I figured. All right. See you

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

9

i

tomorrow. He's still on the case. I'm not granting your

2

motion.

3

MS. PAIDER: Your Honor, there are - and I don't

4

know if the court wants to deal with this now or tomorrow.

5

One of the witnesses that's listed on the witness list -- and I'm

6

not objecting to any of them, but I'm presuming it's for

7

something similar to alibi, it's the probation-parole agent. If

8

the probation-parole agent testifies -- and that's concerning

9

the 2000 conviction from the Langlade County case --1 would

10

like something on the record that the defendant is in

11

agreement with putting forth his probation status in front of

12

the jury because I believe the reason he would be having his

13

probation agent testify was because one of the rules of his

14

supervision was that he not have contact with minors which,

15

obviously, we are alleging that he was having contact with

16

minors and, if he puts forth that status, there are other

17

conditions that he was violating during the term of his

18

probation which I think I would be entitled to go into. So I just

19

want it clear on the record that Mr. Boyd wants his probation

20

agent on the witness list and wants that status brought out in

21

front of the jury.

22
23

24
25

THE COURT: Mr. Boyd, is that what you want?
Why don't I let you two -MR. WALLACE: More articulately, what
Miss Paider is referencing is, if we bring in the probation

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

10

i

officer for a specific reason which she may not have stumbled

2

onto yet, we open the door to any other items that are on the

3

chronological history report and open the door to anything

4

else that the probation agent would know and -THE COURT: You're opening up the door to the

5
6

fact that he was on supervision at the time.
MR. WALLACE: He was on maximum supervision,

7
8

high-risk supervision, as a sex offender, and it may or may

9

not open the door to that, and it may or may not open the

10

door to other items contained in some of the areas of his

11

supervision. We discussed that privately in the jail, and we

12

can take that still under advisement between now and

13

tomorrow.
THE COURT: Okay. So you two can discuss it

14
15

and --

16

MR. WALLACE: We can.

17

THE COURT: -- then we'll address it tomorrow

18

morning as to whether or not - so we have - just so he

19

understands that that's a potential issue.

20

THE DEFENDANT: I understand that.

21

MR. WALLACE: He understands that.

22

THE COURT: Yep.

23

MR. WALLACE: He understood it before.

24

THE COURT: Ali right. Ail right. We'ii see you

25

tomorrow morning. Is someone bringing clothes for him?

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

11

THE DEFENDANT: My mom is bringing them

1
2

today.

3

THE COURT: Someone is bringing clothes?

4

MR. WALLACE: Yes.

5

THE COURT: Thank you.

6

MR. WALLACE: The jail will have them.

7

THE COURT: Well, he can change them here,

8

right?
TRANSPORT OFFICER: Yeah.

9
i

THE DEFENDANT: Judge, I thought I had the right

10
ii

to represent myself.
THE COURT: You can represent yourself if you'd *

12
13

like to.
THE DEFENDANT: But I can't have the

14
■ 15

opportunity to hire my own attorney of my choice ~

16

THE COURT: That's not representing yourself.

17

THE DEFENDANT: Well, I have the right to an

18

attorney of my choice too, though.
THE COURT: Well, as we've discussed on

19
20

numerous occasions before -THE DEFENDANT: Can I just represent myself on

21
22

this case then?
THE COURT: Mr. Wallace is still going to be sitting

23
24
25

there.
MR. WALLACE: That would be fine with me.

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

*
12

THE COURT: And you want to do your own

i
2

openings and closings and all that?
THE DEFENDANT: I would like to completely

3
• 4

represent myself on this case.
THE COURT: Okay, and Mr. Wallace will be at your

5
6

side for standby counsel.
"

7
8

MR; WALLACE: The PD will not pay for that. I will

just let you know that.
(Attorney Bryan Keberleih is present from the Public

9
:10

Defender's Office and>is shaking his‘head up and down.)
THE COURT: What -- what-are you shaking your

11
12

head-up and down for? c
MR. KEBERLEIN: My understanding is the Public -

13
14

Defender's Office won't pay for standby counsel. I can verify

15

that.

16
12

THE COURT: Then the — then the County will pay.

'•r Y

for ifK fGndjwayjimr thp-nfhpr yn'ii'rp going tn he here as

i

v

18
.19

standby counsel.

•

■*-

IV

THE DEFENDANT: All right, and if I'm allowed to

20

represent myself, can I have^amopportunity to file,the

21

motions that I've asked be filed

22

MR. WALLACE: We can take 'em - he can take

23

•'em up chronologically a couple’of 'em; we can do 'em, yes. I

24

know exactly what he wants to do but - I can --1 can assist

25

him, So for the record, he has terminated me, he is

Tamara Waters-Ruedinger, RPR, CRR, Official Court-Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin.54903

13

i

proceeding pro se, and I have been appointed standby

2

counsel. I will assist him in his defense, and I will advise him

3

on what and what not to do.
THE COURT: Well, he hasn't fired you. You're

4
5

standby counsel, but he has a right to represent himself.
THE DEFENDANT: Will I be allowed to question

6
7

the witnesses myself?

8

THE COURT: You will be able to question --

9

MS. PAIDER: Your Honor, I want Mr. Boyd to be

10

reminded, though, that the pretrial orders that the court did

11

order are still in effect --

12

THE COURT: They are.

13

MS. PAIDER: -- and he is going to be bound by

14

the rules of evidence just like anybody else would in terms of

15

what he is and is not allowed to ask the witnesses.

16

MR. WALLACE: I will advise him accordingly.

17

THE COURT: You understand that?

18

MR. WALLACE: I Will advise him accordingly too.

19

MS. PAIDER: And if in any way--and I know that

20

the court is really good at this and won't let this happen, but

21

I'm very familiar with Mr. Boyd, and I know the tactics he's

22

going to take, especially with the children involved in this

23

case.

I

24
25

'
MR. WALLACE: He -- he will not - if I'm present/

he will not undertake any dilatory tactics with the children.

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

14

That was not his --

1
2

THE DEFENDANT: That's not my --

3

MR. WALLACE: That was not his intent from the
beginning.

4

8:30 tomorrow morning as standby counsel -- or

5

8 o'clock.

6

. THE COURT: Okay. We're bringing him in at 8:30 /

7

so be here.before that.

8

MR, WALLACE: Okay.

9
10
11

■ THE COURT: I guess I'll find that he's competent'

♦

to represent himself.

J •.

• .Hi:'

i:

!

t ' ''

MS. PAIDER: That's what.I was going to ask the t

12
13

1

court next, if .the^court was going to,do.»any sort of finding on l

14'

- the;recordThat the defendant -r

15
16
17

THE COURT: hwill-find/.based upon my,

. experiences.with, him, that he is.competent .to.represent
himself. He seems to know all the<games to try to play, so I;
<

18'
19

.guess he can represent himself.*
'

• '

•; MS. PAIDER: Well, Ypur:HonQr,,then in terms of ’ .

20

the — atJeast one of the other acts', victims, the one,from the

21

Langlade County case, the one he, was convicted of, I know in .

22

.some of his motions he is questioning,that conviction and

23

wants to have a trial within a trial. He's already pled and'

24

been sentenced..*.There's a Judgment of Conviction there. He

25

can't dispute the fact that that's there, and technically,

Tamaira Waters-Ruedinger, RPR, CRR, Official Cgurt Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

0

15

*
i

because the charge is first-degree sexual assault of a child,

2

the fact he has been convicted of it by law is allowed to come

3

in, so I just want him to be aware of that as well. He's not

4

going to be able to collaterally attack that conviction at this

5

trial -

6

(Defendant speaks but is inaudible.)

7

THE COURT: That's true.

• 8

THE COURT REPORTER: I didn't hear him.

9

THE DEFENDANT: I have the right to defend

10

myself against it. I would --1 would like some latitude in

11

questioning the victim and I would talk to --

12

THE COURT: You will get no latitude.

13

MR. WALLACE: He's wishes — he's requesting

14
15

some latitude in questioning THE COURT: You will get no latitude. You don't-

16

just because you're representing yourself doesn't mean you

17

get to violate the rules of evidence. I mean you get to -

:i8

you're right, you have a right to defend yourself within the

•‘19

law. That doesn't mean just because you're representing

i

20

yourself you - means you get to ask questions that aren't

21

relevant, that are prejudicial, that are hearsay. You don't get

22

to violate the rules of evidence just because you're

23

representing yourself.

24
25

THE DEFENDANT: No, 1 understand that. I just
think I should be able to tell the jury -

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

&
16

»
i

THE COURT: If you don't — if you don't know what

2

the rules are, maybe you should reconsider whether or not

3

you want to represent yourself.

4
5
6
7
8
9

THE DEFENDANT: I'm not allowed to explain to
the jury why I pled guilty to the case?
THE COURT: You are not You don't get to explain
anything unless you testify.

..

THE DEFENDANT: if I testify,,am I allowed to tell
the jury why I pled guilty to that charge?

10

THE COURT: No. It's. not relevant. -

11

MR. WALLACE: If he testifies.

12

THE COURT: "If he testifies."

13

MR. WALLACE; If he testifies. ~: -

14

THE COURT: Anything.else? .

15

MR, WALLACE: 8:30.

16

MS. PAIDER: No, Youi; Honor.

17

THE COURT: See you tomorrowM#4

18

(Proceedings adjourned.)

19

-

>

3(C

3^:

$

.V

v.

$

t

20
21
22
23
24
25

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

74

1

consider. Not only did he answer those specific questions

2

affirmatively, based upon reviewing of this entire file,

3

clearly - I mean I'll give you an example: four boxes of

4

information which he has which he picked through specific

5

documents to file in this case which were pertinent to his

6

case, clearly this defendant chose to represent himself,

7

wanted to represent himself, was going to represent himself,

8

and was aware of the difficulties, the advantages of

9

self-representation, the seriousness of the charges, the

r

10

general range of penalties. He knew all that so this -- this

11

court will find that the State has established by clear,

12

satisfactory, convincing evidence that the waiver of counsel

13

was knowingly, intelligently, and voluntarily made and,

14

therefore, Mr. Boyd's conviction will stand and he will not be

15

entitled to withdraw his plea.

16

/

And as far as Mr. Zilles smelling like alcohol and

17

shaking, I can't believe for one second, if this defendant

18

would have noticed that, that he wouldn't have said it at a

19

hearing because it's clear from all of the submissions -- and

20

like I said earlier, I knew that this was going to happen. It's

21

not that I'm a fortuneteller or anything like that or I can read

22

into the future or have any type of powers like that. It's just -

23

therejs a reason I keep this up here. ~ (The court picks up a

24

rubber duck.) If it walks like a duck, talks like a duck, quacks

25

like a duck, it's a duck, and he walked like an attorney, talked
March OH . £20lM,

“S

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Ci
P.O. Box 2808, Oshkosh, Wisconsin 54903
920-236-4824

75

1

like an attorney, wrote briefs like an attorney, and wanted to

2

be his own attorney, plain and simple. It's easy. It's that

3

easy. All right.

4

MS. BARNES: Your Honor-

5

MS. PAIDER: Your Honor -

6

THE COURT: Go ahead.

7

MS. PAIDER: Your Honor, I'm assuming it's

8

implicit in the court's ruing that the defendant's assertion on

9

the stand that his -- his decision was never to go forward

10

without an attorney is not something that the court is finding

11

credible?

12

■THE COURT: Oh, without a doubt. The only

13

portion of the testimony that -- well, the portion of the

14

testimony.that was the most credible is when he answered

15

your questions exactly about what you had to ask and he

16

answered those yes because he really wasn't thinking about it

17

and it was the truth. He. wanted to rpprp^pnf- himgpif Tho

18

only thing that's not credible is that, when he answers the

19

question did^you want to — did you —jis it true that you did

20

not want to represent himself, I don't believe that for a

21

second, and I will find his testimony not credible on that

22

issue.

)

23

MS. PAIDER: Thank you.

24

THE COURT: Counsel?

25
!

. MS. BARNES: Your Honor, apart from the Klessia

s
\
Tamara Wa’ters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
P.O. Box 2808, Oshkosh, Wisconsin 54903
920-236-4824

76

1

issue, there are a couple of issues that we believe need to be

2

addressed upon remand here today. In the Court of Appeals

3

we raised two issues related to standby counsel. For the

4

court's benefit, the essence of those claims, the first is that

5

Boyd's Sixth Amendment right to self-representation was

6

violated when standby counsel acted beyond his role when he

7

negotiated the plea deal on Mr. Boyd's behalf and interfered

8

with Mr. Boyd's ability to represent himself. The second is

9

that an explanation and colloquy on the role of standby

10

counsel should be required to ensure that both standby

11

counsel and the defendant understand what standby counsel

12

can and cannot do for the defendant. The State's brief asks

13

that these issues be addressed on remand, and for this

14

reason we would ask you to rule on them today.

j

)

15

THE COURT: I'm not going to rule on them

16

because the Court of Appeals didn't tell me to. If they send

17

'em back to me, we'll have another hearing but I --1 found it

18

interesting that when we were --1 just remember that the day

19

before, when he wanted to represent himself and he wanted

20

the court to give him more latitude and I told him I wouldn't

21

the day before and - I did some research on that, and he was

22

exactly right. So he obviously researched it because the case

23

law says exactly what he said, for latitude. So the next day,

24

when he comes in, I was going to say you have more latitude

2^

while we're doing the trial, but then he wanted to take a plea.

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
_P.O. Box 2808, Oshkosh, Wisconsin 54903
920-236-4824

77 .

1
i

So I think even at that point standby counsel would

2

have been there but he would have tried the case. He just -

3

in essence, what he did was he weighed his options, of which

4

he knew plenty of, and he made an intelligent choice. He

5

weighed the pros and cons, made a good choice as to the

6

plea because he didn't want to run the risk of spending the

7

rest of his life in prison.

8
9
i

All-right.- Send it back to the Court of Appeals
■ ■

MS. BARNES: Thank you, Your Honor.

10

THE COURT: You're welcome.

11

(Proceedings adjourned.)

12
13
I

■;

•

C

j

14

». .

15
16

12
18

^3*

:.

2.

4*

•.

1920
21
22

' ►

23
r2 4
25
i

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
P.O. Box 2808, Oshkosh, Wisconsin 54903
920-236-4824

-jVsMy'
•***

joj
mow

pkxpj

pvtpi^q

Oi

do-jpg

0_j phog

pjQj

-t'!

puvtj sitj %UWYJ ijiqn

SV

73V||Vjq buijTTW 3ILj|

?Ljj \JC,V Qj. UOLpnb JJJKpodwi J.90W 3I|| 91 |Vtjp|
3'4-f r.cu^l juprp "3i|

jvtjj- p|V|9 pbpj

' U0l|930b

aij-jy ' 90V^

gphag

C.-3WI-} q|

OUUOQ

^ Wj-jOIA

337tf|jVp| Qj. J3M9UV'

ui jsi_j sltj

pmovn p

!

sv 'nob
'nob

jiuj p|00ij9 x '

PH ^im ' EK7C '3! LPJVH
rfTp|VC; ppTCOl

'pvgpppj

f

°f

VU

UI

SW1 3lj jVLjj

WILj

UUOjU! Qj- lr?|UO ' 30! M|

JOijj 'jVIJj. 3iQj3Cj eWp £1

' z\PC '5i

00

■ ejjVQ QUOLjd puv gbuipyw
*W,,*n

33VQ

91 tjj

snoQwou

njjv|Qj svq

pbopj

9VM TOVj |Vf~j~ 'J°

<ssoosip Qj
p3j'3IA

pmvdmid

30VjjVpj '.jRjj

b|(JO puv ' 37U3J3jUCQ |VUj-3jJ 3ljj HOpCj
ssnosip Qj
pbpj

pbgg

3QV jjVjq

3jtd93p •' 3%yo

jXJXf J35W/Lj

' SU0SV3J

Wp

Ljjin _pw pupp mvjjvjq

V pA(373i jou svq

JRcW 4Q 773(d

*urtop usijQiq

nr siy?.!'T~-V.;.;-^n

tppn 3§^o iijj

jVIJp v op 3op ' pb wiq

uo ' hjavjooip-^j

SI tjj- Qj 30U3J3pU UI
pbog ' bp? poi pity

U33Mj3(j

uoijjniuowwcr^ -p

5uino|]Qj itjj j.oj si prsnbu siqj_

J.3j|VW pQOU?S3^l4 QACXp 3l|j 01 pUVplOpp 3ljj iQj [QSU 007
rt3u

rcddv

C2j -jQOQO SlLjj S7AOW bcjQQlj ' juvpuipp

psuocp

rnpj

dd
_po |U?w_jU!Odoy

jLop

plWVU QAOCjV 3ijj_

U0;lj0^

|Uvp3pQ
'-pbocg

bh£'dT7-0l -°N ^

■ g?

jumiup
A

ib-nd
SCANNED AT GBCI and emailed to USDC-EDWI on
pagss.
.by
no.
initials
date

bjuooQ

oS?Cpuuip[

qj.ncpj

| !OZU r-j

LM9UO09! pj q.0 SjVjCj

/ gpjcoii ~?uoLjd

ta

h_ic?|vc/| 00X1

od

jOCCjV'

'hilAOTOIp

■A

Ujj

Ujj M31A O.tj. pbog

JO / gM3IAJ?|UI ppJQOU

-3W||Vj-J
Ul

pJOj.

pbog

(T

O^UrpjCOl-l Olpov

lip

pijjiwusd jou sv(j lovjppj

(''pi

' M3IA3J

VLASIp

jpj. pi. jocq:
*13!ttJ3ipO
L'OLpW

OM

phog

930^| jVpj

•! i

' ■

'

iij

jnjj

jaicixi L/V uipcp caj. oiujp
guoy

ipbog

91

3y|Ctfe lj Lr?i|ri puiuppdo-xi
' 1U 3J lj

• jjldxi
pbog

Tjoopi vupp

lomptM iqijv' 91LJ jyijj.
6u(99T?9lp

ILpj- jO

U!^3C|

joobvq

luixoo

HOOjj VUtg

QQj

'piv9

mw

p p,| v-

L||iM

ij ido3p ' 1SVO Hip Ul OllUpM Ijbuil V

' 9l9S3UjlM JVljlljod UlVjJlO Oj p|Vj Qj
pvU Oj

kiiAQOSip lip piou

Wig

jou pvq it| jvip

'Ul

3WOO Qj

isovug

AOV||V'jj
uopcj

j?
sbvp

pjchoov ic] jou pi non

!PKl

3JV,|VJ1

| gun pjiIVM

jbog
svq

pljWj.UCO j.ou

(’0

J?l[jO

jVig

-pup

3W|jvpp (1

op Qj.

Uljjlj

pljIVj ll|
jOC|

STTCUIKIOU 17V|jVJj

lip Oj buiUlVjild

pjvjs lotjpjj ' WC 'S\

It PI’US1AU!i

C7

jLljUl 09 <svn 10V||Vpj

9W3j!

H™W u0 (Y

hpjvobspvu! svp iov||vpj

'1W up 'ji ipij
Wlip 119 Pj juvn g

oj.

pijddcs

wig buipV

pOinjU puv' ' IjOV

'1SV1 1

ug uo pbog

QJ- Gu I IjjOU, lUCp 9VI)

uivWcj pd v ijvj oj wng ^uw IAUOO
1
U9

jlnog • W3ip

(l

• jvuj

' 09

|v(.p

joqii

logjvjg

jLjbooip

up ppj

sbvp g(

lip LpM JVIjlWVj 1W003C|
q»

ppj ug

p?SSlldx3 pbog • wig igi/i WO

U3M Qj. jvijj- uopcj

'SOSSiUjitt jVt jUljod

C1I.V19 lip

'qt^i

9VT1

|CT3| f pJ-JlWCjO? |0U 9VO jl 750V03C|

JJJ

ii||

gi? ll^ri Ul 7 33UV00I jUQO V AOj.

oioipvjiiKo Vi; 07? in? siq |
!

<.vj pp; jg

uijj/

p|Qj lAVlj Qj IWIVp 11)

: '

qj.

UiVjCjO Qj p:

'pjVjl 30Xj|Vp| ‘

Jcr

j,uop ooh p-p 'nob

^imi

bjM

Ull|pj

|71p9V

SjTV JlLJjO ll|j t~PjjV Oj plpvjl UJ jVlp. pbop
'SUOIjllob

pbcxp

ppj 13lj|Vjj

9!OV||Vpj

J1MSUV

Oj

'p-39>crTW
puy

• q..vp

-93^VW

j?pvj

v

qv

LjT71t|rr ' pTXIOOOO

.<!.[ !•

3jqr 3q pjnon
3WOT2q

uoiqvvuoqui

7JQpj.3ijq

KH-^op CM * 3|vp jyi.ll

Oj

pkpj

pbqc?AUi

.Rfioid

3ouvnuipuoo

6

uipojqq

pm uuAig

qoort jtrqj. 35u?j3p
<3|W J3tpj<p oqj

'qqoq

33v/| jVp|
•3oU3qu35

9iq
01i

joq /jvojq
ojij

v

_ • i/~uq
• uoiqviwioqu!
yq ' CpiOTJi

Tiojdy^

LOOVSi
- uopjoq

V

puv

op

ooltoolil"

qo

qovoiddv'

huv

mpO puV kpiOOlJ.

uivqqo

poovjjvpj
oq

qiC/n /0pi0O3J

pvf ui

qo buiunp sqj

jvuq -nd
siq

pjooo

giq

pvq|. 05

mq

9U05V3-1

bpvop <si pbog - • g>

jjtfdy?

Vi

3ApAU!

P»!!

puv

03S53u.|iri

kor 3Lp p

uoiqOIAU03

?|vq5 ?iq. qvqq 3nHiV

ovq

'bqpo^?

p?3 mid

mvjppq '3Uop oq

U7A lb qou SI

uuvq

tqiM "3j>?oiuowwco

oquvn ’ uosijy

quooud

-to

woq

squw

d

7y

'1U0 3MSSV0

bu(053id 3!

pv?jd oq uuq
oiq

puivpuivw

O3UUV0
? ppiAUO? p. y |vq| 3^JVLp v
031

kupioq-q? oq
giqq

pbog

pbog 'suoi-jow

oq.

mH!?N

3qvixppp

spboqj

Omipow

Sji |3W j ou

jvviilmuj

oq d5 oq gjuvn
V

L^ljV

Tl$ 1LH J3Ltf,3N '7

bvpp oq buikip qou

ggovqvjq ' iHAooiopj

biopvpvw

uoipow

7

-iopsuooo -io

qo swjp oqp

op oj. pjivq ovq

• |vuq

liow

bjqv'uo'svsj ' pkg

svq

Ljjin

qwij- | quo

pjoco

U0qV0P77V

ucoqy * giiOixw

40U

aou

lU^IS V puv / buol7l|03|
|uvm jlUO;

o/\3ipqo!p oq

bbsqvijg jvuj

i3q

uosijy

psiiv

obvp

pbqg

oAijW

V si

wq ,5S3U3Aiqo3qq3Ui

pw

bjdHig puv 'buv ji ' TouipiA?
si

pjoon

qnq|. og puv ' pjij- 7q

p-jLiaHOTOp j-0 |UO01/'!'7

v

jatJ-pW

iV3p

v puvqsi3puo

.puq

psqvoipui

WI-jOIA

jvqq

|'|UO

qou |pn <x|ri psu GOO

iiiqo 'ooqp

'pmpp <svq

v bu uv^q

qvtpj.

ouo psj^nbsi bjuo svq ' qpowiq

i
■fOOi

id "pWAV'q oq

0001.135 UO jviop 740j.3q

Oj. p3| y 39V||V|q
UOI

v

pbopi 'i3AOHO|q ' 3jqvpU7|SJ?pU O

ovq

'S?bmj7

qnuq

uiv$ oq ftjiqqou

3jqv kifTq uvipj

pUiVWTl

<SiV3h

•xuvnoi.iuoo

tyjw? W lOj. p3l,|SV 7AVq

•jvup oiq Guibvpp bq
qqin

i^qjV

OjLj^U

p|OO0 3Ufi

puy ;pjiq'«7 buooh v qou / i’JvW33j

7pZJU3ILQAtOOU;....LOA3

|vo!skjd

UOS1 jy

j.ou pip

3SOV9 pjoon Wpp

op uosj|y

ILjq

jOU op

i?q W3W11

quv/^pj

b|pO&l|jV qjCVSSV

pAVMiOL 1HOT

I.|j!fi

buv qiVJlj

3L|q -p qqHu

qqin

|77qdw3q|V
7?pliq3/\

ovq

g33vq

^li^vsip
qou

iOjoy

svq

\

pbog

l

pkg
pkxg
7ov||vp|

qo qtowyvclog

'p

^Uvpc^pQ
phog -g |U^U!A
^2

'UliVjg

j.0

hvp

p4g£

Slip <JI9U03Slp| 'LpOl.jipQ

pv

pipvQ

‘pOlilol pUV 301}. 91
buioGiiap up

-jvipp

hiobid pw puiWLjsiuod po 9iij|vuxi 4ipuo wpp

' wig
staid puv

jusgiicki op

Vri(jAop|V ri3U v puioddv

s^sv b||nppo3d'S3i puvpuipsp iipp 'iaocjv

pipvps

pi003

91X75*34

‘ plncg
jPU

pOljpUOQ

lip

lop MVJ pijjin op prjjliobli

Oj

SV uo bvp9 op Jii|

'/lUiOpjV SJLj
43Qp[

|W|3V

taiucppjp * sioiUloppV

9lLj

pipsv

bipoipoids

ipviooovui UV pj.003 ?Ljp Q| p?pu?93icl

f 1LW Ht

OOIiipisod

spbog

pvpp

spbog

lo||VUOLpo?pUI 1 iipop

st pY tiou

131rip

buiAjOAUI

SVA1 lljl jVLjj pOCJ

ptag

^Dipjvbu 9|(V0 3U0Ljd

!Ht TH
i0i

SI

kpp^p pjoco
jp VliVWHOS

kwjp

biUiop|y

UOIipVpC191idli

IMpUpp

piop? i/33e| svy pbog ' <spi|piio3 190pp. 4op ?|e|VpUooo3V p^og 5oi!PH

f(M

' jVAOWlJ 43L|
Suu.mbu ' isvo supp LI I
JipiULlp

lAipoipip

* MVUpCfpin op

p3l|pU03 jv-opiv UV pVLj
ui

pvp

iipj

'oUUlplQ log

9t

SVlilLjn f<hvp 33il|p

pi non

ouoipow

Sptag

uosdnoipp

sp^og

' 13V | d

tpj-in

p§iip 3ip|

pipuiMid 3avl| p|noip3 ipign' ppsix? pvpp

|UlHLK39udlAM ipij
SlWip lt|p

3jVAlij

iopv^ip MAUI

Oj lop MVApLJp in ap p40p iisn

9p3l jpUOO |VOJ.3V

hj <gooi Mid

'Guuiobii ' 43t|poiC|

il IIpj vpuig

p?iiogQ iv puiupuioddv imp

lip 14'obli

pipui9iie)ii

iOp

h 40pvpuvw
vpon

taljUVjb p SIQfi

pvpn

op sV i3uvoipiu^(e ui buijvd

p|oon

ooipow up. buipuvjb pvip

diujopjv grip poii-p optag
?a|qaui

psuivW

WOOjpiOOl -uou op op

■\y fHj JGt

tajuivpiil ' jtviuiw

4vpui|v3

phog

icj

*g

p 4003

f

p|non ' liiobi

spj.1003 lijp op spuovg'sofpv hty

y

'v

*

1

1

STATE OF WISCONSIN CIRCUIT COURT WINNEBAGO COUNTY
BRANCH 2

2
3

4

STATE OF WISCONSIN,

5

Plaintiff,

6
7
8

CASE NO. 10-CF-344

-vsVINCENT E. BOYD,

9

Defendant.

10
li
12

PLEA HEARING

13
i 14
15
16
17

BEFORE:

HONORABLE SCOTT C. WOLDT

DATE:

March 27, 2012

PLACE:

Winnebago County Courthouse
Circuit Court Branch 2
415 Jackson Street
Oshkosh, Wisconsin

APPEARANCES:

Assistant District Attorney Tracy Paider
Appearing on Behalf of the Plaintiff, the
State of Wisconsin

18
19
. 20

21
22
23

Attorney John Wallace III Appearing on
i
Behalf of and With the Defendant, v incent
Boyd

24
25

pm

io/.\z/rz_

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. .2
P O. Box 2808, Oshkosh, Wisconsin 54903...................920-236-48240——^

1PP 1C

V

3

PROCEEDINGS

1

THE COURT: State of Wisconsin versus Vincent E.

2
3

Boyd, Case No. 2010-CF-344. Mr. Boyd appears, as does

4

Mr. Wallace. Ms. Paideron behalf of the State. We're here

5

today for jury trial. Before we start, Mr. Boyd, I just want to

6

go over with you once again your request to represent

7

yourself in this matter.

8

MR. WALLACE: One moment, Your Honor.

9

THE COURT: Go ahead.
*

10

(Discussion held off the record between Mr. Wallace

and the defendant)

11

»

12

MR. WALLACE: If I could have five minutes, Your

13

Honor, to speak with the district attorney and discuss maybe

14

a resolution, I would be willing to do so.

15

THE COURT: Take five minutes.

16

MR. WALLACE: Thank you, Your Honor.

17 '
18

1-

>

:

THE COURT: You're welcome.
MR. WALLACE: Unfortunately, Your Honor -

1'9

thank you for your patience because I was in jail last night

20

until about 10 to’4 and it took 'em 10,15 minutes to get the

21

door open to get me out so - and then I tracked counsel

22

down in Branch 6 yesterday. Of course, that was about --

23

THE COURT: Don't worry.about it.

24

MR. WALLACE: But I apologize.

25

THE COURT: Take your time.

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

4

i

MR. WALLACE: Thank you, Your Honor.

2

THE COURT: Take what time you need.

3

(Brief recess.)

4

(Proceedings resume.)

5

THE COURT: Going back on the record on State of

6

Wisconsin versus Vincent E. Boyd, Case No. 2010-CF-344.

7

Same appearances. Where are we at?

8

MR. WALLACE: Well, the situation is is the State

9

would be amending the Information to delete the persistent

10

repeater so that the maximum on both counts would be 60

11

years times 2. The State is then requesting a Pre-Sentence.

12

The State would be free to argue, and the defense would be

13

free to argue.

14

Additionally, the defendant has the option of having

15

Langlade -- the case that's pending there either -- a couple of

16

things might happen to it - dismissed and read in, plead and

17

read in, or the defendant can choose to contest that if he so

18

wishes in Langlade. There was - the situation yesterday was

19

plea to one count, and then the same recommendation would

20

have been made; unfortunately, given the status of the date

21

of the day and four in the afternoon, now two counts the day

22

of trial. So under the circumstances the defendant's

23

reluctantly taking that, but that would be the situation with

24

the Langlade case. I may very well call the district attorney

25

over there today and find out that they're willing to dismiss

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
P.O. Box 2808, Oshkosh, Wisconsin 54903
920-236-4824

5

i

i

that case given the case he pled to here, but that, I think, is

2

an accurate recitation of the plea agreement.

3

MS. PAIDER: In terms -- in terms of Langlade

4

County, yes, I don't have any authority to do - whatever

5

Langlade County wants to do with their case is their decision.

6

It is plea to both counts, open sentencing. It's an accurate

7

recitation as it relates to that. I wouldn't necessarily need a

8

Pre-Sentence Investigation, but obviously, if the court wants

9

to order one, the court can.

10

THE COURT: We'll order one. •

11

MS. PAIDER: Okay. Then other than that, yes,

12

plea to both, open sentencing, that's an accurate recitation of

13

the agreement.

i4

THE COURT: Mr. Boyd, do you understand that, if

15

you're not a citizen of the United States, a plea of guilty or no
contest may result in deportation, exclusion from admission

, 16
17
I

18

'

to this country, or denial ofnaturalizatTon under federal law?
Do you understand that?

n.

19

THE DEFENDANT: Yes, sir.

20

THE COURT: Do you understand that I'm not

21

bound by any plea agreements, I could sentence you to the

22

maximum, and in this case it would be 60 years in prison on

23

each of the two counts? Do you understand that?

24

(No response.)

1

25

THE COURT: Do you understand that?

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

6

;
i

THE DEFENDANT: Yes.

2

THE COURT: I see that you're taking some

3

medication. Does that medication at all hinder your ability to

4

understand these proceedings?

5

THE DEFENDANT: No.

6

THE COURT: Do you understand that - or your

7

plea to the two counts of first-degree sexual assault of a child

8

without the persistent repeater -- your plea to those two

9

charges are no contest?

10

THE-DEFENDANT: Yeah- I feel a lot of pressure,

;11

but yeah, I feeR don't really haveany other option but to do

12

that. i :
THE COURT: Well, obviously; ! understand how ■

13
,14

you feel pressure, and I just wanby.ou to understand that - or

15

agree lhat I'm not .pressuring you,■'you don't feekpressure

16

from me, do -

17

-

!

•

i

;THE„DEFENDANT: .Pressure that I - since coming
i

*’ 18

i

19
20
21
22

in yesterday, I feel pressured today..

•

!

' i

THE COURT; You. -- ,yo u fee I press u re based upon.
the rulings I, made?

••?

THE DEFENDANT: Tes; I don'tfeel I'm going to.
\

be able to get a fair trial here.. /

';

23

THE COURT: You’don't-- pardon me?

24

THE DEFENDANT: .I don't feel like I would be able

25

to get a fair trial. I don't --.and I didn't have — I don't know

Tamara Waters-Ruedinger/ RPR, CRR, Official Court Reporter for Circuit Court Br. 2
P.O. Box 2808, Oshkosh, Wisconsin 54903
920-236-4824

7

1

how to represent myself at trial.

2

THE COURT: Well, you do.

3

THE DEFENDANT: No, sir, so I'm going to plead

4
5
6

no contest.
THE COURT: You could have Mr. Wallace
represent you. You understand that?

7

(Defendant nods head up and down.)

8

THE COURT: I mean you've had numerous

9

attorneys, and as you said yesterday, you feel that you know

10

this case better than anybody, but you've had an opportunity

11

to -- and obviously, this case has been going on a long time -

12

you've had an opportunity to become familiar with this case

13

and you've had attorneys working on this case; you

14

understand?’

15

THE DEFENDANT: Nothing's been done. I mean

16

there's not a single motion that'sbeen filed on my behalf.

17

THE COURT: Sure there has been. We've had

18

many motion hearings on this case. Do you understand also

19

that by entering this plea.you'd be giving up these rights: the

20

right to a trial? You're giving up the right to have a trial here

21

today; you understand that?

22

THE DEFENDANT: Yes, sir.

23

THE COURT: Do you understand you're giving up

4

24

your right to remain silent? You're not remaining silent

25

because you say -- you're pleading no contest. Do you

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

8

i

understand that?

2

THE DEFENDANT: Yes, sir.

3

THE COURT: Do you understand that you're giving

4

up the right to present evidence? Obviously, without having a

5

jury trial, you're not telling your side of the story. Do you

6

understand that?

7

THE DEFENDANT: Yes, sir.

8

THE COURT: Do you understand that you're giving

9
10

up the right to have a jury of 12 find you guilty or not guilty?
Do you understand that?

)

11

THE DEFENDANT: Yes, sir.

12

THE COURT: Also, the fact you're giving up the

13

right to confront your accusers, people who say you did this,

14

ask them questions up here on the witness stand, and you're

15

also giving up the right to have the State prove that you were

16

guilty beyond a reasonable doubt. Do you understand you're

17

waiving or giving up all those rights?

18

THE DEFENDANT: Yes, sir.

19

THE COURT: Do you understand what the State

20

would have to prove in order to convict you on this case --

21

THE DEFENDANT: No.

22

THE COURT: -- is that you had sexual contact with

23

Alison B. W. and that Alison B. W. was under 13 years of age

24

at the time of the alleged sexual contact. Sexual contact is

25

the intentional touching of the vagina of Alison B. W. by you,

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
P.O. Box 2808, Oshkosh, Wisconsin 54903
920-236-4824

9
i

i

and the touching may be of the vagina directly or may be

2

through the clothing. The touching may not be done by any

3

body part or any object, but it must be an intentional

4

touching. Sexual contact also requires that you acted with

5

the intent to become sexually aroused or gratified. Do you

6

understand that those are what - that's what the State would

7

have to prove?

8

THE DEFENDANT: Yeah, I do now.

9

THE COURT: Okay. Has anyone made any

'10

promises or threats -- other than the promise of the plea

11

agreement -- did anyone make any promises or threats to get

12

you to enter a plea today?
THE DEFENDANT: No, just a lot of pressure.

,13

THE COURT: Okay, and part of the pressure you

14
15

feel, I would assume, is the fact that I also didn't grant you

16

yet another continuance, correct?
THE DEFENDANT: Yes, because I wasn't ready to

17
18
>

\

go.

19

THE COURT: All right.

20

THE DEFENDANT: And I only ever met with my

21

attorney twice.

22

THE COURT: Meeting with him in person?

23

THE DEFENDANT: Right.

24

THE COURT: All right. What the court is going to

25

do is find that the defendant is entering his plea freely,

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
P.O. Box 2808, Oshkosh, Wisconsin 54903
920-236-4824

♦

10

;
i

voluntarily, and intelligently, and I guess, Mr. Wallace, are you

2

of the opinion that Mr. Boyd is entering his plea freely,

3

voluntarily, and intelligently?
MR. WALLACE: I've asked him about four times,

4
5

two times briefly, two times extensively. Under the

6

circumstances, he's entering a plea of no contest, and it's

7

difficult for him.

. 8

THE COURT: Part --.part of the pressure too, sir, is

9

I would agree that — or I would believe that it would be you're

;io

.facing-life in prison? That's part of the .pressure. toorcorrect? ,

;11
(

THE DEFENDANT: Yes.

12

THE COURT: That factors into your decision?

r' D

THE DEFENDANT: Yes, sir.

113
14

THE COURT: All right.. The court will find that the

15

defendant's entering his plea freely -- freely,.voluntarily, and

.16

intelligently, find there's a factual basis for the.pleas and,

:17.

.-Therefore, accept the same and will adjudicate him guilty.

18

Both the persistent repeaters will be dismissed, and we'll

T9
!
20

order a Pre-Sentence Investigation Report. How long do you
think we're going to need for sentencing?
MR. WALLACE: Two hours -

21

say, about two hours.

'

1

■

■

i

.

:r

, THE COURT: Two hours it is.

24
25

'

MS. PAIDER: ,1 .would - ghat's, what I was going to ..

22
’ 23

j

v,

THE CLERK: Okay. How abput June 15th at 10

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
P.O. Box 2808, Oshkosh, Wisconsin 54903
920-236-4824

11

;

a.m.?

i

MR. WALLACE: Your Honor, you would need - I'd

2
3

ask that the court fire me from County representation and

4

withdraw that petition or that appointment so that I can

5

proceed to obtain any other funding I need from the State in

6

representing the defendant.
THE COURT: So you're back to the Public

7

Defender's Office, you're saying?

8

MR. WALLACE: No, I just --1 --1 would decline the

9
10

Court’s appointment of me at County expense for

11

representation done yesterday due to the fact that I need

12

funding which is not normally available through this county.
THE COURT: I understand. Do you want

13
14

Mr. Wallace to represent you again through the Public

15

Defender's Office?
MR. WALLACE: For sentencing purposes.

16
17

i

THE COURT: "For sentencing purposes?"

18

THE DEFENDANT: Yes, sir

19

THE COURT: Okay. All right. We'll withdraw the

20

representation from the County, and then I think you'll

21

probably have to reapply again. Just --

22
23

MR. WALLACE: He won't. He's indigent. It's not
been 60 days.

24

THE COURT: All right.

25

MR. WALLACE: I'm sure with Linda Meier -- I'm

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

12
i

1
2

sure it's going to be okay.
THE COURT: Yeah. Just make sure you do that

3

so - if there's any issues, make sure you get that - get that

4

information to me as soon as possible so --

5

MR. BOYD: Is it necessary?

6

MR. WALLACE: It's necessary.

7

MS. PAIDER: And Your Honor, I understand that

8

these are collateral consequences, but I'm sure Mr. Boyd is

9

aware and Attorney Wallace went through with him in terms

10

of implication for entering a plea to a sexual assault charge in

11

terms of registry, the prohibition against working with

12

children, and the Strike Law in Wisconsin.

13

THE COURT: All right.*-,In light of your previous

14

conviction, I would believe he already understands his

15

collateral consequences, but sir, you understand just what

16

Miss Paider said, you're giving up those rights, and those are

17

effects of convictions of these? Do vou understand that?

18

THE DEFENDANT: Yes, sir.

19

THE COURT: Thank you.

20

MS. PAIDER: And Your Honor, just in terms of --1

21

understand Mr. Boyd's reluctancy. However, the court and --

22

did also allow Mr. Wallace an opportunity for approximately

23

an hour to talk with him this morning concerning his right to

24

enter a plea.

25

>

THE COURT: Yeah. As I mentioned, I would give

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
P.O. Box 2808, Oshkosh, Wisconsin 54903
920-236-4824

13

i

you as much time as needed, and we were more than patient,

2

there was no rush. We got it resolved and it's - and I

3

understand the pressures on both sides with respect to

4

victims, family, testifying, and the defendant facing life

5

imprisonment, it's a tough decision, so there is pressure there

6

on both sides.

i

Anything else we need put on the record?

8

MS. PAIDER: I don't believe so, Your Honor.

9

THE COURT: Mr. Wallace, anything from the

10

defense we need to put on the record?

11

MR. WALLACE: No.

12

THE COURT: All right. We'll see you in June.

13

(Proceedings adjourned.)

14
15
16
17
18
19
20
21
22
23
24
25

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

14
i

CERTIFICATION

1

PAGE

2
3
4
5.

STATE OF WISCONSIN

6

COUNTY OF WINNEBAGO

SS:

7
8

I, TAMARA WATERS-RUEDINGER, official court

9
10

reporter for Circuit Court Branch 2, Winnebago County

11

Courthouse, Oshkosh, Wisconsin; do-hereby certify that I have

12

carefully compared.the foregoing 13.pages with my

13

stenographic notes and that the same is a true and correct

14

transcription of said notes.

!

15

;

Dated at Oshkosh, Wisconsin, this 1st day of August,

16
17

2012

18
19

My Notan^commission expires 10/11/2015.

20
21
l

22
23
24
25

Tamara Waters-Ruedinger, RPR, CRR, Official Court Reporter for Circuit Court Br. 2
920-236-4824
P.O. Box 2808, Oshkosh, Wisconsin 54903

1

QO
ipfg

' bb! PC’ *flTf -S07 |75 PT

' |vmipi||(n

y?|d J04 D3ai £ c,uosv3j 3lj|

C2C T HI 000£

'*

raiA'piBu v uvLjj J3ij|va'|W3CJ][

V 3^V-| QJ _|_inOT 3tj| <S31lr?br3J UQI•l.j.'imip -JO ?<§l?-i3*3 3L(J_ *U0S73i

\

huV JOJ 6unU3|U3? QJ -loud 73|d 3ILJ

puv 'V3|d 3l|| &JU3jU3

O/^'YS 71 Yr/S

H

IH UOISPJUCO puv Ijsyij ' 'STX^nblSUOT SV3jd 3L|j

GjipUV'ISU-Jpt'QSIlT! 3UIHU3B V 3pnpUI |VHWpL||IM V3jd JLOJ SUC5V3J -pof fW

wz RrrtN 8oe iz-hci ' ici fc'\Tt 07 r^p'rWT 'U0SV1U
H0l|5

\

MVJpljjin 0| |UVpU3J3p V WC|jV |SnW |iHO0 |VI-l|

Y ‘ (bbbl TOJ 37& yew 107 'b?L '0?L RT*n
uoroisco

pu7 J.,vj

jwpuspp 3LJI ' H?UIOU3jU3S Qj- -AOUcf V3|d

_Jt7

‘(£U>Q

pop puv

jiv-J

v

V MWpi||_(M Oj. J3pJ0

PT^-TX Pw J"d.,
' pSUOCO -jo 33UVpiSSV ^Al-p^J-JOU!
J73A13033 3Lj puy 'pOlBO? SVfl
3 pH |0U OT
SVM

V3|d 3Lj| ’Vijurpn|0A pur ' hj|U3Si|p|u.i ' h|foiro;>f
3ij! J04 ' c\qg‘LZ .‘P'H uo

73|d 3t-pj. -j.y4!

4>ttjn v3jd j<33juOD

W

3 tj!

psU^puS

nyjpLjjin oj. -j-uvp.uipp 314 MO||y pur psuoco

rr3u pioddy <4 .pcro siipj. S3aow hcj3i3ij ' _j.uvpu3.p3p pwvti "SAO^r 3iy_

psuno^

^Id
.i

H3|4

pur

°i U0!fVi WJVPu3i30

•.

’puypu^pQ

't«*& '1 t^A
bh?-d>0! 'P(V ^

‘A

(jieuo^&ipj
hjjjncr^

cbvcpuuipj

j.q

U'.aicQsipj po 3_jvj£

>

’ObTJ

PC ,<s'n CSI

<3}fLmi<b A

'jvrivjpLjjiri v^jd v iQ^ ug^wj '.

_j.<snr pw jiyp V 91I O33U3nb?9U0Q c;V3jcJ V p ^UIpUVja43pun9lH |Vi?U^6 y
■ jppow opbog

ippin

-3A3ri -iCLl ' Q(. p73|cf QJ. pT3iW pbogj

piesoosip ^(j^pj SW-p- ^ ^4f

SkUip ^ipj- pCU "3J3n

^LL. 'f1/311001100

oyj jo' ui-pyjj puy pssiustp ~3cj pjoon 7SV0 -3pV|^J^7

|Vl|j pu^ ;^oW .

QJ, T3JJ. 3Cj p]non ipyp 3ljp |Wp|- ' pjliQ V jO ||OV<5S^ |WX3g 331&g
9JXI007 OMJ- [c). °f jS3|lOT 0U ' ^UIpV3[cf syn pbog

J?

pvtjp poo ?ipp pjoj- ..wipp

PpSWjLj 33V||Vj~[ pUV •' ppWll] buip730Oid 3ljp 3|pUVtj Qj. p^pj

O0| jV Op p3SOpi

puy ‘ pbog ’ ^UipCQ^jd^i j jips ‘SW p Xj^Opj. <3V p3|Oy T^lppj"'■ pSUOO?

phog

hcjpuvps <sy ^||vn ipprt ' is cud Sui-ivoddy 3cj op psoddns, <5vn
\pipcj 9iipp, uodn 3iiyuojp<s3nb otpp pubis pHog
-sdj

ppiOn

ipvjP'uv j. aipj.

puv

* psstwsrp

3nEiv op ^^-^pinor^-^wg^p^^jf

/(JO(91AA?doS' ppU3|X3' SlT^ Q| hcj pHOJjOp ' pU3W3Ulj.U07 (VI^JUI 91V3h Q[. ' |V|Cp
ssrah q£>

f"003

3U0

jog' ^sy pjnori: 3pps iijp pvtfp py ' pjoyssp'
[{J op pS3pU37 ou ■ j0 y3|d

33ib?g p^j-j

J0

y J3pu3 pjoan pbog ppp <syn 'lavipyf

puv j?ijpow sptag <sy ppd sy :('-33vjjyp|-puy pbpj msrtpcj juzwziby TJipjp
• pvsi p/t| pbog . uoipjod' tajuc? oipp svrt p; sy ' pu3W33i6v oipp po uoijjod pycp
-pp-psscu;? hj|yopoy puy ' sup -3sajp op mby pou pjocrf. sij ppp ooyjivpp
pjop (Tjjy^l^iosds

ph^g

’ _|ir3U03UO7 UW JLC7' Ul- pyu .puy pTSSlUSip. SCf -Hipp

p|noN ,bpun«g 3pyjbur| . ui 3syo buipcrad 3Ljp pvtpj oappun pvc| oTyjjyp 'j3A3dopi
•pt ubie op pbog

pzi?pjo puy 3JU(yuoip3ob y3jd v poo p3[fip: 3oy

irn

•p399O09jp 3WJ?p 3LJ| op pv3jd pjC70|S 3Lj pwpf- p3iSy J3ip|.0W 9p^
pWAQj-UI U3ljp 30y||VpJ /,J3l| ipj-IH bui^d?
v pssnosip py j3tpjow <spHog

U3Lj Ljjltl uoi•ipnjosau

3|c|issod

pipyoiddy U3tjp 30Vj|Vpj '^ojy jjy jyup jivp

y buiAyt| uo ppsieui sp puy py3jJ qj. puv/i pcu pip pficg 'V3|d v J?pu3 op wilj
pjnssuc/ py piocag

papycuddy "^jjypf uljo£ b3UJ0jpy ' CIOC '/^C H^W

• b| uvpuop puv ' hpcG^ijpLi/ ' W|Ouinou)| ipvw ppu syrt

u0

^|d ^ (M

I hese.

counse.I.

Miar^pr^nUionsNon UaIK's beUf eAsi'lq ahouoH Ho coercion bq
1,'eJ 4 Boqd in order Ho

fell

Gcqds s^rwW onHo -Hit, p Ica

qsesfenAfe, And fen ordered M fc mum siU AS be rnferm! fe
of e comoIJlIli differed se.f of ferns fen 4W. in nfiich fefJ Agreed ffc,
mi be did so even Affer feqd erased -cul fee. pvfcrt perkining 4 flit
|_AnqUde. &>unHq

CASS

. THaH

CJAi-

Us nof- been disMissed.

On Hie., record during -Hit. pled hedrincj, Soqd aIso infarrteH HH £.

Hu

COOT

\o oledA ooH, despite- HHe HacH tHut He, did nof mnH Ho.
He. FdH dlof of presort.
P
UaIIace. HaJ pnLViouslc| mforMed Boqd duf he. could eAsilq win > is Hml , However
on MavoH 3T M , He. Mid HUH &qd would lost/And uiHiViAHdq ^aye. Sou|d
kf& HHah 3 hoore Ho consider HHe, pU BoqH HHopgHf He.
into, And refused do pic-K FH E_

CASE,

.WAS

2/rferin^

bAcK up And op do Hria!.

To furFHer Add Ho FHESL coETSivE pressures ,• on HAroH 34,3^2 , HHe. diq prior,
’ Jod^a Uoldl specificAllq .nfcrrtEl’M HHaH He uiH.^F >0 WTITDOL in
■' despite, HHe. judges rESponsibiliHq do Afford defenjAnls
cross - exam in i noj witnesses

"UIDL MTITUDL'’ in cross-exam inA'Hion. IH is noH. unreASomble Ho conclude. HHaH

Alfe ftlfWaJ bn-fee. >%£- hiM&eJF in I# of fe fuf- fef A
defendAnf /s wkM fe uide Ulifefe. in ffoss - iHrumng uiJtissms , but- fe
HHaH 6oqd uou id receive. no UHiHude,, mfrin^ir^ upon Soqds
CnnfenfAfion RiqUs coMple-kg , And eLfeffe, Ane| possibilfe £ A fair
coorf sHaHsH

•Wl.
The q£nerAl nisondsrsWin^ of Hie. pUk con^oe/m , And HHe coereivL
pressures

involved, sHaHe. a HaiV And just reAson Ho WAlTAnH HHe WlHHdrAWAl

of ScEjds pitA.

<3.) &oqd rect-ivsd ineffEoHivt- AssistAnte. of counsLi.
H

i r

i

L

.Aik/I

f

A

nip. A

v

nn 4blf_ bASI?> of iflEffEcHivS

U53 Cj

bjdwctf -pu pj-p ^i| ^ raroBCf ' ftppf °f f3”?j|'7

»'j 3|VWi|jH

• *V V »

1

(-p) Vpo ipiLjn 40 ' S3WVU (<^) ipfin |SI[ <sS3U|trt V p||.IK^Cl« ?l| 1 p3|SUJ
• <?3SS3UjlM l^.pr Q£x ^pU3<g |0 W K3l/Ul|Ut Oj. p|W| *3l{ H|^jfOI|W '1W7
Siljl Ut U0lp?Lp3AUt |UVpU3el3pUI bu\? _pnpU7 0| p|IV| '30V]|VrJ ' HOWSljjjrM
•V3|d V -U|U?
hp|VWj||0 pV ' 3% cud p33aid' oj- pBofoj SJlj UO V?J IAV3LJ, ppjUJUOT j7W jVUj.
|V t^UIUUlM ]{J STOUVlp 9IC| Ul 30U3p^UOT spp^j putwaspun hp3*3% -pd*3 mpjop 3ifljivj s^vjjvj^ ■ ^uoip73||v 3ejv| 3yjvw op
ptx ' huonj-p3| psodcud ^uepopi ’-ig

loipjiip p|f- uivplxi Qj-

pdx? ty

pep op p3p3U. 9VM

‘^DUVpWCQjp 3<g3lp Ul 39UVWaop?d |i£g3lfip 5J 9lijJ_ *43.UCpp(
UOJi-j WuoMipaj. pdx3 ije|W0Avp |ioip Q| &Jpij ui V|pui|| p^d oj

,JC1

9AV

ip'-p|ren^-^^d^epp^^^g~p<| | .pWng

uivjcp op 3injivp 33ov||Vpj ' lir?

Fn.n incev

wilj

rejjy / | t?dx3 Vtf

’UT *^$odbnd-J3t|p p3A3S 6uowy ' tpipochi
Mg ^uiji|po svn

phrj-3p joj sucsvai 3ip uiv|dx3 'oj. jxiowipj. ^

3U
‘pU^pep SW1

pdx3 ou 'pjjiwqcn.

pipp. pj <ss3Ujm "apj ^ipp Viej pp?pjIA3 SV 43A3M0JM

' "3?V3 5JI|P 01 pdx? UV Opcp op j733U S^Lj ^JUIppUl ' ^3Up3iVcbid f pV|
SJOj p^ppOUpV ' 3X)V0U1|I.UOT v jopooCpw ipji-in

sjl|

ui• 7p|vj-j hsuiczpjy
•pnsJtTef

i
|PL!

SW pdxs ?i|p

•(no ^icj jo |i?dx?
pdx3

' spri| sijf pAcuddr

tji^q

Stfpppg oijc^nj

3ig_

v 6uuj| oo papinup 3ij |vt|| pjnoj^ 3i|| uo huowijp

3^0 spvp 3i|| <| pjep o| P|.,ri /e3||!Z l^d ,^73UJQ|tv J°U(^

>b? f *rr?

r'W’is

|03i3-mp 033CJ iWtj p[OOJ1 t7Utp33Xud 3I|| |0 ||0?34 3L|| ' SAQU3 JMJPi^^lOiduo
spunoa 40J. pj
94f 1

pippcpid pvuosvsi v si 3B|| |vip nep pn juvppp

f -pd?v loipnfisd -31-p hpvs oj_ 'pfcbl} bU7 K ‘?1 7 92, 'eso?

’+7,<5 hOI Z»? 'hV ‘S'G 7?b ; ojbuJYtl 'A ^IMiS ’jvpipjiicj svn hj03Pt|3p 3i|j
prij|- pV jplOl^p 5VH U<3l|V|Lr2S3ad3i SpwnOT spt|| W|S |SOW p&ino3 Jf) 3?UVp§SV'

.

-J .[M

’I

'

I. I

• V3^d Stl|

|W ym. -»4i '^-pyF'NSvn ’ 3J<7iil3'tt ' PUV

V —

l

MW pijjiH

Qj- phog

ho||V

13CQ

+'”+U” 011 ^

T)V||ff1 -|»ft 13U3fl« GuOUIMTO (W JWp V*| tiap u«
-?WJ 9ll|| Ul V3|d -|S3-jUC9

3AVtj j**xg flnaM -ioU

33

OU V p3|U3

aid pW Qj. ppBnfcu 3AVlj pu ppcw f^J

'pwtKy M3fl f -jwwpwddy pj pntejj 9iLj Ul SUGSV3J sfXog SV IP sv
'sous e^livn J«af" j! w'fft f>poro <ft sflwwwun. fw si +1
•\T3|d v pLT9 Vpjvwipi puv ' is- cud

p^aid Qj. pnb3U

9

pbcg

in 7 kjipj. CJj swupi

ppvdwi lnpi3A3§ 'j3A3Q9jVt|rt '^x/?piA3 '^!|V Viuv
ln||vipjocl Wvlj bfo p. pl«ud 3t|j_

-m-1

• IC|I(V p 39l.pu V

ppcbpui
Ul
JO :'|9IJ S^3U|in Xjdoid V 3|!-p Qj. HuijlVj- puv 1 UQLj.vfop3AUI
prrpuco Qp ^Ulj'V-j Ul
Ul

'TWVWJapl ppLpp. ^||vn °f 3nf '

UV

^

' S3SS3U.jp anj. 3S3tjj pjU3A3id. \npsv3 3AVt| pjQCQ J^majj-V pupy ’HJ’ SivX ^
Ul

UVLjj 3IQW JQj- 33SS3Ulp. p ^j9

p3p(93i 9VLj "3p JVtjjVi ' -p9j j 9S3U|lM 3ljj UQ SS3Upp^ pi |v p3piS34
UOUp/WJOjUl pVjUOT ^73-UOQUr BUlUJVjUOO

J3A3U Wlj Cpp 7PU!7 .‘^PPZ aC7i

^jviip Tutpej ^bvp

uvipj

SS3

j |Slj 9S3U|in 3i|j pijjiwp^ 'pp w p ^S3U|in

syijp folpjvfou ICjljV _p 391-jPU V Ijfp ^majjV
3W||Vpj ' OCjV SS2Uj.lli ICjljV

?L|t PPiAW

d 43A3U

uv p Qj. ppu^pui ^pWj svn cpp^ vpui-j

■|VI^ -uipei stop
£| UWft SBJj (J?1J WJUftfl 31(1 p^MtfW 'f>ft u! pW'sCTUftM Sllft 5uipJvW

ICjljV .jO 3^L|QU

p lft[f-T h?UJO-J(P pjl|3jp 31ft ppi/dd J3A3U 'OTH',p|

3HVJ.(3Wlj

pfo||P 31ft f> Vftuofpw 31ft Guunp <3|o«|TO34H sptrag ot SV
QC|H

W3Uj.in ICjljV UV hjpups 9VT1 lUO|Vpj ^ 143A?MQpj
sr cpp2 vpui7

puv '9Utj^ vpuq '3U0|vp( jxy

p|QOM

•S3S83U|lh |Vlj-U3| od

Pf\\ fj| 393pin 3iy_

•SjJU3W3Jld73i ICjljV if T)Lj0|\| p>; <ZC'\Lh 'sf^ '^n

Xt'X

\

-f

IQblrS 'in'fW
’fg

itsw

phog "j -J-U30UI /\,

#T'VW ' ’

': i‘‘f

I-

ZL

£.
<.■

;

‘73|d siL[ MV4pl|-f>M o-j-

p.UVpi/3p3p '3t|| r®|JV pUtf' ^?UUV3Lj • irUVl^-trap >A3 l# iOjp-VreUiOpj.v rrau V pwcdclv

-pnco

5jLj| pyipp 54^ fynppdssJ |uvpu3jpp ^i|| 'tao^v-pjv^.^Uosui ^ ioi

.*•••

•V3(d .ppw ou s,lt| pW ' 35 Oid JTTOOid Qj.
p30-PC7? <SOl|p pUV |JJM SlLj liOqjdAO 3Lj -pVLfj "ivp

U0

I p5UOOT .rojsj
hiVSS373U V 3C| p|(TOM 30V[|Vp| !SrW3C| pp33 U 51

V3|d 31^.

Q| 5V .^uipjv'j^punsiw pur uojenpo? sv jpM %y 'WJUV^wnwp ^ -%> ^-J!|v{°-f
Ttjj. HOIp 3iOS5ild puV ’_pV op pVLj pUp^j Lp?ll|M

1WJ| 341 po
^j-U.,VL4‘SUOT
'

lins^aicf 3lfj. ' V3^ 31{p i3|LT3 QJ. 3J05S2icl ' U0I3I9C0 VO |73SK| 9S3U;U^un|OAU I '|3SUOTO?
po sUOJ-pP 3t||. uo p25WCj

^utivpunpAui ipnpui uoj-pw sjtjp

spunw& 3iy_

. •» •

*.

CIRCUIT COURT

STATE OF WISCONSIN
STATE OF WISCONSIN,
Plaintiff
-vs-

WINNEBAGO COUNTY
SUPPLEMENT TO
DEFENDANT'S MOTION
TO WITHDRAW GUILTY/
NO CONTEST PLEA
CaseNo. 10-CF-344

VINCENT E. BOYD,
Defendant

The defendant, appearing specially by his attorney and reserving his right to challenge the
court's jurisdiction, moves the court for an order authorizing the defendant to withdraw his plea of
guilty/no contest entered on March 27,2012. This motion is brought pursuant to sec. 971.08, Stats.,
and State v. Bangert, 131 Wis. 2d 246, 389 N.W.2d 12 (1986), Ernst v. State. 43 Wis. 2d 661,170
N.W.2d 713 (1969), and State v. Reppin, 35 Wis. 2d 377, 151 N.W.2d 9 (1967).
AS GROUNDS, defendant asserts the following:
For info see SBW Cr. Def. Manual Form 9.15, W.S.971.08, Wis Prac Vol 9, Sec 23.33
1.

The defendant-was unduly pressured by the sudden change in circumstances the morning
before his scheduled jury trial and made a hasty entry of his plea of no contest because the
jury was assembled in the courthouse, thus violating the requirements of section 97,1.08(1),
Wis. Stat.,

2.

The defendant asserts that the sudden confusion of acting pro se for his jury trial caused him
confusion and anxiety relating to his pending jury trial and resulted in a hasty decision on his
part to enter a no contest plea to the charges in this case without sufficient time to thoroughly
reflect on his whole situation and make a informed and well thought out decision;

3.

The defendant made a timely request to the court to withdraw his plea by contacting the court
and advising the court within a couple weeks after the plea hearing that he wished to change
his status in this case;

4.

The defendant wrote a pro se motion to the court to withdraw his plea and explained several
additional reasons to request to withdraw his plea and the document was file stamped on May
8th.

5.

Three affidavits from Linda Zdeb, the mother of the defendant, datedf May 29, 2012 and
June o4,2012, are attached to this motion and supports the motion of the defendant for a new
trial date.

6.

The defendant believes that Attorney John Wallace never prepared for the jury trial because
he believed that the defendant would plead guilty at the end in order to avoid the possible
penalty of lifetime imprisonment without parole;

7.

The defendant has attached copies of documents from the jail to support his claim that

Attorney Wallace did not prepare for a trial by showingthat Attorney Wallace only visited
him four times during his whole case and only two of these times were before the plea
hearing;
8.

The defendant.has also attached the mail transaction history showing that he has written to
Attorney Wallace thirteen times and never received a reply in writing since the log shows
both outgoing and incoming mail;

THEREFORE the defendant asks the court to find:
A.
B. •

That he has presented to the court a fair and just reason to withdraw his plea by a
preponderance of the evidence;
That he be allowed to withdraw his plea of no contest or guilty and to be allowed to have his
case placed back on the calendar for a jury trial.

Dated this &C day of June 2012.
Le Grand Kaukaulin Law Firm
Attorney for the defendant

}

By
Gary J. Schmidt
State Bar No. 1004166
Adinirjistfatiori'Building, Suite B
1033 West College Avenue
Appleton, Wisconsin 54914
920-882-9454
Enel, 6
«;

. ;*

;*

«•
.**■

-

ENTHE
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WISCONSIN

VINCENT E. BOYD,
Petitioner,
v.
WARDEN SCOTT ECKSTEIN,
Respondent.

)
)
)
)
)
)
)
)
)
)

NO. 18-CV-275-JPS
The Honorable District Judge
J.P. Stadtmueller, Presiding.

BRIEF IN SUPPORT OF PETITION FOR WRIT OF HABEAS CORPUS

Petitioner Vincent E. Boyd,pro se, respectfully submits this brief in support of his
petition for a writ of habeas corpus pursuant to 28 U.S.C. §2254.
STATEMENT OF FACTS AND PROCEDURAL HISTORY
Petitioner Vincent E. Boyd is in custody pursuant to a state court judgment of
conviction. His conviction, sentence, and confinement are unlawful and were
unconstitutionally obtained in violation of his Sixth Amendment rights. In particular, this
federal habeas petition asserts two claims. The first claim asserts that Vincent Boyd’s Sixth
Amendment right to self-representation was violated by his standby counsel’s unauthorized
pursuit of a plea agreement and solo participation in the plea negotiations. The second claim
asserts that Boyd’s Sixth Amendment rights to confrontation and compulsory process were
. violated when the circuit court prematurely restricted his cross-examination of the state’s
witnesses.
1

Statement of Facts
The charges against Vincent Boyd stemmed from allegations that he had sexual
contact with Alison B.W. sometime in 2003. Boydirad-proviously-been-eonvieted of-having
sexual contact with F.M.W. in 2001. (Doc. 12-1:2) Of the state’s two “other acts” witnesses,
F.M.W. was the only one present on the morning of trial.
On March 26, 2012, at the Final Pretrial Conference, Boyd filed a motion for the
appointment of new counsel. The motion asserted that Boyd’s attorney, John Wallace, was
not prepared for trial and had repeatedly pressured Boyd to plead guilty against his wishes.
(ExhihiLJ-2-3).1 Boyd further asserted that Wallace had “threatened to hit [Boyd]” and had
“told [Boyd] to shut up over a dozen times. ” (Doc. 12-22:8). The trial court denied Boyd’s
motion.
During the same hearing, Boyd asked, “Can I just represent myself on this case
^ rv

i

then?” (Doc! 12-22:11). When the trial court told Boyd that “Wallace is still going to be
sitting there” even if Boyd represented himself, Wallace interjected his own approval of such
an arrangement, stating, “That would be fine with me.” (Doc1. 12-22:11). The court asked
Boyd if he wanted to do his “own openings and closings”, and Boyd replied unequivocally, “I
would like to completely represent myself on this case.” (Doc. 12-22:12). The trial court
allowed Boyd to
represent himself but appointed Wallace as standby counsel, despite the objections Boyd had
V'V

just made concerning Wallace’s further involvement in this case. (Doc." 12-22:12-13). The
r ;r

\... !'-.HX

court did not explain the role or limitations of standby counsel at that or any other time.
With less than twenty-four hours to prepare for trial, Boyd initiated an inquiry with the
Motion for the Appointment of New Counsel is attached hereto as Exhibit 1.
2

trial court concerning his cross-examination of the state’s witnesses, asking, “Will I be
allowed to question the witnesses myself?” (Doc'. 12-22:13). Before the court could articulate
a response to Boyd’s question, the prosecutor, Ms. Paider, interrupted to voice her own
concerns that Boyd be reminded that he would be bound by the rules of evidence. Ms. Paider
further speculated that Boyd was questioning his prior conviction and wanted to have a trial
within a trial. (Doc. 12-22:14). Contrary to Ms. Paider’s concerns, Boyd had not filed any
motions seeking to have a trial within a trial.
Nonetheless, Boyd requested “some latitude in questioning the victim.” (Doc. 1222:15). However, the trial court immediately cut Boyd off without considering the testimony
Boyd was seeking to introduce, and ruled, “You will get no latitude.” (Doc. 12-22:15). Even
when Wallace attempted to assist the court in ascertaining the nature of the evidence Boyd
sought to introduce, the trial court immediately cut him off as well, and reaffirmed its ruling,
'•

'

• < N

'

“You will get no latitude.” (Doc. 12-22:15) The trial court did not engage in a balancing of
competing interests at that or any other time.
The next day, March 27, 2012, trial was scheduled to begin at 8:30 a.m. Almost
immediately, Wallace interrupted the proceedings to request a moment to speak to Boyd.
■ ■

o

2

(Doc. 12-23:3). After a discussion held off the record between Wallace and Boyd, Wallace
- _

requested permission to speak with the prosecutor about a possible resolution. (DoS. 12-23:3).
The court gave Wallace five minutes in which Wallace negotiated a plea agreement with the
• • ;•.

-•••'•

1 *\

prosecutor outside the courtroom where Boyd was seated. (Doc. 12-23:3-4). At no time did
?A

the trial court ask if Boyd had requested a plea agreement or if he had authorized Wallace to
engage in plea negotiations outside Boyd’s presence, and Boyd was not given an opportunity
i

'.

to speak on the matter. (Doc. 12-23:3-4).
3

Upon returning from the plea negotiations with the prosecutor, Wallace immediately
published a plea agreement to the court, which included plea terms regarding a possible
resolution to a pending Langlade county case. (Doc. 12-23:4-5). However, the prosecutor
quickly clarified that those were not the terms and that she has no authority over that case,
stating, “Whatever Langlade County wants to do with their case is their decision. It is plea to
both counts, open sentencing.” (Doc. 12-23:5).
Without addressing whether standby counsel could act on behalf of the now pro se
defendant, the trial court entered into a plea colloquy. (Doc. 12-23:5-9). During the colloquy,
Boyd informed the court that he felt “a lot of pressure” and that he felt, like he didn’t have
“any other option but to [plead no contest].” (Doc. 12-23:6). Boyd further stated, “[...] since
coming in yesterday, I feel pressured today” and that he didn’t think he could get a fair trial.”
U-

(Doc. 12-23:6).
Later in the colloquy, the court directed questions to Wallace, asking, “[...] Mr.
Wallace, are you of the opinion that Mr. Boyd is entering his plea freely, voluntarily, and
^ l4, •, . -•»

intelligently?” (Doc. 12-23.10). Wallace replied, “[...] Under the circumstances, he’s entering
a plea of no contest and it’s difficult for him.” (Doc. 12-23:10). Despite Boyd’s stated
reluctance to enter the no contest plea, the trial court accepted Boyd’s plea as being valid.
(Doc. 12-23:10).
Following the hearing, Wallace filled out the plea questionnaire, writing the plea
terms, and signing it as Boyd’s attorney, even though he was only standby counsel. (Doc. 122:73). Further, he included the plea terms regarding the Langlade County case that the
"■.I

prosecutor had just said were not part of the plea agreement, as well as ^-reference to “20
x

-Xi

1

’

,

•'

'

years” which was also never mentioned as-part-ofthe-agreement. (Doc. 12-2:73). Boyd
4

crossed out the portion concerning the Langlade County case and signed the plea
questionnaire. (Doc. 12-2:73).
On May 8, 2012 Boyd filed a pro se Motion to Withdraw Plea and Appoint New
Counsel, arguing that “Wallace approached Boyd and pressured him to enter a plea,” and that
Wallace “refused to allow Boyd to handle the proceeding himself.” (Exhibit 2:2).2 The motion
further argued that the trial court’s no latitude ruling on the eve of trial violated his
constitutional rights ^Exhibit 2:3).
■_On May 14, 2012, Wallace filed a separate Motion to Withdraw Plea, signing it as
Boyd’s counsel. (Doc.. 12-13:98). At a hearing held ondhe motion the next day, May 15,
2012, the trial court, refusing to nde-qpThe motion at that time, told Wallace, “You’re not on
the case anymore. You’re noTonger needed as standby.counsel.” (Doc. 12-24:7). A court
order for Waliaebto withdraw as counsel was issued the same day'.All of Boyd’s subsequent
plea withdrawal efforts were unsuccessful.
On March 27, 2014, an evidentiary hearing was held concerning the validity of Boyd’s
waiver of the right to counsel. (Doc. 12-27:3). At the close of the hearing, the trial court
revealed that it had researched its no latitude ruling prior to the entry of Boyd’s plea and had
discovered that it was inconsistent with the governing case law. The court stated that it was
prepared to reverse that ruling but did not tell Boyd about this because “he wanted to take a
plea.” (Exhibit 3:76).3
Procedural History
On June 21, 2010, in Winnebago County, the State of Wisconsin filed a criminal
2Motion to Withdraw Plea and Appoint New Counsel is attached hereto as Exhibit 2
3Page 76 of the Evidentiary Hearing transcript is absent from Doc. 12-27. Therefore, Pages
75-77 of this transcript are attached hereto as Exhibit 3.
5

complaint charging Vincent E. Boyd with two counts of first-degree sexual assault of a child
as a persistent repeater. On March 26, 2012, Boyd filed a Motion for the Appointment of New
Counsel. At the Final Pretrial Conference held on the same day the trial court denied the
motion. At the same hearing, Boyd requested to proceed pro se. The trial court allowed Boyd
to proceed pro se but appointed Wallace as standby counsel. Also at the same hearing, Boyd
requested some latitude in cross-examining the state’s witnesses. The trial court issued an oral
ruling denying Boyd’s request for latitude in cross-examination.
On March 27, 2012, Boyd entered a no contest plea to two counts of first-degree
sexual assault of a child. On May 8, 2012 Boyd filed a Motion to Withdraw Plea and Appoint
New Counsel, alleging that standby counsel had overstepped his bounds, and that the trial
courts’ no latitude ruling violated Boyd’s confrontation rights. On May 14, 2012, Wallace
filed a Motion to Withdraw Plea on Boyd’s behalf. On May 15, 2012, the circuit court issued
a written order for the withdrawal of Attorney Wallace as counsel.
On May 23, 2012 Attorney Gary Schmidt was appointed by the State Public
Defender’s Office to represent Boyd. On June 7, 2012, Schmidt filed a Supplement to
Defendant’s Motion to Withdraw Guilty/No Contest Plea. After a hearing, the circuit court
issued a written order denying Boyd’s motion to withdraw plea. On June 15, 2012, Schmidt
filed a Defendant’s Second Motion to Withdraw No Contest Plea on Boyd’s behalf, arguing
that the trial court did not follow legal requirements when it allowed Boyd to represent
himself. After a hearing held the same day, the trial court issued an oral ruling denying the
motion.
Boyd appealed both the standby counsel and the procedural claim to the Wisconsin
Court of Appeals, which remanded for an evidentiary hearing due to the lack of Wisconsin’s
6

mandatory Klessig colloquy in a written decision on November 6, 2013.
On March 27, 2014, the circuit court conducted an evidentiary hearing. On April 3,
2014, the circuit court issued a written order denying post-conviction relief. The Wisconsin
Court of Appeals affirmed both claims on the merits in a per curiam decision on February 26,
\

2015. The Wisconsin Supreme Court denied Boyd’s timely Petition for Review on June 12,
2015.

'
On March 16, 2016, Boyd filed a post-conviction motion in the circuit court, arguing

that his no contest plea was not valid because it was influenced by the circuit court’s no
latitude ruling, which violated his Sixth Amendment rights. The circuit court denied the
motion without an evidentiary hearing in a written order on May 31, 2016.
Boyd appealed and the Wisconsin Court of Appeals affirmed the circuit court’s ruling
in a per curiam opinion on August 23, 2017. The Wisconsin Supreme Court denied Boyd’s
timely Petition for Review on December 12, 2017.
STANDARD OF REVIEW
Under §2254(d) of the Anti-Terrorism and Effective Death Penalty Act, a writ of
habeas corpus may be granted when the state court’s adjudication of the petitioner’s claim on
the merits:
(1) Resulted in a decision that was contrary to, or involved and unreasonable
application of clearly established federal law, as determined by the Supreme Court
of the United States, or
(2) Resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the state court proceeding.
28 U.S.C.§2254(d)(l)-(2). Under §2254(d)(l), a state court decision is contrary to clearly
established federal law “if the state court applies a rule different from the governing law set
forth in [U.S. Supreme Court] cases” - in other words, if it applied the wrong legal standard.
7

Premo v Moore, 131 S.Ct. 733, 743 (2011); Conner v. Mcbride, 375 F.3d 643, 649 (7th Cir.
2004) (a state-court decision is contrary to clearly established Federal law “if the state court
incorrectly laid out governing Supreme Court precedent”). A state court decision involves an
unreasonable application of clearly established federal law “if the state court identifies the
correct governing legal rule from [Supreme Court] cases but unreasonably applies it to the
facts of the particular state prisoner’s case.” Williams v. Taylor, 120 S.Ct. 1495, 1520 (2000).
Under §2254(d)(2), a state court’s decision “involves an unreasonable determination of the
facts if it rests upon fact-finding that ignores the clear and convincing weight of the
evidence.” Ward v. Stevens, 334 F.3d 696, 704 (7th Cir. 2003).
While it is true that AEDPA mandates a degree of deference to the state courts, such
deference does not by definition preclude relief.” Miller-El v. Cockrell, 537 U.S. 322, 340
(2003). Instead, federal courts have an “independent obligation to say what the law is.”
Williams, 120 S. Ct. at 1517 (O’Conner, I, concurring). AEDPA “directs federal courts to
attend to every state-court judgement with utmost care, but it does not require them to defer to
the opinion of every reasonable state-court judge on the content of federal law. If, after
carefully weighing the reasons for accepting the state court’s judgement, a federal court is
convinced that a prisoner’s custody... violates the Constitution, that independent judgement
should prevail.” Id. At 1511(Maj. Op.).
Following the U.S. Supreme Court’s decision in Cullen v. Pinholster, 131 S. Ct. 1388
(2011), a federal district court considering a habeas petition under § 2254 must engage in a
two-step analysis. Mosley v. Atchison, 689 F.3d 838, 849-51 (7th Cir. 2012) (describing this
analysis); Pidgeon v. Smith, 2013 U.S. Dist. LEXIS 174629 (W.D. Wis. Dec. 13, 2013)

8

(following the analysis set out in Mosley)4. First, it must examine whether the state court acted
unreasonably under §2254(d)(l) or (d)(2) on the basis of the record as developed in state
court. If that standard is met, the federal court must then conduct an independent, de novo
review of the constitutional issues to determine whether relief is warranted under §2254(A).
To aid its §2254(A) analysis, the federal court may conduct an evidentiary hearing.
S2254(tn ARGUMENT: UNSOLICITED PARTICIPATION BY STANDBY COUNSEL
I.

The Wisconsin Court of Appeals’ decision was an unreasonable application of
clearly established Federal law - the actual control test outlined in McKaskle v
Wiggins - when it concluded that Wallace’s involvement did not prevent Boyd
from having actual control over his defense.
In the Wisconsin state courts, Boyd raised Attorney Wallace’s unsolicited

participation as a violation of his Sixth Amendment right to self-representation under Faretta
v. California, 422 U.S. 806 (1975); and McKaskle v. Wiggins, 465 U.S. 168 (1984). In
Faretta, the U.S. Supreme Court established a defendant’s right to represent himself under the
Sixth Amendment. 422 U.S. at 807. The right to self-representation means that a defendant
may not, consistent with the Sixth Amendment, have counsel forced upon him against his
wishes. “To thrust counsel upon the accused, against his considered wish, thus violates the
logic of the amendment.” Id. at 820.
In McKaskle, the U.S. Supreme Court recognized that the actions of standby counsel
can violate the right to self-representation. 465 U.S. at 177. Accordingly, the Court stated that
the right to self-representation “must impose some limits on the extent of standby counsel’s
unsolicited participation.” Id. In general, “In determining whether a defendant’s Faretta rights
have been respected, the primary focus must be on whether the defendant had a fair chance to

4Pidgeon v. Smith, 2013 U.S. Dist. LEXIS 7469 (W.D. Wis. Dec 13, 2013) is attached hereto
as Exhibit 4
9

present his case in his own way.” Id.
Boyd argued in the Wisconsin state courts that Wallace’s actions violated the standard
set forth in McKaskle v. Wiggins. He argued there, as he does here, that the role of standby
counsel does not permit the overly intrusive course of conduct that Wallace engaged in, which
included repeatedly pressuring Boyd to plead guilty - despite his protestations of innocence
and desire to go to trial - and then engaging in, and excluding Boyd from, plea negotiations
that Boyd did not request or authorize, and signing the plea agreement as Boyd’s counsel.
Rather, standby counsel may assist in two ways: (1) “in overcoming routine procedure or
evidentiary obstacles to the completion of some specific task, such as introducing evidence or
objecting to testimony, that the defendant has clearly shown he wishes to complete,” and (2)
by “helping] to ensure the defendant’s compliance with basic rules of courtroom protocol and
procedure.” McKaskle, 465 U.S. at 183. Boyd further argued that Wallace’s intrusions
resulted in Boyd pleading no contest, insofar as each of Wallace’s actions highlighted the fact
that although the trial court had determined that Boyd could represent himself, Boyd was
nonetheless being denied the right to do so.
The Wisconsin Court of Appeals rejected Boyd’s arguments concerning Wallace’s
conduct. In doing so, however, it unreasonably applied McKaskle under §2254(d)(l).
McKaskle makes clear that the right to self-representation may be violated by overly intrusive
“unsolicited participation” by standby counsel. 465 U.S. at 183. Without discussing whether
Wallace’s actions were “unsolicited” - and without attempting to defend them - the
Wisconsin Court of Appeals simply concluded that “Boyd has not demonstrated that
Wallace’s involvement as standby counsel prevented Boyd from having ‘actual control’ over
his own defense.” (Doc. 12-9:8-9). Additionally, in assessing the circumstances giving rise to
10

Boyd’s no contest plea, the Wisconsin Court of Appeals acknowledged that Boyd did not
request Wallace’s participation. Rather, “[... ] at the beginning of the hearing, Wallace
requested a moment to confer with Boyd [...]” (Doc. 12-9:7). The Wisconsin state court also
acknowledged that “the record is silent as to whether Boyd was, in fact, present during
negotiations between Wallace and the district attorney”, but then went on to find that “Given
the facts in the record and the reasonable inferences to be drawn from them, we conclude that
the circuit court did not erroneously exercise its discretion in finding that Boyd’s plea was
knowingly, voluntarily, and intelligently entered.” (Doc. 12-9:7-8). These applications of
McKaskle are unreasonable.
First, there can be no doubt that Wallace’s actions were overly intrusive, unsolicited,
and violated Boyd’s Faretta rights. The law is clearly established that standby counsel may
not substantially “interfere with any significant tactical decisions ... or speak instead of the
defendant on [critical issues].” McKaskle, 465 U.S. at 178 (emphasis added). Wallace’s
interference with Boyd’s decision to go to trial was made known to the trial court on March
26, 2012, when Boyd requested the appointment of new counsel. Boyd’s motion clearly
asserted that Wallace “was so intent on convincing him to take a plea bargain” that he failed
to contact any of Boyd’s witnesses, and that “Boyd has maintained his innocence and wants to
go to trial, but Wallace is pressing him to plead guilty.” (Exhibit 1:2-3). Other courts have held
that the decision to accept a plea offer is generally “the most important decision to be made in
a criminal case.” United States v Gordon, 156 F.3d 376, 380 (2nd Cir. 1998) (quoting Boria v
Keane, 99 F.3d 492, 496-7 (2nd Cir. 1996); see also Patterson v. LeMaster, 21 P.3d 1032, 1036
(N.M.2001) (citing Gordon). Yet, on the morning of trial, Wallace continued to take real,
actual, concrete steps to interfere with Boyd’s decision to go to trial, including interrupting
11

the start of the proceedings in order to continue his selfish pursuit of a plea agreement. Under
no possible line of reasoning does McKaskle permit such repeated and extreme steps by
standby counsel toward the conviction of a pro se defendant. The decision to request and then
solely negotiate a plea agreement does not involve the “routine procedure or evidentiary
obstacles” or “basic rules” recognized by McKaskle as appropriate for intercession by standby
counsel. A lawyer may advise a client that it is in his best interest to seek a plea agreement,
but standby counsel may not force, pressure, or coerce a pro se defendant who is asserting his
innocence to plead guilty. See e.g. Jones v. Barnes, 463 U.S. 745, 751 (1993) (the decision to
plead guilty belongs only to the accused). Such actions intrude upon the defendant’s ability to
control his defense and present his case in his own way. They are not and cannot be consistent
with the Sixth Amendment right to self-representation.
Second, it is also clear that Boyd’s unauthorized exclusion from the plea negotiations
violated his Faretta rights. The U.S. Supreme Court has emphasized the central importance of
plea negotiations in a criminal case. Lafler v. Cooper, 123 S. Ct. 1376, 1388 (2012) (“the right
to adequate assistance of counsel cannot be defined or enforced without taking account of the
central role plea bargaining plays in securing convictions and determining sentences.”) Lafler
makes clear that when a plea bargain is offered, the defendant is entitled to the effective
assistance of counsel in responding to it. Id At 1384 (“During plea negotiations defendants
are entitled to the effective assistance of competent counsel”)(intemal quotations and citations
omitted). Accordingly, a pro se defendant has the right to participate in plea discussions. Not
only was Boyd unrepresented at a critical stage of the case by being excluded from the plea
discussions, but he was also denied the opportunity to object to the terms being offered and to
suggest an alternative agreement. Thus, Boyd’s exclusion from the plea negotiations is wholly
12

inconsistent with McKaskle ’s mandate that standby counsel may not “speak instead of the
defendant on any matter of importance.” McKaskle, 465 U.S. at 178.
Other courts have repeatedly held, in an analogous situation, that excluding a pro se
defendant from a critical stage of the case can violate the Faretta right by infringing upon the
defendant’s ability to control his own defense. See e.g. Hearn v. Schriro, 2011 U.S. Dist.
LEXIS 36587*37 (D. Ariz. March 31, 2011) (“Petitioner’s non-participation injury-note
conferences violated his Faretta rights.. ,”)5; Frantz v. Hazey, 533 F.3d 724, 742(9* Cir.
2008)(participation in chambers conference involving the admission of a 911 tape was
central to Frantz’s Faretta right to control his defense); United. States v. McDermott, 64 F.3d
148, 1454 (10th Cir. 1995) (holding that a defendant’s Faretta rights were violated by his
exclusion from bench conferences addressing issues including admissibility of testimony and
other evidence); Oses v. Massachusetts, 961 F.2d 985, 986 (1st Cir.l992)(per curiam)(Faretta
rights violated by exclusion from bench conferences covering “important issues”). In each
case, the rationale was that a pro se defendant must not go unrepresented at any critical stage
of the case, regardless of when that stage occurs or who else is present for it.
It is pure fiction to suggest that Boyd ever had a fair chance to present his case in his
own way when Wallace never stepped aside in the first place. At the end of the hearing when
the trial court needed to know if there was anything “the defense” wanted to put on the record,
it asked Wallace, not Boyd. (Doc. 12-23:13). It is hard to imagine a more troubling way in
which standby counsel’s involvement could have prevented a defendant from having “actual
control” over his own defense. In concluding otherwise, the Wisconsin Court of Appeals
unreasonably applied McKaskle under §2254(d)(l).
5Hearn v. Schriro, 2011 U.S.Dist. LEXIS 36587(D. Ariz. March 31, 2011) is attached hereto
as Exhibit 5
13

n.

The Wisconsin Court of Appeals made an unreasonable determination of fact
under §2254(d)(2) when it concluded that “Boyd authorized Wallace to engage
in plea negotiations on his behalf,” when the record contains no evidence to
support it.
Before the Wisconsin state courts, Boyd argued that his exclusion from the plea

discussions violated his Sixth Amendment right to self-representation. In rejecting this claim,
the Wisconsin Court of Appeals made a factual determination that Boyd approved Wallace’s
solo participation in the plea negotiations: “Implicit in the court’s finding that the plea was
valid is the reasonable inference that Boyd authorized Wallace to engage in plea negotiations
on his behalf.” (Doc. 12-9:8). Any review of the record, however, reveals that this factual
finding is unreasonable under §2254(d)(2).
No one in this case - not the trial court, the prosecutor, Wallace, or Boyd - ever stated
or even alluded to the notion that Boyd authorized Wallace’s solo participation in the plea
negotiations. The Wisconsin Court of Appeals drew that inference from the trial court’s
comments in denying Boyd’s plea withdrawal motion: “The court stated that Boyd ‘would not
allow any attorney to push him around or make a decision for him. He’s clearly exhibited
throughout these proceedings that he is the one in charge.’” (Doc. 12-9:8). These statements,
however, are far too general to make a reasonable inference regarding whether Wallace was
authorized to exclude Boyd from the plea negotiations. If anything, these statements imply
that Boyd would not and did not authorize Wallace to negotiate a plea on his behalf.
Boyd made it perfectly clear that he was not interested in plea negotiations and that he
did not want Wallace pressuring him to plead guilty. (Doc. 12-22:7-8, Exhibit 1:2-3, Doc. 1225:10-11). It was Wallace, not Boyd, who interrupted the proceedings on the morning of trial
to seek plea discussions. (Doc. 12-23:3). Further, Wallace was so intent on getting Boyd to
plead no contest that he published a plea agreement to the trial court that included a possible
14

resolution to a pending Langlade County case, which neither Boyd nor the prosecutor had
agreed to. (Doc. 12-23:4-5). The prosecutor clarified that those were not the terms, stating,
“... in terms of Langlade County, yes, I don’t have any authority to do... whatever Langlade
County wants to do with their case is their decision.” (Doc. 12-23:5). Nonetheless, Wallace
filled out the plea questionnaire and included the terms regarding the Langlade County case
that the prosecutor had just said was not part of the agreement. Further, Wallace included a
reference to “20 years”, which was also never part of the agreement, and signed it as Boyd’s
attorney. (Doc. 12-2:2). According to the prosecutor, the plea terms were “plea to both, open
sentencing, that’s an accurate recitation of the agreement.” (Doc. 12-23:5). From the mass
confusion concerning the plea terms, there can be no doubt that Boyd had not authorized or
agreed to Wallace’s solo participation in the plea negotiations.
The record plainly shows that Boyd was an active participant in all aspects of this
case, except the plea discussions. Boyd submitted a number ofpro se pretrial motions. (Doc.
12-27:70-71). The trial court stated that Boyd “walked like an attorney, talked like an
attorney, wrote briefs like an attorney, and wanted to be his own attorney, plain and simple.”
(Doc. 12-27:74-75). Boyd wanted to “question the witnesses [himself].” (Doc. 12-22:13). And
when the trial court asked Boyd if he wanted to do his “own openings and closings and all
that,” Boyd answered unequivocally, “I would like to completely represent myself on this
case. ” (Doc. 12-22:12). Boyd’s active participation prior to the plea discussions strongly
suggests that Boyd did not impliedly wave his Faretta rights at such an important stage of the
case. See e.g. Hearn, 2011 U.S. Dist. LEXIS 36587*47 (finding nothing to suggest that
Petitioner “impliedly waived his Faretta rights” when he “was an active participant in all
aspects of his trial”); Frantz, 533 F.3d at 745 (finding implied consent unlikely where
15

defendant was an active participant in the proceedings). If the Wisconsin Court of Appeals
had considered these facts, then it would have determined that there is nothing in the record to
suggest that Boyd authorized Wallace’s solo participation in the plea negotiations.
The Wisconsin Court of Appeals acknowledged that the record is silent concerning
what Boyd and Wallace discussed at the beginning of the hearing and whether or not Boyd
was present for the plea discussions. (Doc. 12-9:7). Relief has been granted when the record
was as silent as it is in this case. In Frantz v Hazey, for example, the pro se defendant, having
fully participated throughout the case, was excluded from an in-chambers conference
concerning a jury question. 533 F.3d at 729. The Ninth Circuit Court of Appeals held that this
“unconsented-to exclusion” so “substantially reduce [d the defendant’s] ability to shape and
communicate his own defense as to violate his jFaretta rights. Id at 740. However, the Court
held that the record was “far from complete” and remanded to the district court for an
evidentiary hearing concerning “whether Frantz was accurately informed of the purpose for
the conference and given the opportunity to appear but declined to do so [...].” Id. at 745.
It is plain that the Wisconsin Court of Appeals, as in Frantz, was without “specific
evidence concerning the circumstances giving rise to [standby counsel’s] solo participation”
in the plea negotiations. Id. at 746. Thus, as far as the existing record goes, Boyd did not
authorize Wallace to negotiate a plea on his behalf and, therefore, Boyd was, in fact,
unrepresented at a critical stage of the case. In sum the Wisconsin Court of Appeals was
unreasonable under §2254(d)(2) - and, indeed, had absolutely no basis in the record - to find
that Boyd authorized Wallace to engage in plea negotiations on his behalf.
m.

The Wisconsin Court of Appeals made an unreasonable determination of fact
when it found that “Boyd did not object to the appointment of Wallace as
standby counsel” and that he said, “That would be fine with me,” when the
record plainly shows that Boyd objected to Wallace’s further involvement in
16

this case, and that it was Wallace - not Boyd - who said, “That would be fine
with me.”
The Wisconsin Court of Appeals found, as a factual matter, that Boyd did not object to
having Wallace appointed as standby counsel but had actually given his express approval:
“Here, it is significant to note that Boyd did not object to the appointment of Wallace as
standby counsel. When the court told Boyd that Wallace was “still going to be sitting there”
even if Boyd represented himself, Boyd replied, “That would be fine with me.” (Doc. 12-9:6).
This finding of fact - which was “significant” to the Wisconsin state court’s decision - was
unreasonable under §2254(d)(2). Indeed, this factual determination can be refuted by a
straight forward review of the final pretrial conference transcript. The record plainly shows
that it was Wallace - not Boyd - who stated, “That would be fine with me” when the trial
court indicated that Wallace “would still be sitting there” even if Boyd represented himself.
(Doc. 12-22:11).
As argued above, Boyd made it abundantly clear that he objected to any and all
participation on Wallace’s part when he asked the trial court to remove Wallace from the
case. (Doc. 12-22:7). Boyd’s Motion for the Appointment of New Counsel stated that Wallace
had “threatened to hit [Boyd]”, had “told [Boyd] to shut up over a dozen times”, and that
Wallace was “pressing him to plead guilty” against his wishes. (Exhibit 1:1-3). Boyd
specifically told the trial court, “I would like to completely represent myself on this case.”
(Doc. 12-22:12) (emphasis added). No reasonable person would conclude that Boyd did not
object to the appointment of Wallace as standby counsel. Regardless, when standby counsel is
appointed only to advise, the initial invocation of the right to self-representation is generally
sufficient to establish that any participation by standby counsel other than for the routine
matters mentioned inMcKaskle is “over the defendant’s objection.” Id. at 178, see generally
17

United States v. Lorick, 753 F.2d 1295, 1299 (4th Cir. 1985) (a defendant’s assertion of “the
right [to self-representation] at the outset of trial proceedings constituted an express and
unambiguous request that standby counsel be silenced”).
The Wisconsin Court of appeals stated that it was “significant” that Boyd did not
object to the appointment of Wallace as standby counsel. (Doc. 12-9:6). Its error is equally
significant. Without an accurate factual appreciation of the ways in which Boyd clearly
objected to Wallace’s involvement in this case, the Wisconsin Court of Appeals was unable to
reasonably apply A/cATaskle’s “actual control” test, which required it to determine whether
Boyd had a fair chance to present his case in his own way - not whether Boyd objected to the
initial appointment of standby counsel. 465 U.S. at 177; see also Faretta, 422 U.S. at 834 n.
46 (“[0]f course, a state may - even over objection by the accused - appoint a ‘standby
counsel’ to aid the accused if and when the accused requests help [...]”). If the state court had
fully understood the degree to which Boyd had vehemently objected to any involvement by
Wallace, it would have been compelled to conclude that Wallace’s conduct was, in fact,
beyond the role of standby counsel, and grant relief under McKaskle.
S2254(df ARGUMENT: RIGHT TO CONFRONTATION AND COMPULSORY
PROCESS
IV.

The Wisconsin Court of Appeals acted contrary to Federal law or,
alternatively, it unreasonably applied clearly established Federal law when it
failed to engage in a balancing of interests in considering Boyd’s Sixth
Amendment rights.
Whether rooted in the Fourteenth Amendment’s Due Process Clause or in the

Compulsory Process and Confrontation Clauses of the Sixth Amendment, there can be no
doubt that the federal constitution provides the accused a meaningful opportunity to confront
his accusers and present a complete defense. Washington v. Texas, 388 U.S. 14 (1967); Davis
18

v Alaska, 415 U.S. 308 (1974); Crane v Kentucky, 476 U.S. 683 (1986). Because the accused
is entitled to defend himself against the state’s accusations, “[f]ew rights are more
fundamental than that of the accused to present [evidence] in his own defense.” Chambers v
Mississippi, 410 U.S. 284, 294 (1973). Denial of the accused’s right to present a defense
“calls into question the ultimate integrity of the fact-finding process.” Id. at 295.
The essence of the right to present a defense is the entitlement to present the
“defendant’s version of the facts as well as the prosecutions to the jury so it may decide where
the truth lies.” Washington, 388 U.S. at 19. “[W]here constitutional rights directly affecting
the ascertainment of truth are implicated [evidence rules] may not be applied mechanistically
to defeat the ends of justice.” Chambers, 410 U.S. at 313. Exclusion of evidence is
unconstitutionally arbitrary where it infringes on a weighty interest of the defense - where it
“significantly undermined fundamental elements of the defendant’s defense.” United States v.
Scheffer, 523 U.S 303, 308 (1998).
The prosecution in this case was allowed tremendous latitude in presenting evidence,
while Boyd was effectively barred from repudiating a vast majority of that evidence. Boyd
was prevented from mounting a reasonable defense by the trial court’s pretrial ruling that
Boyd would “get no latitude” in his cross-examination of the state’s witnesses. (Doc. 1222:15). This prohibited latitude was essential for Boyd to present a defense, and his inability
to do so substantially interfered with his constitutional rights. Boyd’s Confrontation and
Compulsory Process rights were primarily infringed by mechanistic application of state
evidentiary rules in the face of a substantial and demonstrated need for the introduction of
critical and impeaching evidence.
Like the state, Boyd’s case relied on oral testimony; he had no physical or
19

documentary evidence with which to exonerate himself. Thus, his defense strategy hinged
entirely on destroying the credibility of the state’s witnesses. The case, and Boyd’s freedom,
rested entirely on the word of the witnesses against him. It was thus imperative that Boyd be
allowed to test the reliability of the state’s witnesses in any reasonable manner. “The
importance of the right of cross-examination is heightened when the testimony of the witness
in question is the only evidence directly linking the defendant to the crime.” Searcy v Jaimet,
332 F.3d 1081, 1093 (7th Cir. 2003) (Cudahy, C.J., dissenting) (citing Olden v Kentucky, 488
U.S. 227, 233 (1998), Davis, 415 U.S. at 317-20). In particular, Boyd needed to discredit the
state’s “other acts” witness, F.M.W., whose testimony had been permitted to prove motive
pursuant to the state’s Offer of Proof For Other Crimes Evidence. F.M.W. was the only
“other acts” witness present on the morning of trial. The outright cancellation of Boyd’s
defense is detailed herein, but the crucial facts that were never considered by the Wisconsin
state courts will be simply outlined here:
■

F.M. W. had previously accused Boyd of four counts of 2nd Degree Sexual Assault.
Count 1 alleged that Boyd had contact with F.M.W.’s breast, while counts 2-4 each
alleged intercourse (Cr. Cmplt. 00-CF-113, attached as Exhibit 6). Boyd was
convicted on Count 1 and sentenced to 9 months in county jail plus 38 months
probation. However, the three charges alleging intercourse were dismissed (Circuit
Court Access Program, Case No. 00-CF-l 13, attached as Exhibit 7). F.M.W.’s anger
at both the dismissal of these charges and what she perceived to be a lenient sentence
provides a motive for her testimony in the present case. Accordingly, Boyd had a
constitutional right to fully explore each potential motive or source of bias in attacking
FM.W.’s credibility. United States v Martin, 618 F.3d 705, 728 (7th Cir. 2010). The
20

Seventh Circuit Court of Appeals has consistently held that exposing a witness’s
motivation in testifying is always relevant, and “parties should be granted reasonable
latitude in cross-examining target witnesses.” United States v. Manske, 186 F.3d 770,
777 (7th Cir. 1999); United States v. Thompson, 359 F.3d 470, 479 (7th Cir. 2004).
■

F.M.W. lied to both law enforcement and while under oath regarding her allegations
against Boyd. Initially, she alleged that an incident occurred in one location, but the
very next day, she gave a second statement to law enforcement alleging multiple
incidents in two locations (Preliminary Hearing, 1/5/00, at 13, attached as Exhibit 8).
F.M.W. told Cpl. Kevin Ison that she “thought that Vincent had an orgasm.” (Inv. Rpt.
Of Cpl. Ison, at n 4; attached as Exhibit 9). However, just two months later, she
testified under oath that she did not know the meaning of the word “orgasm” and
would not have said that as describing things to law enforcement (Ex. 7:25).

■

The only DNA evidence in the case, which was a mixture from two people found on
Boyd’s boxer shorts, eliminated F.M.W. as a possible contributor (Rpt. Of Lab. at 2,
attached as Exhibit 10).
This evidence presents serious credibility issues. Here, the repeated evidence that

F.M.W. lied about allegations of intercourse with Boyd and had a motive to do so again,
directly impeaches her credibility concerning Boyd’s motive in the present case. Indeed, not
only did F.M.W. lie to law enforcement, but she admitted to doing so immediately prior to
lying under oath as well. “[Wjhile ‘generally applicable evidentiary rules limit inquiry into
specific instances of conduct through the use of extrinsic evidence and through crossexamination with respect to general credibility attacks, ... no such limit applies to credibility
attacks based upon motive or bias... ’” Redmond v. Kingston, 240 F.3d 590, 593 (7111 Cir.
21

2001)(quoting Quinn v. Haynes, 234 F. 3d 837, 845 (4th Cir. 2000); White v. Coplan,399 F. 3d
18, 26 (1st Cir. 2005) (“Evidence suggesting a motive to lie has long been regarded as
powerful evidence undermining credibility, and its importance has been stressed in Supreme
Court confrontation cases.”) The Seventh Circuit Court of Appeals has noted that “a
propensity to lie to police officers, prosecutors, and even judges “is especially damaging to a
witness’s credibility.” Crivens v. Roth, 175 F. 3d 991, 998 (7th Cir. 1999).
In light of its importance to Boyd’s constitutional right to present a defense, this
evidence must come in under a constitutional theory even if it could be argued that no state
evidentiary provisions would escort it. Chambers, 410 U.S. at 313. This type of testimony
was critical to Boyd’s defense as it would have shown that F.M.W. was biased, had a motive
to testify falsely, and had a propensity to lie to police officers, attorneys, and even judges.
This testimony would have effectively destroyed the state’s only avenue of proving that Boyd
had a motive to engage in similar conduct with Alison B.W. in the present case.
The evidence of bias, motive to testify falsely, and other instances of untruthfulness on
F.M.W.’s part are relevant and useful to impeach her credibility. Boyd was entitled to a higher
level of constitutional protection because the evidence of the dismissed charges and the
sentence imposed was essential to show F.M.W.’s potential motive and animus toward Boyd.
See Redmond, 240 F.3d at 593 (noting that credibility attacks based upon motive or bias are
not subject to the limitations of generally applicable evidentiary rules). Given that the
Wisconsin state court failed to consider the argument that the evidence Boyd sought to
introduce through latitude in cross-examination was relevant to F.M.W.’s bias or motive, it
acted contrary to or, in the alternative, unreasonably applied federal law under §2254(d)(l).
Before the Wisconsin Court of Appeals, Boyd argued that the trial court’s “no
22

latitude” ruling was both premature and so overbroad that it violated the Sixth Amendment to
the United States Constitution. He argued that under clearly established U.S. Supreme Court
precedent, a court imposing restrictions on cross-examination or the introduction of evidence
must engage in a balancing of competing interests, taking into consideration the principles
animating the Sixth Amendment. Davis, 415 U.S. at 319, Delaware v. Van Arsdall, 475 U.S.
673, 679 (1986), Olden v. Kentucky, 488 U.S. at 227, 232 (1988); Michigan v. Lucas, 500
U.S. 145 (1991); See Chambers, 410 U.S. at 295. In so arguing, Boyd emphasized that under
clearly established federal law, defendants are entitled to reasonable latitude in their crossexamination of the state’s witnesses, especially on issues of motive and bias. See Alford v.
United States, 282 U.S. 687. 692 (1931) (“It is the essence of a fair trial that reasonable
latitude be given the cross-examiner, even though he is unable to state to the court what facts
a reasonable cross-examination might develop.”) The importance of permitting a defendant
broad scope in cross-examining the witnesses against him was reaffirmed by the Supreme
Court in Van Arsdall, 475 U.S. at 67-79, and Olden, 488 U.S. at 231.
A trial court may place restrictions on a defendant’s introduction of evidence so long
as those restrictions are neither arbitrary, see Washington, 388 U.S. at 23; see also Chambers,
410 U.S. at 297, nor “disproportionate to the purposes they are designed to serve.” Rock v
Arkansas, 483 U.S. 44, 55-56 (1987). To justify limiting a defendant’s right to confront his
accusers on issues of motive and bias, the competing interest must be concrete and articulable,
not based on surmise or speculation. Olden, 488 U.S. at 232. Accordingly, when a trial court
makes a ruling limiting the introduction of evidence, the test applied to that ruling is whether
the legitimate interests advanced by the state outweigh the defendant’s right to introduce
exculpatory evidence. Balancing must be performed. See White, 399 F.3d at 24 (finding that
23

prohibiting defendant from cross-examining accusers about prior allegations of sexual assault
was an “unreasonable application” of “clearly established federal law” and noting that
Supreme Court precedent requires a balancing of interests).
Factors that the Supreme Court has deemed relevant in such an analysis are [1] the
importance of the evidence to an effective defense, [2] the scope of the ban involved and [3]
the strength vel non of the state’s interests weighing against admission of the evidence. White,
399 F.3d at 24 (numbered brackets supplied).
Here, the Wisconsin Court of Appeals concluded that the trial court’s “no latitude”
ruling did “not infringe [ ] upon [Boyd’s] constitutional right to cross-examine witnesses at
trial” - but it did so without any mention of the balancing required by Davis and Van Arsdall,
the Supreme Court cases from which White draws the factors of its three-part test (Doc. 1216:3). In fact, nowhere in its entire decision did the state court even mention a single factor
that the Supreme Court has deemed relevant in such an analysis. Such a glaring failure cannot
withstand review under §2254(d)(l), regardless of whether the Wisconsin state court’s failure
to balance the interests that White and clearly established federal law call for is treated as a
decision contrary to existing federal law or, alternatively, whether its failure to balance the
competing interests without so much as a mere reference to the constitutional law principles
involved is treated as an unreasonable application of federal law. See e.g. Sussman v. Jenkins,
636 F.3d 329, 358 (7th Cir. 2011) (“by construing the task of evaluating the admissibility of
[the witness’s testimony] ... without any reference, much less a plenary reference to the
principles of the Confrontation Clause, the state courts applied unreasonably the applicable
federal constitutional guarantees as construed by the Supreme Court of the United States”)

24

By refusing to consider the evidence Boyd sought to introduce when he requested
“some latitude in questioning the victim” and focusing solely on the state’s interest in
avoiding a trial within a trial, neither the circuit court nor the Wisconsin Court of Appeals
could have properly examined the way in which the trial court’s blanket no-latitude ruling
impacted Boyd’s Sixth Amendment rights. In particular, the Wisconsin state court’s decision
does not explain how Boyd’s request for the latitude in cross-examination that he was already
entitled to under clearly established federal law, as opposed to the state’s use of F.M.W,’s
testimony, was unique, setting it apart from typical impeachment on cross-examination and
requiring such a far-reaching “no latitude” ruling. F.M.W.’s motive in testifying against Boyd
is especially relevant and Boyd should have been allowed reasonable latitude in his crossexamination in this area. Instead, the trial court went to the extreme, and ruled that Boyd
would get “no latitude” in any cross-examination, period. (Doc. 12-22:15).
The Wisconsin state court’s decision also fails to explain why it concluded that the
trial court was within its discretion to issue such an overbroad ruling at such an early stage in
the case. (Doc. 12-16:3). It is only after the motive has been established that the court has
discretionary authority to impose “reasonable” restrictions on cross-examination. Van Arsdall,
475 U.S. at 679; see also United States v. Davis, 393 F.3d 540, 548 (5th Cir. 2004) (trial
judge’s discretionary authority to limit cross-examination “comes into play only after there
has been permitted as a matter of right sufficient cross-examination to satisfy the Sixth
Amendment.”) Yet any consideration of whether the testimony Boyd sought to introduce
would have been admissible, or whether the trial court even had discretion to bar all latitude
in Boyd’s cross-examination before any testimony had even been given is completely absent
from the Wisconsin state court’s decision.
25

The Wisconsin Court of Appeals interpreted the trial court’s ruling to mean that Boyd
would “get no latitude in asking questions that were irrelevant, prejudicial, or otherwise in
violation of the rules.” (Doc. 12-16:3). This implies that state rules of evidence automatically
trump Boyd’s Sixth Amendment rights, regardless of what evidence Boyd sought to introduce
or for what purpose, thus, no balancing was required. However, the Wisconsin Court of
Appeals’ interpretation of the trial court’s no latitude ruling simply cannot be reconciled with
the abundant precedent establishing that defendants are entitled to reasonable latitude in
cross-examination in certain areas and requiring a balancing of competing interests. Indeed,
the entire rationale of Chambers, Davis, Van Arsdall, Olden, and Lucas is crystal clear - state
rules of evidence can be circumscribed by a defendant’s Sixth Amendment rights. Thus,
balancing must be performed on a case by case basis. See White, 399 F.3d at 24 (“Such
language, clear although general, calls for a balancing of interests depending on the
circumstances of the case.”)
There was evidence in this case that the state’s “other acts” witness, F.M.W., lied,
perjured, brought false allegations against Boyd in the past, and had a clear motive to repeat
those allegations in the present case. These facts clearly demonstrate substantial credibility
issues. Whether the state rules of evidence precluded examination into these areas or not, the
result is the same: Boyd’s Sixth Amendment rights to confront the witnesses against him and
present a complete defense were violated when the trial court ruled that Boyd would get no
latitude in questioning the state’s witnesses and did so without balancing the competing
interests.
In Davis, the U.S. Supreme Court made clear that when the right of the accused to
examine a witness is compared to the state’s policy interest, “the right of confrontation is
26

paramount to the state’s policy” which “must fall before the right of petitioner to seek out the
truth in the process of defending himself.” 415 U.S. at 320-21. In failing to consider this wellestablished principle of law, and in failing to engage in a balancing of interests, the Wisconsin
Court of Appeals’ decision was contrary to or, alternatively, an unreasonable application of
Davis and its progeny under §2254(d)(l).
V.

The Wisconsin Court of Appeals’ decision was based on an unreasonable
determination of facts because it failed to consider key aspects of the Plea
Hearing and Evidentiary Hearing transcripts in concluding that the trial
court’s no latitude ruling simply meant that Boyd must “follow the rules of
evidence” and, therefore, did not provide a basis for plea withdrawal.
Before the Wisconsin state courts, Boyd argued that the trial court’s no latitude ruling

was so overbroad that it violated the Sixth Amendment to the United States Constitution. In
rejecting this claim, the Wisconsin Court of Appeals minimized the plain meaning of the trial
court’s ruling by interpreting it to mean that “the court was simply impressing upon Boyd the
need to follow the rules of evidence while representing himself. This meant that Boyd would
get “no latitude’ in asking questions that were irrelevant, prejudicial, or otherwise in violation
of the rules.” (Doc. 12-16:3). A simple review of the plea hearing and evidentiary hearing
transcripts, however, reveals that the state court’s interpretation of the trial court’s no latitude
ruling was both incorrect and unreasonable.
At the evidentiary hearing held on March 27, 2014, two years after Boyd was
sentenced, the trial court plainly revealed that it had researched its no latitude ruling prior to
the entry of Boyd’s no contest plea and had discovered that it was not consistent with the
governing case law. The trial court explained that it was prepared to reverse the no latitude
ruling had Boyd proceeded to trial, but that it intentionally withheld this information from
Boyd in order to secure his no contest plea:
27

THE COURT: I just remember that the day before, when he wanted to represent
himself and he wanted the court to give him more latitude and I told him I wouldn’t
the day before and -1 did some research on that, and he was exactly right. So he
obviously researched it because the case law says exactly what he said, for latitude. So
the next day, when he comes in, I was going to say you have more latitude while we’re
doing the trial, but then he wanted to take a plea.
(Ex. 3:76). This excerpt does not reveal a mere “impressing upon Boyd the need to follow the
rules of evidence,” it reveals the trial court’s own admission that the ruling was not consistent
with the governing case law. Realizing this, the trial court was prepared to reverse the ruling.
See Lucas, U.S. at 151 (In a criminal case, restrictions on a defendant’s rights “to confront
adverse witnesses, and to present evidence may not be arbitrary or disproportionate to the
purposes they were designed to serve”) (quoting Rock, 483 U.S. 44)). Moreover, this excerpt
plainly reveals that the trial court knew that Boyd was not entering his plea voluntarily. See
Brady v. United States, 397 U.S. 742, 755 (1970) (holding that a guilty plea or no contest plea
is not voluntary unless the defendant is “fully aware of the direct consequences [of his plea],
including the value of any commitments made to him by the court, prosecutor, or his own
counsel”) (emphasis added). By intentionally withholding such critical information from
Boyd, the trial court completely undermined the integrity of Boyd’s no contest plea. Brady
makes clear that “to be valid, a guilty or no contest plea must be entered knowingly,
voluntarily, and intelligently.” 397 U.S. at 748. Without knowing the actual value of the trial
court’s no latitude ruling, Boyd could not have entered a valid no contest plea. By ignoring
this excerpt from the evidentiary hearing transcript, the Wisconsin Court of Appeals’ decision
was unreasonable under §2254(d)(2).
The same can be said of the plea hearing transcript. During the plea colloquy, Boyd
explicitly informed the trial court that he felt “a lot of pressure”, to plead no contest as a direct
result of the trial court’s no latitude ruling. Most strikingly, however, is the fact that this
28

occurred when the trial court specifically wanted Boyd to agree that he was not being
pressured by the court:
THE COURT: Do you understand that - or your pleas to the two counts of first-degree
sexual assault of a child without the persistent repeater -your plea to those two
charges are no contest?
THE DEFENDANT: Yeah, I feel a lot of pressure, but yeah, I feel I don’t really have
any other option but to do that.
THE COURT: Well, obviously I understand how you feel pressure, and I just want
you to understand—or agree that I’m not pressuring you, you don’t feel pressure from
me, do—
THE DEFENDANT: Pressure that I - since coming in yesterday, I feel pressured
today.
THE COURT: You - you feel pressure based upon the rulings I made?
THE DEFENDANT: Yes. I don’t feel I’m going to be able to get a fair trial here.
(Doc. 12-23:6). Yet nowhere in the entire plea hearing transcript did the trial court ever
bother to mention that the no latitude ruling would be reversed if Boyd proceeded to trial.
There can be no doubt that the trial court withheld this information from Boyd because it
knew that, with it, Boyd would have gone to trial:
THE COURT: [...] so I think even at that point standby counsel would have been
there, but he would have tried the case.
(Ex. 3:77). In sum, The Wisconsin Court of Appeals was unreasonable under §2254(d)(2)
when it closed its eyes to the plain meaning of the trial court’s no latitude ruling as revealed in
these key aspects of the plea hearing and evidentiary hearing transcripts.
S2254IA1 ARGUMENT AND REQUEST FOR RELIEF
VL

Boyd’s unsolicited participation by standby counsel and right to confrontation
and compulsory process claims meet the burden set out in §2254(d), so this
Court must conduct an independent review of these constitutional claims
under §2254(a).
Having shown that the state court made unreasonable determinations of fact, acted

contrary to clearly established federal law, and unreasonably applied clearly established
federal law, Boyd’s claims survive the threshold review set out in §2254(d)(l) and (d)(2). The
29

merits of his unsolicited participation by standby counsel and right to confrontation and
compulsory process claims must therefore be reviewed under §2254(a) de novo without
deference to the state court’s decision-making, in order to determine whether a constitutional
violation has occurred. See Mosley v. Atchison, 689 F. 3d 838, 849-51 (7th Cir. 2012) (setting
out this two-step analysis).
Boyd hereby incorporates the arguments made above regarding the merits of his
unsolicited participation by standby counsel claim and his right to confrontation and
compulsory process claim and, on the basis of those arguments and the factual record as
developed in state court, respectfully requests that this court grant him a writ of habeas corpus
so that he may be discharged from his unconstitutional confinement and restraint.
Alternatively, because much of the evidence presented herein was not considered by the state
courts due to the failure to provide a requested evidentiary hearing, this Court can assume its
truth in assessing the issue on a de novo basis and, in its discretion, conduct an evidentiary
hearing on both claims under the dictates of Cullen v. Pinholster, supra.

Respectfully submitted this 31 ^ day of

Petitioner

Vincent E. Boyd
G.B.C.I.
P.O. Box 19033
Green Bay, WI 54307

30

■-V

, 2018,

